<html>
<title> - CURRENT NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 110-104]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-104
 
                   CURRENT NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 553                                S. 800
 
                           S. 916                                S. 1057
 
                           S. 1209                               S. 1281
 
                           H.R. 161                              H.R. 247
 
                           H.R. 376
 
 

                                     

                               __________

                              MAY 15, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources




                     U.S. GOVERNMENT PRINTING OFFICE

37-069 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                RICHARD BURR, North Carolina
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Burr, Hon. Richard, U.S. Senator from North Carolina.............     8
Cantwell, Hon. Maria, U.S. Senator from Washington...............    31
Craig, Hon. Larry E., U.S. Senator from Idaho....................     7
Dennis, Jack, Honorary Chairman, Campaign for The Snake 
  Headwaters, Jackson, WY........................................    32
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........    12
Feinstein, Hon. Dianne, U.S. Senator from California.............     1
Holtrop, Joel, Deputy Chief, National Forest Service, Department 
  of Agriculture.................................................    23
Ikeda, Tom, Executive Director, Densho: The Japanese American 
  Legacy Project.................................................    35
Santucci, George, Executive Director, National Committee for The 
  New 
  River..........................................................    40
Schumer, Hon. Charles E., U.S. Senator from New York.............     9
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     6
Vail, Timothy B., D.V.M., Vail & Vickers Company, Santa Rosa 
  Island, CA.....................................................    43
Wenk, Daniel N., Deputy Director for Operations, National Park 
  Service, Department of the Interior............................    13

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    57

                              Appendix II

Additional material submitted for the record.....................    69


                   CURRENT NATIONAL PARKS LEGISLATION

                              ----------                              


                         TUESDAY, MAY 15, 2007

                               U.S. Senate,
                    subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:05 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. The Committee on Energy and Natural 
Resources, Subcommittee on National Parks will come to order.
    I would like, to begin with, to receive your statement 
first. So I ask Senator Feinstein, before my statement, to 
proceed with your statement at this point in time.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Well, thank you very much, Mr. Chairman. 
I very much appreciate that courtesy. I would like you to know 
that I make this statement on behalf of my colleague Senator 
Boxer, who is on the floor handling the bill.
    Mr. Chairman, this legislation aims to protect--and this is 
the second year we have been here for this. This legislation 
was passed out of this subcommittee last year. Its aim is to 
protect the spectacular, rugged, and truly unique habitat of 
Santa Rosa Island for the enjoyment of the public by clarifying 
the future use and management of the park.
    Santa Rosa is approximately 53,000 acres. It lies 50 miles 
west of Ventura Harbor in southern California. It is the second 
largest of the five islands making up the Channel Islands 
National Park. It is unspoiled, ecologically sensitive, has 
terrain ranging from grassy hills to steep, wind-carved canyons 
to white sandy beaches.
    In 1986--and this is the key--the taxpayers paid the Vail & 
Vickers Company approximately $30 million to acquire this 
island to restore its native ecology and provide public access. 
In 1997 there was a court-approved settlement that stipulated 
that Vail & Vickers had to remove the non-native deer and elk 
herds from the island by 2011. This is because from mid-August 
through mid-November about 90 percent of the island is closed 
to the public--so despite the fact it is a national park, it is 
closed to the public--so that trophy hunts targeting non-native 
deer and elk can take place. Some of those trophies are as much 
as $16,000 for a head.
    I believe that the limitation of public access to this 
island would be a mistake. This is, after all, the public's 
land. It is a national park. The public should be able to 
visit. That is why we introduced this legislation.
    Late last year, Congressman Hunter added a provision to the 
2007 defense authorization bill that essentially stated this: 
The Secretary of the Interior shall immediately cease the plan 
approved in the court settlement agreement, to exterminate the 
deer and elk on Santa Rosa Island, Channel Islands, by 
helicopter and shall not exterminate or nearly exterminate the 
deer and elk.
    The goal of this legislation that Senator Boxer and I have 
introduced is simply to repeal this provision; no more, no 
less.
    Now, let me clarify some misconceptions about the bill. The 
National Rifle Association and a number of other groups have 
contended that the bill would seek to end hunting on Santa Rosa 
by 2011--hunting that would otherwise continue. This is 
incorrect. The court-approved settlement requires the hunting 
to end by 2011 and the Duncan Hunter provision I just read does 
nothing to alter the end date for the hunting.
    This is not just my view; it is the interpretation of the 
National Park Service Director Mary Bomar in an April 2007 
letter to Congresswoman Capps, which I ask, Mr. Chairman, be 
added to the record.
    Senator Akaka. It will be included in the record.
    Senator Feinstein. Thank you.
    Instead of altering the 2007 end date for hunting on the 
island, Congressman Hunter's provision addresses the question 
of how the existing deer and elk on the island are to be 
removed. These animals are the private personal property of the 
Vail & Vickers Company and it is up to the company to remove 
them from Santa Rosa Island per the settlement agreement.
    The National Park Service has made it clear that no plan 
for the extermination of the deer and elk has been presented to 
them or internally generated. While the settlement agreement 
seems to suggest that the Park Service might help in sharing 
unusual costs related to the removal, the provision in last 
year's defense authorization bill may well prevent the Park 
Service from assisting in this process.
    I have been informed by the National Park Service that 
should the Vail & Vickers Company request their assistance to 
remove the animals they would be willing to provide guidance on 
removing the herds, including potential non-lethal options of 
transporting the deer and elk off the island. For my part, I 
stand ready to work with the National Park Service on this 
issue if its assistance is requested.
    The settlement agreement declares the deer and elk again to 
be the private property of Vail & Vickers and it says the 
method of removal must be decided by the owners. So this is up 
to them. Thus, contrary to the suggestion of opponents of this 
bill, there is nothing in this legislation requiring the mass 
culling of non-native deer and elk off the island.
    Originally Congressman Hunter said the goal of his language 
was to provide enhanced hunting opportunities for disabled 
veterans. The problem is the island is not suitable for 
paralyzed veterans, and as a matter of fact the Paralyzed 
Veterans of America in July 2006 went over to see if it was, 
and they reached the conclusion that, ``Numerous obstacles 
inherent to the island, including ingress and egress, 
logistics, personal safety, and cost, far outweigh the possible 
limited benefit it could provide.''
    I ask that a copy of this statement be entered into the 
record as well.
    Senator Akaka. It will be included in the record.
    Senator Feinstein. Additionally, I want to make clear that 
both Senator Boxer and I fully support the settlement 
agreement. Nothing in this bill would prevent hunting on the 
island from continuing through 2011, as it is allowed to in the 
settlement agreement.
    I also believe that the Park Service should continue 
managing this national park for the benefit of the general 
public. This legislation would safeguard Santa Rosa Island in 
just this manner. I think to allow anything less is a waste of 
taxpayer dollars. Remember, that island was purchased by the 
Federal Government for a national park from Vail & Vickers.
    So I thank the committee and I ask you for your support on 
the bill.
    [The prepared statement of Senator Feinstein follows:]
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                               California
    Chairman Akaka, Senator Thomas (Ranking Member), and Members of the 
Subcommittee--let me thank you for the opportunity to testify before 
you on S. 1209, the ``Channel Islands National Park Management Act.'' 
My cosponsor Senator Boxer sends her strong support for the bill and 
her regrets that she can't be here due to her responsibilities for 
managing the WRDA legislation on the floor.
    This legislation protects the spectacular, rugged, and truly unique 
habitat of Santa Rosa Island for the enjoyment of the public by 
clarifying the future use and management of the Park.
    For those who may not know, Santa Rosa Island is approximately 
53,000 acres and lies 50 miles west of Ventura Harbor. It is the second 
largest of the five islands making up the Channel Islands National 
Park.
    It is unspoiled and ecologically sensitive with terrain ranging 
from grassy hills to steep, wind-carved canyons to white sandy beaches.
    In 1986, the taxpayers paid the Vail and Vickers Company 
approximately $30 million to acquire Santa Rosa Island in order to 
restore its native ecology and provide public access.
    Later, in 1997, a court-approved settlement agreement stipulated 
that Vail and Vickers had to remove the non-native deer and elk herds 
from Santa Rosa by 2011.
    This is because from mid-August through mid-November, about 90 
percent of the island is closed to the public so that trophy hunts 
targeting non-native deer and elk can take place.
    I believe the continued limitation of public access to the island 
would be a mistake. This is the public's land. It's a national park, 
and the public should be able to visit it and enjoy its breath-taking 
beauty and remoteness year round. That is why we introduced this 
legislation--to clarify that the settlement agreement restoring full 
public access to the island by 2011 can be implemented without 
ambiguity or complication.
    Late last year, Congressman Hunter added a provision to the FY07 
Defense Authorization bill that states the following:

          The Secretary of the Interior shall immediately cease the 
        plan, approved in the settlement agreement for case number 96-
        7412 WJR and case number 97-4098 WJR, to exterminate the deer 
        and elk on Santa Rosa Island, Channel Islands, by helicopter 
        and shall not exterminate or nearly exterminate the deer and 
        elk.

    The goal of my legislation is simply to repeal this provision--no 
more and no less.
    Let me clarify some misconceptions about my bill. First of all, the 
National Rifle Association and a number of other groups have contended 
that the bill would seek to end hunting on Santa Rosa Island by 2011, 
hunting that would otherwise continue.
    This is incorrect. The court-approved settlement agreement requires 
the hunting to end by 2011, and the Duncan Hunter provision that I just 
read does nothing to alter this end date for the hunting. This is not 
just my view--this is the interpretation of National Park Service 
Director Mary Bomar in an April 2007 letter to Congressman Capps, which 
I ask be included in the record.
    Instead of altering the 2011 end date for hunting on the island, 
Congressman Hunter's provision addresses the question of how the 
existing deer and elk on the island are to be removed.
    These animals are the ``private personal property'' of the Vail and 
Vickers Company, and it is up to the company to remove them from Santa 
Rosa Island per the settlement agreement.
    The National Park Service has made it clear that no plan for the 
``extermination'' of the deer and elk has been presented to them or 
internally generated.
    And while the Settlement Agreement seems to suggest that the Park 
Service might help in sharing ``unusual costs'' related to the removal, 
the provision in last year's Defense Authorization bill may well 
prevent the Park Service from assisting in this process.
    I have been informed by the National Park Service that should the 
Vail and Vickers Company request their assistance to remove the 
animals, they would be willing to provide guidance on removing the 
herds, including potential non-lethal options of transporting the deer 
and elk off the island. For my part, I stand ready to work with the 
National Park Service on this issue if its assistance is requested.
    The settlement agreement declares the deer and elk to be the 
private property of Vail and Vickers and says the method of removal 
must be decided by the owners.
    Thus, contrary to the suggestion of opponents of the bill, there is 
nothing in this legislation requiring the mass culling of the non-
native deer and elk population on the island.
    Originally Congressman Hunter said the goal of his language was to 
provide enhanced hunting opportunities for disabled Veterans.
    While we all support providing hunting opportunities for our 
Veterans, it is clear that it is neither a practical nor viable option 
to use Santa Rosa Island as a hunting reserve for injured and disabled 
veterans.
    This is not just my view, but also the view of the Paralyzed 
Veterans of America.
    In July 2006, following an investigative visit to Santa Rosa, the 
Paralyzed Veterans of America reached the conclusion that the 
``numerous obstacles inherent to the island, including ingress and 
egress, logistics, personal safety and cost, far outweigh the possible, 
limited benefit it could provide.'' I would ask that a copy of this 
statement be inserted in the record.
    Additionally, I want to make clear that I fully support the 
settlement agreement. Nothing in this bill would prevent hunting on the 
island from continuing through 2011, as it is allowed to in the 
settlement agreement.
    In conclusion, I strongly believe that the Park Service should 
continue managing this National Park for the benefit of the general 
public. This legislation would safeguard Santa Rosa Island in just this 
manner. To allow any less would be a waste of taxpayer dollars and 
wrongly limit the public's access to this national treasure.
    I thank the Committee and ask for your support for this bill.

    Senator Akaka. Thank you very much, Senator Feinstein. 
Thank you for your statement.
    Senator Feinstein. Thank you.
    Senator Akaka. Thank you so much.
    Senator Feinstein. May I be excused to go to that----
    Senator Akaka. You certainly may.
    Senator Feinstein. Thank you very much.
    Senator Akaka. Thank you for being here.
    Senator Feinstein. I appreciate that. Thank you.
    Senator Craig. Mr. Chairman, before the Senator leaves----
    Senator Akaka. Senator Craig.
    Senator Craig. I just wanted to make a comment. The three 
of us were up here discussing a field trip to the island some 
time in late summer with camo and hunting gear.
    Senator Feinstein. You would.
    [Laughter.]
    Senator Craig. No, we would like to have you go with us.
    Senator Feinstein. Actually, I would like to go to the 
island. I accept.
    Senator Craig. There you go. Thank you.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Feinstein. You 
are excused.
    Senator Feinstein. Thank you.
    Senator Akaka. The purpose of the hearing is to consider 
the following bills: S. 553, Senator Dodd's bill to designate 
certain segments of the Eightmile River in the State of 
Connecticut as components of the National Wild and Scenic 
Rivers System;
    S. 800, Senator Schumer's bill to establish the Niagara 
Falls National Heritage Area in the State of New York;
    S. 916, Senator Craig and Senator Cantwell's bill to modify 
the boundary of the Minidoka Internment National Monument, and 
for other purposes;
    S. 1057, Senator Byrd's bill to designate certain segments 
of the New River in the States of North Carolina and Virginia 
as components of the National Wild and Scenic Rivers System;
    S. 1209, Senator Feinstein's bill to provide for the 
continued administration of Santa Rosa Island, part of the 
Channel Islands National Park, in accordance with the laws, 
regulations, and policies of the National Park Service;
    And S. 1281, Senator Thomas's bill to designate certain 
rivers and streams of the headwaters of the Snake River in 
Wyoming as additions to the National Wild and Scenic Rivers 
System.
    We also have three House-passed bills on the agenda:
    H.R. 161, to adjust the boundary of the Minidoka Internment 
National Monument to include a memorial on Bainbridge Island, 
Washington;
    H.R. 247, to designate a Forest Service trail at Waldo Lake 
in the Willamette National Forest in the State of Oregon as a 
national recreation trail in honor of Jim Weaver, a former 
member of the House of Representatives;
    And H.R. 376, to authorize a special resource study to 
determine the suitability and feasibility of including the 
battlefields and related sites of the First and Second Battles 
of Newtonia, Missouri, during the Civil War as part of Wilson's 
Creek National Battlefield or other appropriate designation.
    As you can see, we have a very ambitious agenda today. 
Based on the written testimony the committee has received, I 
believe most of these bills will be noncontroversial. I will 
work with the bills' sponsors and Senator Thomas on any 
necessary amendments so that they can be ready for full 
committee markup as soon as possible.
    We do have opposing views on the bill S. 1209, Senator 
Feinstein's bill addressing the management of Santa Rosa 
Island, California, which is part of the Channel Islands 
National Park. Last year language was included by the House of 
Representatives in the defense authorization bill to modify the 
management of Santa Rosa Island with respect to deer and elk on 
the island that are managed under a court-approved settlement 
agreement.
    The provision was included outside of the committees of 
jurisdiction and was opposed by both the California Senators 
and the Congresswoman in whose district the park lies. In 
response to that proposal, this committee unanimously reported 
and the Senate subsequently passed a resolution urging that 
Santa Rosa Island be managed in accordance with the laws that 
govern the management of national parks.
    Consistent with that resolution, I support Senator 
Feinstein's effort to repeal last year's rider and to clarify 
that this national park will be managed by the same standards 
that apply to all other national park areas.
    I understand that there is considerable disagreement 
between the Park Service and the former owners of the island 
about the effect of the deer and elk on park resources, as well 
as the broader question of whether hunting should be permitted 
in a national park. Representatives from both the National Park 
Service and the Vail & Vickers Company will testify today, so 
we can explore those issues in greater detail.
    At this time I would like to recognize the ranking member 
of the subcommittee, Senator Thomas, for any statement you 
would care to make.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Senator Akaka.
    First I would like to welcome Jack Dennis from Jackson, 
Wyoming, who is here to testify for the scenic rivers bill. He 
is one of the world-famous fly fishermen, so I think that is 
particularly important.
    Thank you for holding this hearing and for including the 
bill to designate the Snake River headwaters and certain 
tributaries as an addition to the National Wild and Scenic 
Rivers System. It recognizes the best free-flowing rivers in 
the United States by preserving the outstanding and remarkable 
features and values. I am proud to say that Wyoming is home to 
some of the cleanest and most free-flowing rivers in our 
Nation. So I will not take more time, but I think it is very 
important, this river that is headquartered right next to Teton 
National Park, Yellowstone National Park, the Forest Service 
area there, and I think it is very appropriate.
    By the way, we are in the process of putting some 
clarifying language in so that Idaho will not have to worry 
about removing some of the water from the lake through the 
river.
    Thank you for the witnesses being here and thanks for 
having this hearing.
    Senator Akaka. Thank you very much, Senator Thomas.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much.
    I wanted to put in the record a statement in relation to 
the Minidoka National Historic Site, which is S. 916. I along 
with Senators Cantwell, Crapo, and Murray have introduced 
legislation to expand the boundaries of Minidoka Internment 
National Monument that was created by presidential proclamation 
in 2001.
    Many of you may remember a dark moment in our history in 
1942 during World War II. The United States forcibly removed 
Japanese Americans from their homes to relocation centers 
similar to the site in Idaho. The Minidoka camp was a temporary 
home for over 13,000 Japanese Americans until 1945. From that, 
nearly 1,000 of those internees fought in the United States 
military and more than 70 of them gave their lives.
    S. 916 creates the Bainbridge Island Japanese American 
Memorial, increases the size of the Minidoka Internment 
National Monument, and changes the name to ``Minidoka National 
Historic Site'' and authorizes a title transfer from the Bureau 
of Reclamation to the American Falls Reservoir District No. 2. 
Additionally, this bill conveys facilities, lands, and 
buildings to various groups, including State of Idaho 
Department of Fish and Game, City of Gooding, and the National 
Park Service. Many of these lands and buildings are already 
being managed by these groups.
    The process to determine the lands and purpose was widely 
cooperative and is supported by local constituents and the 
local government. This bill makes perfect economic sense for 
the Bureau of Reclamation, the National Park Service, as well 
as local communities in Idaho and Washington.
    However, in working with the Senate co-sponsors, 
Congressmen Inslee and Simpson, with all of them, we have 
crafted a substitute amendment. The substitute would include 
the current language, along with a 128-acre Farm in a Day site. 
For those of you who are not familiar with the Farm in a Day 
concept, it was quite a community event. People from around the 
country would assemble and build one or more farms in a single 
day. This Farm in a Day site provided land for returning 
soldiers from World War II--and it would be a great educational 
site for future generations.
    We have distributed copies of the substitute amendment, Mr. 
Chairman, to the National Park Service as well as the committee 
and will offer the substitute in the appropriate committee 
markup.
    I would like to provide my statement as well as the letter 
dated May 4, 2007, from the Conservation Fund as a part of the 
record, and I thank you.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    I along with Senators Cantwell, Crapo, and Murray have introduced 
legislation to expand the boundaries of the Minidoka Interment National 
Monument that was created by Presidential proclamation in 2001.
    Many of you may remember a dark moment in our history, in 1942 
during World War II, the United States forcibly removed Japanese-
Americans from their homes to relocation centers similar to the site in 
Idaho. The Minidoka camp was a temporary home for over 13,000 Japanese-
Americans until 1945. From that, nearly 1,000 of those internees fought 
in the United States military and more than 70 of them gave their 
lives.
    S. 916 creates the Bainbridge Island Japanese American Memorial, 
increases the size of the Minidoka Interment National Monument and 
changes the name to Minidoka National Historic Site, and authorizes a 
title transfer from the Bureau of Reclamation to the American Falls 
Reservoir District Number 2.
    Additionally, this bill conveys facilities, lands, and buildings to 
various groups including the State of Idaho, the Department of Fish and 
Game, the City of Gooding and the National Park Service. Many of these 
lands and buildings are already being managed by these groups.
    The process to determine lands and purpose was widely cooperative 
and is supported by local constituents and governments. This bill makes 
perfect economic sense for the Bureau of Reclamation, National Park 
Service as well as local communities in Idaho and Washington.
    However, in working with the Senate cosponsors and Congressmen 
Inslee and Simpson, we have crafted a substitute amendment. The 
substitute would include the current language along with a 128-acre 
``farm in a day'' site.
    For those of you who are not familiar with the ``farm in a day'' 
concept, it was quite the community event. People from around the 
county would assemble and build one or more farms in a single day. This 
``farm in a day'' site provided land for returning soldiers from World 
War II and would be a great educational site for future generations.
    We have distributed copies of the substitute amendment to the 
National Park Service as well as to the committee and will offer the 
substitute in the appropriate committee markup.
    I would like to make my statement as well as a letter dated May 
4th, 2007 from the Conservation Fund as part of the record.
    Thank You.

    Senator Akaka. Your statement and the letter will be 
included in the record.
    Senator Akaka. Senator Burr.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman.
    I would also like to welcome George Santucci, who is the 
Executive Director of the National Committee for the New River, 
who lives in West Jefferson, North Carolina, who is testifying 
today.
    North Carolina is blessed with one of the oldest rivers in 
the country, the New River. It's unique in that it flows south 
to north, as it originates in the Appalachians, flows through 
North Carolina and Virginia several times before heading to the 
State of West Virginia and creating one of the most 
breathtaking natural wonders in the East, the New River Gorge.
    In 1976 North Carolina decided the headwaters of the New 
River should be protected for future generations and, in 
conjunction with the Department of the Interior, designated the 
New River as part of the National Wild and Scenic Rivers 
System. In the mid-1990s, the New River was the first of the 
Clinton Administration's proposals for American Heritage Rivers 
and the President and Vice President at the time went down for 
that ceremony.
    I wish that now, over 30 years later, I felt secure that 
the New River was protected from environmental degradation. 
Unfortunately, there are some who view the New River as 
insignificant and essentially a dumping ground for State 
projects that no one else wants. Because of these actions, it 
is clear to me that we need to protect the New River and remind 
those who would do it harm that it does not belong to Virginia 
or North Carolina or West Virginia; it is a treasure for all 
Americans.
    That is why I introduced this bill, so that the New River 
will be protected today and in the future for the people of 
North Carolina, Virginia, West Virginia, and for all the people 
in this country.
    I thank the chair and I yield back.
    Senator Akaka. Thank you very much, Senator Burr.
    Now we are glad to have Senator Schumer and we look forward 
to your statement, Senator Schumer.

  STATEMENT OF HON. CHARLES E. SCHUMER, U.S. SENATOR FROM NEW 
                              YORK

    Senator Schumer. Well, thank you, Mr. Chairman, and I want 
to thank you and ranking member Thomas for holding this 
hearing. I know you have a busy agenda, as you have outlined, 
so I will keep my remarks brief and ask unanimous consent that 
my entire statement be read into the record.
    Senator Akaka. Without objection, it will be included in 
the record.
    Senator Schumer. I am here to testify today in strong 
support of S. 800. That is the Niagara Falls National Heritage 
Area Act. This important legislation would designate land and 
thematic sites along the entire Niagara River corridor from 
Buffalo in the south to Lake Ontario in the north as a national 
heritage area. For the first 5 years of this heritage area, a 
Federal commission would work to implement a management plan to 
capture the full benefits of the natural, historic, cultural, 
and recreational resources of the entire Niagara Falls region. 
Establishing this heritage area will allow us to protect the 
world-class natural resources of Niagara Falls, while promoting 
tourism and economic development in the region.
    Known all over the world, Niagara Falls is a geological 
wonder that has drawn visitors for more than 200 years. But the 
region has so much more than just the profound drama of 
cascading water. The Niagara corridor has played an important 
role in our Nation's history. Native American culture, early 
European exploration, the French and Indian War, the American 
Revolution, the War of 1812, the Underground Railroad, and the 
development of hydroelectric power all have strong connections 
to the region.
    Furthermore, the Niagara River corridor abounds with scenic 
beauty that offers something for recreational enthusiasts of 
all stripes. With numerous State parks in the vicinity, hikers, 
fishermen, birders, hunters flock to the region to enjoy its 
outdoor splendor.
    Despite these strong assets for tourism, visits on the U.S. 
side of Niagara Falls have been on the decline for several 
years. Too much of the New York side of the border is marked by 
aging Niagara Falls and blighted land. All too frequently, 
visitors spend far more time on the Canadian side of the falls 
while barely visiting the New York side. We need to reverse 
this trend, Mr. Chairman.
    Let me be clear. The attractions and resources exist for 
the Niagara River corridor to become a world-class destination. 
But the attractions it offers lack a comprehensive unifying 
thread that ties the elements together in a meaningful way for 
the visitor. Designating the land a heritage area will help us 
link the existing sites of interest in a coordinated fashion, 
market the region effectively and attract more visitors. It 
will promote collaboration among Federal, State, and local 
resources to help spur investment in economic development in 
the region.
    Already a great deal of time and effort has been devoted to 
making this heritage area a reality. Every step of the way has 
been marked by significant participation and guidance from the 
National Park Service. In fact, it was a National Park Service 
employee who suggested the heritage area was appropriate for 
Niagara Falls when we started working on this about 6 years 
ago.
    In 2001, at my request, an NPS reconnaissance team visited 
the region and recommended a congressionally authorized study 
to be undertaken to determine the best development strategies 
for the area along the Niagara River. In 2005 the Park Service 
completed that study. They found strong local support for the 
heritage area as well as the need for the resources it would 
offer. The report wrote that, ``In order for Niagara Falls to 
fulfill its strategic role as a key regional attraction, it is 
necessary for it to upgrade the visitor experience to match the 
expectations of 21st century travelers.''
    The study concluded that, based on Niagara Falls's natural 
and cultural resources, the evidence of a thematic framework, 
the potential for effective public and private partnerships, as 
well as strong public support, the region met the criteria for 
designation as a national heritage area.
    The $10 million authorized under this Act should help 
Niagara Falls realize a substantial return on that investment. 
First and foremost, any Federal expenditure would have to be 
matched by State, local, or private contributions, adding 
millions more to the region. Second, it is estimated 
implementing the heritage area would attract 140,000 new 
visitors per year. Some estimates say that that would infuse up 
to $20 million into the local economy.
    The Federal commission charged with formulating a 
management plan represents the best of both worlds. The 
commission will benefit from the expertise of the National Park 
Service and Department of the Interior in formulating a 
management plan. Yet it will be comprised of local leaders 
familiar with the region's needs and character. That was one of 
the reasons we chose this, Mr. Chairman, to have the blend.
    You might ask why Niagara Falls does not have any Federal 
designation when it is such a wonder, and it is because of this 
constant concern about local input and national needs. The Park 
Service helped us come up with this plan.
    It is my understanding that the National Park Service is 
looking to make a few technical corrections to this bill in 
order to clarify the appointments process of the commission 
members and create an interim management review. I look forward 
to working with the Department and the committee to ensure this 
bill is satisfactory to all parties.
    Mr. Chairman, in conclusion, with the summer season fast 
approaching--summer tourist season--we are reminded that far 
too many visitors only view Niagara Falls from the Canadian 
side. They have missed out on the history, culture, recreation, 
and natural beauty that are found in equal measure on the New 
York side. This legislation will take great strides in 
balancing the inequity and help revitalize an area of our 
country in need of investment and economic development.
    I want to thank you and ranking member Thomas for this 
important hearing.
    [The prepared statement of Senator Schumer follows:]
   Prepared Statement of Hon. Charles E. Schumer, U.S. Senator From 
                                New York
    Good afternoon to all the members of the Subcommittee on National 
Parks. I'd like to begin by giving special thanks to Chairman Akaka and 
Ranking Member Thomas for holding this hearing today. I know the 
Subcommittee has a full agenda, so I will keep my remarks brief.
    I am here to today to testify in strong support of S. 800, the 
Niagara Falls National Heritage Area Act. This important legislation 
would designate land and thematic sites surrounding the entire Niagara 
River corridor from Buffalo in the south, to Lake Ontario in the North, 
as a National Heritage Area.
    For the first five years of this heritage area, a federal 
commission would work to implement a management plan to capture the 
full benefits of the natural, historic, cultural and recreational 
resources of the entire Niagara Falls region. Establishing this 
heritage area will allow us to protect the world class natural 
resources of Niagara Falls, while promoting tourism and economic 
development in the region.
    Known the world over, Niagara Falls is a geological wonder that has 
drawn visitors for more than 200 years. But the region has so much more 
than just the profound drama of cascading water.
    The Niagara River corridor has played an important role in our 
nation's history. Native American culture, early European exploration, 
the French and Indian War, the American Revolution, the War of 1812, 
the Underground Railroad and the development of hydro-electric power 
all have strong connections to the region.
    Furthermore, the Niagara River corridor abounds with scenic beauty 
that offers something for recreational enthusiasts of all stripes. With 
numerous State parks in the vicinity, hikers, fisherman, birders and 
hunters flock to the region to enjoy its outdoor splendor.
    Yet despite these strong assets for tourism, visits on the U.S. 
side of Niagara Falls have been on the decline for several years. Too 
much of the New York side of the border is marked by aging 
infrastructure and blighted land. And all too frequently, visitors 
spend far more time on the Canadian side of the falls, while barely 
visiting the New York side. We need to reverse this trend.
    Let me be clear: the attractions and resources exist for the 
Niagara River corridor to become a world class destination. But the 
attractions it offers lack a comprehensive, unifying thread that ties 
the elements together in a meaningful way for the visitor.
    Designating the land a heritage area will help us link the existing 
sites of interest in a coordinated fashion, market the region 
effectively and attract more visitors. It will promote collaboration 
among federal, state and local resources and help spur investment and 
economic development in the region.
    Already, a great deal of time and effort has been devoted to making 
this heritage Area a reality. Every step of the way has been marked by 
significant participation and guidance from the National Parks Service. 
In 2001, at my request, an NPS reconnaissance team visited the region 
and recommended a congressionally authorized study be undertaken to 
determine the best development strategies for area along the Niagara 
River.
    In 2005, the National Parks Service completed that study which 
provided an extensive analysis of the area. They found strong local 
support for the heritage area as well as a need for the resources it 
would offer. The report wrote that ``In order for Niagara Falls to 
fulfill its strategic role as a key regional attraction, it is 
necessary for it to upgrade the visitor experience to match the 
expectations of 21st-century travelers.''
    The study concluded that based on Niagara Falls' natural and 
cultural resources, the evidence of a thematic framework, the potential 
for effective public and private partnerships, as well as strong public 
support, the region met the criteria for designation as a National 
Heritage Area.
    The $10 million authorized under this act should help Niagara Falls 
realize a substantial return on investment. First and foremost, any 
federal expenditure would be matched by state, local or private 
contributions, adding millions more in investment to region. Second, it 
is estimated that implementing the heritage area would attract 140,000 
new visitors per year. Some estimates project that this would infuse up 
to $20 million into the local economy every year.
    The federal commission charged with formulating a management plan 
represents the best of both worlds. It will benefit from the expertise 
and experience of the National Parks Service and the Department of the 
Interior in formulating a management plan. Yet it will be comprised of 
local leaders familiar with the regions needs and character.
    It is my understanding that the National Parks Service is looking 
to make a few technical corrections to this bill in order to clarify 
the appointments process of commission members and to create an interim 
management review. I look forward to working with the department and 
the committee to ensure that this bill is fully satisfactory to all 
parties.
    With the summer tourist season fast approaching, we are reminded 
that far too many visitors only view Niagara Falls from the Canadian 
side of the border. They have missed out on the history, culture, 
recreation and natural beauty that are found in equal measure on the 
United States' side. This legislation will take great strides in 
balancing that inequity and help revitalize an area of our country in 
need of investment and economic development. I thank the Chair and the 
Committee for hearing this important issue.

    Senator Akaka. Thank you very much, Senator Schumer, for 
your statement. Thank you.
    Are there any questions?
    [No response.]
    Senator Akaka. There are none. Thank you so much for being 
here.
    I would like to include in the record a statement from 
Senator Dodd.
    [The prepared statement of Senator Dodd follows:]
     Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator 
                            From Connecticut
    Chairman Akaka, Ranking Member Thomas, and members of the 
Subcommittee, thank you for the opportunity to testify in support of S. 
553, the Eightmile Wild and Scenic River Act. I am pleased that with my 
friend and cosponsor Senator Lieberman I have introduced this bill to 
designate the Eightmile River in Connecticut a part of the Wild and 
Scenic Rivers System. In the House, Representatives Courtney, DeLauro, 
Larson, Murphy, and Shays have introduced companion legislation, and I 
am pleased to note that two weeks ago it was favorably reported.
    I think that the fact that the entire Congressional delegation has 
agreed to cosponsor this legislation speaks to the broad support 
designation of the Eightmile River has in Connecticut. The Connecticut 
State Legislature expressed its support by passing Public Act 05-18, 
declaring it the policy of the State that the river be preserved as 
provided for in the Wild and Scenic Rivers act and directing the 
Commissioner of Environmental Protection to cooperate and assist in 
implementing the management plan. And, most importantly, designation is 
supported by the communities that will be most affected, those in the 
Eightmile watershed. This effort to preserve the special attributes of 
the Eightmile is a product of the communities' recognition of the 
beauty and fragility of the special place in which they live. Votes in 
each community were strongly in favor of designation, in part because 
the study process and debate allowed for many perspectives to be heard. 
I know of no organized opposition.
    The attributes of the river that are so valued by the residents of 
Connecticut include its clean water, with 92% of the watershed's 
streamwater meeting the State's highest quality standards, and no point 
sources of pollution. The streams flow freely with no dams or 
diversions--rare in a state that has been densely populated as long as 
Connecticut. Eighty percent of the land area is forested. The natural 
streams and large areas of interconneted forest provide habitat for 
rare species. The study for eligibility determined that the Eightmile 
River watershed ranks in the 99th percentile in New England for 
globally rare species per unit area. The residents also appreciate a 
unique cultural landscape: rural, with an absence of modem development, 
and an abundance of colonial homes and historic churches.
    The towns have begun to implement the parts of the watershed 
management plan that are in their jurisdiction; Congressional 
designation as a Wild and Scenic River will bolster these efforts and 
provide the stability for ongoing long-term preservation. I thank you 
for your consideration and urge you to support this bill.

    Senator Akaka. At this time I would like to welcome two 
administration witnesses and ask you to come forward: Dan Wenk, 
the Deputy Director for Operations, National Park Service; and 
Joel Holtrop, the Deputy Chief of the Forest Service. 
Gentlemen, welcome to the subcommittee. Your complete written 
statements will be included in the hearing record, so I would 
ask you both to please summarize your testimony as much as 
possible. Once you have completed your remarks on all of the 
bills, we will turn to questions.
    Mr. Wenk, will you please proceed?

 STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR FOR OPERATIONS, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Mr. Chairman, thank you for the opportunity to 
appear before the subcommittee to present the views of the 
Department of the Interior on seven bills on today's agenda.
    The first bill, S. 553, would designate segments of the 
Eightmile River and its tributaries as components of the Wild 
and Scenic Rivers System. While this study is still under final 
departmental review, it has preliminarily concluded that the 
proposed segments of the Eightmile River and its tributaries 
are eligible for inclusion in the National Wild and Scenic 
Rivers System because of their free-flowing nature and 
outstandingly remarkable scenic, geologic, fish, and wildlife 
values. Based on this, the Department supports enactment of 
this legislation.
    S. 553 would designate 25.3 miles of the Eightmile River 
and its tributaries to be administered by the Secretary of 
Interior. The river would be managed in accordance with the 
Eightmile River Watershed Management Plan, with the Secretary 
coordinating with the Eightmile River Coordinating Committee. 
It would be administered as a partnership wild and scenic 
river, similar to other recent designations in the Northeast. 
This approach emphasizes local and State management solutions 
and has proven effective as a means of protecting resource 
values without the need for direct Federal management or land 
acquisition.
    The second bill, S. 800, would designate the Niagara Falls 
National Heritage Area in the State of New York. While a 
feasibility study has found the Niagara Falls region 
appropriate for designation, we recommend that the committee 
defer action on S. 800 until program legislation is enacted 
that establishes guidelines and a process for the designation 
of a national heritage area.
    We look forward to continuing to work with Congress on this 
important issue. If the committee chooses to move ahead with S. 
800, the Department would like to work with the committee to 
make some technical corrections to the bill. In addition, the 
Department would recommend that the bill be amended to include 
an additional requirement for an evaluation to be conducted by 
the Secretary 3 years prior to the cessation of Federal funding 
under this Act.
    The two next bills, S. 916 and H.R. 161, would authorize 
the addition of Nidota Nai Yoni memorial on Bainbridge Island, 
Washington, to the boundary of Minidoka Internment National 
Monument in Idaho, as recommended by a special resource study 
the National Park Service completed last year. This memorial 
commemorates the Bainbridge Island residents who were the first 
group of Japanese Americans to be forcibly removed from their 
homes and relocated to internment camps during World War II. 
Most of the residents were sent to Minidoka Relocation Center.
    S. 916 has a second title that would authorize the 
conveyance of certain facilities, buildings, and lands of the 
Gooding Division of the Minidoka Project in Idaho to the 
American Falls Reservoir District No. 2 in accordance with an 
agreement successfully negotiated a few years ago. Title 2 also 
directs Reclamation to transfer title for specific smaller 
parcels to the National Park Service and other entities that 
currently manage the relevant lands.
    The Department supports the goals of both of these bills 
and we would be pleased to work with the committee and the 
sponsors of S. 916 and H.R. 161 as the legislation moves 
forward.
    The next bill, S. 1281, would designate 442 miles of rivers 
and streams of the headwaters of the Snake River as additions 
to the Wild and Scenic Rivers System. The Department supports 
the designation of the waters included in S. 1281 that flow 
through the lands administered by the National Park Service. 
While we support the approach taken by S. 1281 in protecting 
the watershed of the Snake River headwaters, we defer to the 
Department of Agriculture in regard to the portions of the bill 
that designate segments of the rivers that flow through lands 
administered by the U.S. Forest Service. In addition, we 
suggest several technical amendments which are described in my 
written statement.
    Next, S. 1209 would ensure that the laws governing the 
administration of Channel Island National Park supersede other 
provisions of the law that might interfere with the appropriate 
management. The bill would repeal a provision enacted last year 
that affected the limited role of the National Park Service in 
the planned removal of the deer and elk from the island in 
2011.
    The Department supports the bill. We are concerned about 
potential unforeseen consequences of a law that is interfering 
with the requirements of the 1998 court-approved settlement 
agreement that was drafted with careful consideration of each 
party's responsibility. Removal of the deer and elk by the end 
of 2011, as provided for under the settlement agreement, is 
essential because: No. 1, native plants and animals will be 
able to flourish; and No. 2, with private commercial hunting no 
longer an option, the entire island can be opened for 
recreational purposes such as hiking, camping, and sightseeing 
on a year-round basis.
    The final bill is H.R. 376, which would authorize a special 
resource study of the battlefields and related sites of the 
First and Second Battles of Newtonia, Missouri, during the 
Civil War. The September 30, 1862, battle involved Native 
American soldiers directly fighting each other and the October 
28, 1864, battle was the last Civil War battle fought within 
the borders of the State of Missouri and the culmination of 
Confederate Major General Sterling Price's 1864 Missouri 
expedition.
    The study would look at whether the area could be included 
as a new unit in the National Park System or as part of 
Wilson's Creek National Battlefield or determine if the Federal 
Government or another entity is the most appropriate entity to 
manage the site.
    The Department supports H.R. 376 as passed by the House. 
However, we believe that priority should be given to previously 
authorized studies.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions you or other members may have on these 
bills.
    [The prepared statements of Mr. Wenk follow:]
 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior
                                 s. 553
    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to discuss the views of the Department of the Interior 
on S. 553, a bill to amend the Wild and Scenic Rivers Act by 
designating segments of the Eightmile River and its tributaries as 
components of the Wild and Scenic Rivers System.
    The Department supports enactment of this legislation.
    S. 553 would designate 25.3 miles of the Eightmile River and its 
tributaries as part of the Wild and Scenic Rivers System, administered 
by the Secretary of the Interior. The River would be managed in 
accordance with the Eightmile River Watershed Management Plan with the 
Secretary coordinating with the Eightmile River Coordinating Committee. 
The bill authorizes the Secretary to enter into cooperative agreements 
with the State of Connecticut, the towns of Lyme, East Haddam, and 
Salem, Connecticut, and appropriate local planning and environmental 
organizations.
    The Eightmile River is located in the lower Connecticut River 
watershed in south central Connecticut. Its name comes from the fact 
that the river is located eight miles from the mouth of the Connecticut 
River. Fifteen miles of the Eightmile River and its East Branch through 
the communities of Lyme, East Haddam, and Salem, Connecticut are 
included on the National Park Service's Nationwide Rivers Inventory of 
potential wild and scenic river segments. Both segments are included on 
the inventory for outstanding scenic, geologic, fish and wildlife 
values. In addition to those values, the draft report also documents 
outstandingly remarkable water quality, hydrologic, and cultural 
resource values. Over eighty percent of the Connecticut River watershed 
is still forested, including large tracts of unfragmented hardwood 
forests that are home to a diverse assemblage of plants and animals 
including bobcats, Great Horned Owls, red foxes, and the Cerulean 
Warbler.
    P.L. 107-65, the Eightmile Wild and Scenic River Study Act of 2001, 
authorized a study of the Eightmile River for potential inclusion in 
the Wild and Scenic Rivers System. As a part of the study, the National 
Park Service worked with the communities of Lyme, East Haddam, and 
Salem, Connecticut; the State of Connecticut; The Nature Conservancy; 
and local conservation interests to study the natural and cultural 
resources of the Eightmile River and develop a management plan to 
conserve those special values. The resulting Eightmile River Watershed 
Management Plan (December, 2005) was brought before special town 
meetings in each of the communities and was overwhelmingly supported by 
the public, as was the plan's recommendation to seek Wild and Scenic 
River designation. While the study is still under final Departmental 
review, it has preliminarily concluded that the proposed segments of 
the Eightmile River and its tributaries are eligible for inclusion into 
the National Wild and Scenic Rivers System because of their free-
flowing nature and outstandingly remarkable scenic, geologic, fish and 
wildlife values.
    S. 553 would implement the environmentally preferred alternative 
contained in the draft study report, which was released for public 
review and comment in July 2006. This draft report highlights a 
watershed ecosystem that is unique within the State of Connecticut in 
terms of its intact hydrology, water quality and ecosystem health. The 
commitment of local, state and nongovernmental partners is also 
exemplary. Having already been through a local town meeting process, 
only one comment was received on the draft report--a letter of support 
from the State Park Director for the State of Connecticut. 
Consequently, while the study and the accompanying Finding of No 
Significant Impact (FONSI) document has not been finalized, the 
National Park Service does not anticipate making any changes in the 
study recommendations based on public comments.
    If S. 553 is enacted, the Eightmile River will be administered as a 
partnership wild and scenic river, similar to other recent designations 
in the northeast, including the Farmington River in Connecticut and the 
Musconetcong River in New Jersey. This approach emphasizes local and 
state management solutions, and has proven effective as a means of 
protecting outstandingly remarkable natural, cultural and recreational 
resource values without the need for direct federal management or land 
acquisition.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                 s. 800
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
800, a bill to establish the Niagara Falls National Heritage Area in 
the State of New York.
    While a feasibility study has found the Niagara Falls region 
appropriate for designation, we recommend that the committee defer 
action on S. 800 and all other proposed heritage area designations 
until program legislation is enacted that establishes guidelines and a 
process for the designation of national heritage areas. Last year, the 
Administration sent to Congress a legislative proposal to establish 
such guidelines and a process for designation. Bills were introduced in 
the 109th Congress (S. 243, H.R. 760 and H.R. 6287) that incorporated 
the majority of the provisions of the Administration's proposal, and S. 
243 passed the Senate. During the 110th Congress, a similar heritage 
area program bill, S. 278, has been introduced, and we look forward to 
continuing to work with Congress on this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    In 2006, the National Park Service completed a national heritage 
area feasibility study of the Niagara Falls region pursuant to Public 
Law 107-256, the ``Niagara Falls National Heritage Area Study Act.'' 
The study concluded that the region met all of the criteria for 
designation as a national heritage area including the existence of 
significant levels of public support and local commitments necessary 
for successful planning and implementation of a heritage area.
    The Niagara River flows for 35 miles between Lake Erie and Lake 
Ontario and includes the rapids, Niagara Falls, and the Niagara River 
Gorge. Eight parks operated by the State of New York are located along 
the river and within the gorge. The river forms a boundary between the 
United States and Canada.
    Niagara Falls is an internationally significant natural resource 
that attracts from 8 to 10 million visitors a year. It is one of the 
most well-known destination attractions in the United States and 
Canada. The Niagara River Gorge is an exceptionally scenic corridor, 
carved by the movement of the falls from its original location near 
Lewiston, New York (10,000 to 15,000 years ago) to its present location 
10 miles upstream at the City of Niagara Falls. Besides its scenic 
values, the gorge has been cited as a world-class location of fossils 
from the Upper Ordovician and Silurian periods.
    The Niagara River region contains a wide variety of flora and 
fauna. Recent inventories identified 1,623 plant species including 
unique miniature old growth eastern white cedars. Fauna inventories 
also include 50 mammal species, 17 amphibian species, 99 fish species, 
and 17 species of reptiles. Bird inventories identify 342 species 
including 19 separate species of gulls. One-day counts of gull 
populations have reached over 100,000 individuals. In recognition of 
this critical habitat, the National Audubon Society has designated the 
Niagara River as a Globally Important Bird Area.
    The region is also rich in cultural resources related to the 
history of the United States and Canada. It has significant 
associations with Native American habitation and early European 
contact, the French and Indian War, the American Revolution, and the 
War of 1812. It was also a major link in the Underground Railroad for 
African Americans escaping slavery to enter Canada. The existence of 
ample water made it an early site for hydroelectric power and it 
remains an important source to this day.
    Three National Historic Landmarks have been designated along the 
Niagara River. The Adams Power Transformer House, built in 1895, is the 
only surviving structure of a hydroelectric facility that has been 
called ``the birthplace of the modem hydroelectric power station.'' The 
Niagara Reservation, which includes the American Falls, was the first 
state park in the nation created under eminent domain and originally 
designed by Frederick Law Olmsted. The Colonial Niagara Historic 
District, within the communities of Lewiston and Youngstown, was a key 
portage route linking interior North America and the Atlantic seaboard 
until the late 1700s. It also contains extant resources associated with 
Native American occupation and early European contact. Historic Fort 
Niagara on the shore of Lake Ontario is an important component of the 
district. Within the City of Niagara Falls and the communities of 
Lewiston and Youngstown, there are 14 sites listed on the National 
Register of Historic Places.
    Despite the richness of the natural and cultural resources in the 
area, there is widespread belief that the United States side of the 
falls has never fully achieved its tremendous potential for visitors 
and for the local communities. A heritage partnership framework has 
been advocated as a way for the many partners in the region to protect 
its precious resources and further the contribution of the Niagara 
Falls region to the United States and to the people of New York. We 
have found considerable support for this proposal during the 
feasibility study.
    S. 800 provides for the establishment of a limited term (5-year) 
federal commission to undertake the heritage management plan and to 
identify a successor local coordinating entity representing the varied 
interests of the region. It includes the opportunity for a limited 
number of heritage area related resources, outside of the designated 
heritage area boundary, to participate in heritage area programs if 
they are identified as eligible through the heritage area management 
planning process. These provisions are consistent with the preferred 
alternative of the National Park Service national heritage area 
feasibility study.
    Mr. Chairman, while the proposed Niagara Falls National Heritage 
Area contains significant natural and cultural resources and meets the 
established criteria for congressional designation, we would again 
request that the committee defer action until national heritage area 
program legislation is enacted. However, if the committee chooses to 
move ahead with this bill, the Department would like to work with them 
to make some technical corrections to the bill. In addition, the 
Department would recommend that the bill be amended to include an 
additional requirement for an evaluation to be conducted by the 
Secretary, three years prior to the cessation of federal funding under 
this act. The evaluation would examine the accomplishments of the 
heritage area in meeting the goals of the management plan; analyze the 
leveraging and impact of investments to the heritage area; identify the 
critical components of the management structure and sustainability of 
the heritage area; and recommend what future role, if any, the National 
Park Service should have with respect to the heritage area.
    We are also advised by the Department of Justice that the 
restrictions placed on the Secretary's authority to appoint the members 
of the Niagara Falls National Heritage Area Commission raise 
constitutional concerns. We, along with the Department of Justice, 
would like to work with the committee to address these concerns.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any questions that you or 
the members of the committee may have.
                          s. 916 and h.r. 161
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on S. 916 and H.R. 161. Both bills 
would authorize the addition of the Nidoto Nai Yoni Memorial on 
Bainbridge Island, Washington to the boundary of the Minidoka 
Internment National Monument in Idaho. S. 916 would also authorize the 
conveyance of certain facilities, buildings and lands of the Gooding 
Division of the Minidoka Project in Idaho to the American Falls 
Reservoir District No. 2.
    The Department supports the goals of both S. 916 and H.R. 161.
    Minidoka Internment National Monument, in southern Idaho, was 
established by Presidential Proclamation in 2001 to provide 
opportunities for public education and interpretation of the internment 
of Japanese Americans during World War II. It is one of two units (the 
other being Manzanar National Historic Site in California) where the 
National Park Service documents and describes the experiences of the 
almost 120,000 Japanese Americans who were forced from their homes on 
the West Coast and in southern Arizona during World War II under 
Executive Order 9066. Most spent the next three years in one of ten 
``relocation centers'' across the country run by the War Relocation 
Authority. More than 13,000 Japanese Americans were incarcerated at the 
Minidoka Relocation Center, which was in operation from August 10, 1942 
to October 28, 1945.
    H.R. 161, which was passed by the House on February 6, 2007, and 
Title I of S. 916 would include the Bainbridge Island Japanese American 
Memorial in Washington in the boundary of the Minidoka Internment 
National Monument. The legislation would implement the recommendations 
of the study that the National Park Service conducted in accordance 
with Public Law 107-363, the Bainbridge Island Japanese American 
Memorial Study Act of 2002.
    The official name of the Japanese American memorial is ``Nidoto Nai 
Yoni,'' which means ``let it not happen again.'' It commemorates the 
Bainbridge Island residents who were the first group of Japanese 
Americans to be forcibly removed from their homes and relocated to 
internment camps. On the morning of March 30, 1942, 227 Bainbridge 
Island Nikkei were assembled at the Eagledale Ferry Dock on Bainbridge 
Island and transported to Seattle, where they were placed on a train 
that sent them to the Owens Valley Reception Center located at 
Manzanar, California. Most subsequently requested transfer to the 
Minidoka Relocation Center to join other Nikkei being sent there from 
Seattle, Portland, and other Pacific Northwest areas. The addition of 
the Bainbridge Island Memorial to the Minidoka Internment National 
Monument would make this direct connection between the two sites, and 
provide more context and depth to the broader story of Japanese 
American internment.
    The Nidoto Nai Yoni Memorial site consists of approximately 8 acres 
of land owned by the City of Bainbridge Island, Washington. Under S. 
916 and H.R. 161, as called for by the National Park Service's study, 
the site would be managed through a partnership arrangement between the 
National Park Service and other public and private entities, and costs 
would be shared among the partners. The estimate for the one-time cost 
to the National Park Service for development is $350,000 to $400,000 
for facility construction and interpretive media, using a 50/50 match 
with non-federal partners. Additionally, the National Park Service 
would contribute to the operational costs for the site by funding one 
permanent and up to three seasonal interpretive employees at an annual 
cost of up to $200,000 included in Minidoka Internment National 
Monument's operating budget. The principal role of the National Park 
Service at the Nidoto Nai Yoni Memorial site would be in the area of 
public interpretation and education.
    Title II of S. 916 would authorize the title transfer of federally 
owned facilities, buildings, and lands that are part of the Gooding 
Division of the Minidoka Project from the Bureau of Reclamation to the 
American Falls Reservoir District No. 2.
    Reclamation law and policy contemplate the transfer of projects to 
local entities where and when such transfer is appropriate. In 1995, 
the Bureau of Reclamation began an effort to facilitate the transfer of 
title to Reclamation projects and facilities in a consistent and 
comprehensive way. Reclamation developed a process known as the 
Framework for the Transfer of Title--a process whereby interested non-
federal entities would work with and through Reclamation to identify 
and address all of the issues that would enable the title transfer to 
move forward. Once completed, Reclamation and the entity interested in 
taking title would work with the Congress to gain the necessary 
authorization for such a title transfer. In the case of the transfer 
authorized by this bill, Reclamation and the American Falls Reservoir 
District No. 2 have worked collaboratively and efficiently to 
successfully address all the elements of Reclamation's title transfer 
policy framework.
    One of the Administration's goals in title transfer is to protect 
the financial interest of the United States. In this case, the full 
costs of all facilities, buildings, and acquired lands to be 
transferred, including its central feature, the Milner-Gooding Canal, 
have already been repaid pursuant to the District's amendatory 
repayment contract. The District has also identified some withdrawn 
lands for which they would like to gain title and have agreed to pay 
the fair market appraised value for these lands. There are no ongoing 
revenue streams associated with the facilities, buildings, and lands. 
Because the District has fulfilled its repayment obligation under its 
contract, payment is required only for the additional withdrawn lands 
that the District has proposed for title transfer.
    While the focus of Title II is the transfer of the Reclamation 
facilities to the American Falls Reservoir District No. 2, it also 
directs Reclamation to transfer title for specific smaller parcels to 
the National Park Service, the Bureau of Land Management, the State of 
Idaho, and the City of Gooding, since those entities currently manage 
the relevant lands.
    Reclamation has worked closely with the National Park Service and 
the other entities to craft the language that appears in the transfer 
agreement.
    Two of the smaller parcels, equaling 10.18 acres, would be added to 
the boundary of Minidoka Internment National Monument, as called for in 
the monument's recently approved General Management Plan (GMP). The 
smaller parcel is located in the historic warehouse area and contains 
three buildings from the historic period as well as numerous warehouse 
foundations. This area would be used as the primary site for visitor 
orientation and information. An existing historic warehouse would be 
adapted to serve as a visitor contact station and central trailhead for 
visitor self-guided walking tours. The larger parcel on the east end of 
the national monument was part of the original Relocation Center and 
was never developed. It would be used as an overflow parking area and 
for special events.
    The reason the smaller parcel was not included in the original 
boundary for the Minidoka Internment National Monument is because the 
American Falls Reservoir District No. 2 occupied the buildings. After 
the monument was established, however, the National Park Service, 
Reclamation, and American Falls Reservoir District No. 2 entered into 
an agreement to move the District's operations to a site outside the 
national monument's boundary, and that relocation is now nearly 
complete. The National Park Service has obligated $250,000 to the 
Bureau of Reclamation for relocation costs. The payment of $52,996 that 
S. 916 provides for Reclamation to make to the District represents the 
final portion of the agreed-upon payment that originated with the 
National Park Service.
    Mr. Chairman, that concludes my testimony. We would be pleased to 
work with the Committee and the sponsors of S. 916 and H.R. 161 as the 
legislation moves forward. I would be happy to answer any questions you 
or other members of the Committee may have.
                                s. 1209
    Mr. Chairman, thank you for the opportunity to appear before the 
subcommittee today to present the views of the Department of the 
Interior on S. 1209, to provide for the continued administration of 
Santa Rosa Island, Channel Islands National Park, in accordance with 
the laws (including regulations) and policies of the National Park 
Service, and for other purposes.
    The Department supports S. 1209. This legislation would ensure that 
the laws governing the administration of Channel Islands National Park 
supersede other provisions of law that might interfere with appropriate 
management. In conjunction with providing for that assurance, S. 1209 
would repeal a provision enacted last year, Section 1077(c) of the 
Public Law 109-364, that has created uncertainty regarding the National 
Park Service's limited role with respect to the planned removal of 
privately owned non-native elk and deer from Santa Rosa Island by 2011, 
as provided for by a 1998 court-approved settlement agreement.
    Channel Islands National Monument was designated in 1938 by 
President Franklin D. Roosevelt under the authority of the Antiquities 
Act. In 1980, the monument was expanded to include additional islands, 
including the 54,000-acre Santa Rosa Island, and redesignated as 
Channel Islands National Park. The park's purpose is to protect the 
nationally significant natural, scenic, wildlife, marine, ecological, 
archaeological, cultural, and scientific values of the five California 
Channel Islands that comprise the park. During consideration of the 
legislation to redesignate Channel Islands National Monument as a 
national park, a deliberate decision was made to not allow hunting 
there, just as hunting is not permitted in other national park units 
designated as ``National Parks.''
    Once it was determined that Santa Rosa Island was to be 
incorporated within Channel Islands National Park, Vail and Vickers, 
Ltd. (V&V), the island's owner, requested that it be the highest 
priority for acquisition by the National Park Service (NPS). This was 
reflected in the 1980 legislation. In 1986, V&V sold Santa Rosa Island 
to the NPS for $29.5 million. V&V retained a 25-year non-commercial 
reservation of use and occupancy for a 7.6-acre area containing the 
ranch house and a nearby field. At the request of V&V, supported by 
members of Congress, the NPS issued two 5-year special use permits to 
allow V&V to continue their cattle ranching and elk and deer hunting 
operations.
    In 1996, because of impacts on endangered species and water 
quality, the National Parks Conservation Association sued the NPS over 
the management of Santa Rosa Island. In 1997, V&V sued NPS to retain 
their current special use permit and continue their operations until 
2011. A three-way settlement agreement, entered by the court in 1998, 
provided for removing the cattle by the end of 1998 (which occurred on 
schedule), and for phasing out deer and elk and removing them 
altogether by the end of 2011, when the V&V 25-year reservation of the 
7.6-acre area expires. The settlement agreement included two options 
under which hunting could continue. The parties chose the second 
option, which was to manage the deer and elk using adaptive management 
guidelines based on the monitoring of two federally listed endangered 
plants. Each year, the NPS, with recommendations from an agreed-upon 
scientific panel, determines the number of deer and elk permitted. 
Regardless of the management option, all deer and elk are to be removed 
by V&V no later than the end of 2011. At that time, V&V will be 
required to remove all their property, including any of their remaining 
deer and elk.
    Removal of the herds will bring about two fundamental benefits: 
First, native plants and animals will be able to flourish. Channel 
Islands National Park has been in the forefront of the NPS' efforts to 
control non-native species that out-compete the native species. The 
park has undertaken several successful ecological restoration programs. 
The eradication of introduced rats from Anacapa Island has resulted in 
the increased survivability of the Xantus's murrelet, a State of 
California threatened species. The removal of introduced rabbits, 
cattle, sheep, pigs, and mules from Santa Barbara, Santa Rosa, Santa 
Cruz and San Miguel Islands has allowed for vegetation restoration.
    In addition, last year, for the first time in 50 years, an American 
bald eagle was hatched in the northern Channel Islands, on Santa Cruz 
Island, due to the successful efforts of park staff, local communities, 
The Nature Conservancy, and the Montrose Trustees who have worked 
together on this project. Another eaglet was hatched there just last 
month. And, for the first time in 70 years, a peregrine falcon chick 
has hatched on Santa Barbara Island. The NPS looks forward to more 
successes of this type in the Channel Islands, including Santa Rosa 
Island.
    Second, with private commercial hunting no longer an option, the 
island can be opened up for other recreational purposes, such as 
hiking, camping, and sightseeing, on a year-round basis. While it 
varies, at present, about 90 percent of the island is generally off 
limits for general recreation during the four to five months of each 
year that hunting occurs. The closure is particularly troublesome 
because Santa Rosa Island is currently the most accessible of the five 
islands that are part of Channel Islands National Park.
    As noted at the beginning of this statement, Section 1077(c) of 
P.L. 109-364 created uncertainty about the planned removal of the deer 
and elk required under the settlement agreement. The provision states:

          RECREATIONAL ACTIVITIES ON SANTA ROSA ISLAND.--The Secretary 
        of the Interior shall immediately cease the plan, approved in 
        the settlement agreement for case number 96-7412 WJR and case 
        number 97-4098 WJR, to exterminate the deer and elk on Santa 
        Rosa Island, Channel Islands, California, by helicopter and 
        shall not exterminate or nearly exterminate the deer and elk.

    The Department does not have a plan to exterminate the deer and 
elk; removal of the herds is the responsibility of the owners, V&V. 
What the provision does is prohibit the NPS from participating in any 
plan approved in the settlement agreement to exterminate the deer and 
elk by helicopter, and prohibit the NPS from destroying the deer and 
elk by any other means. Section 1077(c) affects the section of the 
settlement agreement that states:

          In the last year that V&V will have elk or deer on [the 
        island], V&V will remove the remaining deer and elk to the 
        greatest extent feasible. Provided that V&V meets all deer and 
        elk reduction requirements in every year prior to 2011, and 
        provided that the remaining deer and elk in 2011 become 
        extraordinarily difficult to remove despite the diligent 
        efforts of removal by V&V, [the National Park Service] will 
        equally share the ``unusual costs'' of the removal of those 
        deer and elk. ``Unusual costs'' is defined as the cost of 
        trained professionals and helicopters.

    Section 1077(c) does not affect the ongoing obligation of V&V under 
the settlement agreement to remove the deer and elk from the island by 
2011, but it does mean that the NPS would be unable to assist in the 
cost of removal of the herds, as called for under the settlement 
agreement.
    We are concerned about potential unforeseen consequences of a law 
that is interfering with the requirements of a settlement agreement 
that was drafted with careful consideration of each party's 
responsibility. The transition from ranching and hunting to hiking and 
camping will enhance the park experience. The settlement agreement 
offers the promise that the last phase of the transition will be 
conducted in an orderly manner, and the hope that it will go smoothly. 
Passage of S. 1209 will help ensure that the deer and elk will be 
removed from Santa Rosa Island in accord with that agreement.
    Mr. Chairman, that concludes my statement. I will be happy to 
answer any questions you or members of the subcommittee may have.
                                s. 1281
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 1281, a bill to amend the Wild and 
Scenic Rivers Act by designating portions of the Snake River System in 
Wyoming as a component of the National Wild and Scenic Rivers System.
    The Department supports the designation of the waters included in 
S. 1281 that flow through lands administered by the National Park 
Service (NPS). While we support the approach taken by S. 1281 in 
protecting the watershed of the Snake River headwaters, we defer to the 
Department of Agriculture in regard to the portions of the bill that 
designate segments of rivers that flow through lands administered by 
the U.S. Forest Service. In addition, we suggest several technical 
amendments which are described later in this testimony.
    S. 1281 would designate the Lewis River in Yellowstone National 
Park from Shoshone Lake to Lewis Lake as Wild, and from Lewis Lake to 
its confluence with the Snake River as Scenic. The Snake River, from 
its source in the Teton Wilderness and then flowing through 
Yellowstone, the John D. Rockefeller, Jr. Memorial Parkway, and Grand 
Teton National Park, would be designated as Wild above Jackson Lake. 
From one mile below the Jackson Lake Dam until leaving Grand Teton, the 
Snake and its tributaries Pacific Creek, the Buffalo Fork, and the Gros 
Ventre River would be designated as Scenic.
    Efforts to designate the upper Snake River system as part of the 
National Wild and Scenic River System have been led by the Campaign for 
the Snake Headwaters, a grassroots effort led by local citizens, 
businesses, anglers, boaters, and conservationists.
    The headwaters of the Snake River, which begin in the Bridger-Teton 
National Forest then run through southern Yellowstone National Park 
into the John D. Rockefeller, Jr. Memorial Parkway and Grand Teton 
National Park in northwest Wyoming, are some of the purest waters in 
the nation. The headwaters are a stronghold for native cutthroat trout, 
harbor a vast array of bird and wildlife populations, and the Snake 
River and its tributaries provide diverse recreational opportunities 
for visitors to, and residents of, the Greater Yellowstone Ecosystem.
    The Snake River above Jackson Lake was initially evaluated for 
eligibility in the Wild and Scenic Rivers System in the 1980s. In 2005, 
NPS resource managers conducted an evaluation of the Snake River below 
Jackson Lake, as well as major tributaries within Grand Teton National 
Park, the Buffalo Fork, Pacific Creek, and the Gros Ventre River. The 
evaluations were made in coordination with the U.S. Forest Service, 
following procedures they recommended and used to evaluate segments of 
the waterways located on neighboring national forest lands. The 
evaluations, in accordance with section 5(d)(1) of the Wild and Scenic 
Rivers Act, document the outstanding recreational, scenic, cultural, 
geological, and ecological values of the upper Snake River system, 
which merit its inclusion in the Wild and Scenic Rivers System.
    Designation of Snake River System waters would support the spirit 
and intent of existing management plans for Yellowstone and Grand Teton 
National Parks and the John D. Rockefeller, Jr. Memorial Parkway, 
including the 1997 Snake River Management Plan for Grand Teton and the 
1980 General Management Plan for the Parkway. Yellowstone's Statement 
for Management (November 1991) states that a prime objective is to 
conserve and protect the integrity of Yellowstone's natural resources, 
recognizing human interaction as a part of that ecosystem.
    If designated as components of the National Wild and Scenic River 
System, the river segments in Yellowstone and Grand Teton National 
Parks and the John D. Rockefeller, Jr. Memorial Parkway will continue 
to provide a range of recreational opportunities for private and 
commercial floating and fishing, as well as an array of backcountry and 
non-wilderness recreational activities in the river corridors.
    Consistent with the Act that established Grand Teton National Park 
in 1950, we anticipate that wild and scenic designation of the Snake 
River would not affect the Bureau of Reclamation's operation and 
maintenance of Jackson Lake Dam and water levels in Jackson Lake 
reservoir, a natural lake augmented for nearly 100 years by a dam for 
purposes of irrigation and flood control. Additionally, we anticipate 
that monitoring and equipment maintenance activities that are now 
carried out by the Bureau of Reclamation upstream of Jackson Lake, such 
as streamgaging and snowpack measurement, would continue. Designation 
as a component of the National Wild and Scenic River System would 
provide additional protection for the outstanding scenic, recreational, 
and wildlife resources above and below Jackson Lake on National Park 
System lands.
    S. 1281 also provides for quantification of a federal reserved 
water right for each river segment, and for funds to develop river 
management plans. The Department is currently reviewing the impact that 
this process could have on existing uses in the basin. The NPS would 
cooperate with adjacent national forest managers, the Bureau of 
Reclamation, cooperative organizations, State and local government 
agencies, and interested members of the public to develop appropriate 
planning guidance for the rivers designated under this bill.
    We would be pleased to work with the Subcommittee on several 
technical amendments that would strengthen S. 1281. In particular, we 
suggest that sections 3 and 6 be clarified to state that some of the 
river segments identified in the bill are within Yellowstone National 
Park and the John D. Rockefeller, Jr. Memorial Parkway. We would also 
like to work with the Subcommittee regarding the operation of section 5 
governing federal reserved water rights. Also, a number of river 
segments described in the bill form the boundary between national park 
and national forest lands, and in the case of the Gros Ventre River 
between Grand Teton National Park and the National Elk Refuge, 
administered by the U.S. Fish and Wildlife Service. As written, we 
believe the legislation could lead to confusion as to which agency is 
responsible for administration of these segments, and would suggest 
that the bill be amended to clarify the jurisdiction.
    Mr. Chairman that completes my prepared remarks. I would be happy 
to answer any questions that you or other members of the subcommittee 
may have.
                                h.r. 376
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 376, a bill to authorize the 
Secretary of the Interior to conduct a special resource study to 
determine the suitability and feasibility of including the battlefields 
and related sites of the First and Second Battles of Newtonia, 
Missouri, during the Civil War as part of Wilson's Creek National 
Battlefield or designating the battlefields and related sites as a 
separate unit of the National Park System.
    The Department supports H.R. 376 as passed by the House. However, 
we believe that priority should be given to the 37 previously 
authorized studies for potential units of the National Park System, 
potential new National Heritage Areas, and potential additions to the 
National Trails System and National Wild and Scenic River System that 
have not yet been transmitted to the Congress.
    H.R. 376 would authorize the Secretary to carry out a special 
resource study to determine the national significance of sites in 
Newton County, Missouri associated with the Civil War. The Secretary 
would evaluate the national significance of the battlefields and their 
related sites and analyze the potential impact that their inclusion in 
the National Park System is likely to have on Wilson's Creek National 
Battlefield.
    A special resource study would provide alternatives for the 
appropriate way to preserve, to protect, and to interpret these sites 
and resources. Those alternatives would include recommendations on 
whether the area could be included as a new unit of the National Park 
System, as part of the Wilson's Creek National Battlefield, or 
determine if the Federal government is the most appropriate entity to 
manage the site. We estimate that the costs of completing this study 
would be approximately $250,000 to $300,000.
    Newtonia was the scene of two significant battles in the Civil War, 
one on September 30, 1862 and the other on October 28, 1864. The 
battles were fought in and around the town of Newtonia, an area that 
today retains much of its character from almost a century and a half 
ago. The September 30, 1862 battle involved Native American soldiers 
directly fighting each other, and the October 28, 1864 battle was the 
last Civil War battle fought within the borders of the State of 
Missouri and the culmination of Confederate Major General Sterling 
Price's 1864 Missouri Expedition.
    Newtonia was important as a centralized location to lead mines and 
the communities of Mt. Vernon (which housed a Union garrison), 
Sarcoxie, and Neosho, making it a tempting area for both sides for 
control of the Spring River and its fertile valley. Confederate Colonel 
Douglas Cooper had arrived in Newtonia on September 27 and had taken 
over the area. On September 30 Union troops under General James Blunt 
appeared before Newtonia and the fighting began by 7:00 a.m. The 
Federals began driving the enemy away from their positions; but thanks 
to timely Confederate reinforcements, the Federals had to give way and 
retreat. As the Union forces were retreating, they received 
reinforcements and renewed their attack, threatening the enemy right 
flank. The Union 3rd Indian Battalion was heavily engaged during the 
attack on the right flank as were the Confederate 1St Choctaw and 
Chickasaw Regiment; in fact the two units engaged each other directly 
in a desperate melee. But once again Confederate reinforcements arrived 
and pushed the Federals back and into what quickly became an all out 
retreat. Some Union forces retreated all the way to Sarcoxie, some 10 
miles away. Although the Confederates won the battle, they were unable 
to maintain themselves in the area due to the superior numbers of Union 
troops, and most retreated into northwest Arkansas.
    In the last days of October 1864, Newtonia again took center stage. 
Confederate Major General Sterling Price had launched his ``Missouri 
Expedition'' in September of 1864 in an effort to retake Missouri for 
the Confederacy. His mission was failing miserably by October of 1864; 
and after sound defeats at the Battle of Westport on October 21-23 and 
the Battle of Mine Creek, Kansas on October 25, he was desperately 
trying to make his way back to Confederate Territory. Major General 
Price made one last stand at Newtonia on October 28, 1864. Most of his 
army continued across the Arkansas River into Texas. Troops under the 
command of General Jo Shelby slowed the Union advance of General James 
Blunt and held the Union forces at bay until darkness overtook the area 
and allowed Shelby's men to join the rest of the comrades in retreating 
to Texas. Confederate forces would not seriously threaten to cross the 
Arkansas River and invade Missouri again.
    Currently the Newtonia Battlefields Protection Association owns and 
maintains 25 plus acres of the Battlefields. This includes the Ritchey 
Mansion and the ``Old Newtonia Cemetery'' or the ``Civil War Cemetery'' 
as it is locally known, with one battle participant, Captain Richard 
Christian, buried in it. There are approximately 200 graves, marked 
only by rough sandstone or field stones, which are almost certainly 
graves of Confederate dead.
    The Newtonia Battlefields Protection Association was instrumental 
in having the sites of the 1862 and the 1864 battles listed on the 
National Register of Historic Places. The Ritchey Mansion was 
previously listed on the National Register, and the Association revised 
that application after they purchased the Mansion in 2002. The 
Association applied for and received three grants from the American 
Battlefield Protection Program (ABPP) of the National Park Service. Two 
of those studies were archeological studies, ``Engaged the Enemy 
Again--An Assessment of the 1862 and 1864 Civil War Battles at 
Newtonia, Missouri;'' (Fryman 1995) and ``Newtonia Battlefields and 
Archeological Survey'' (White Star 1998). Also in 2000, ``A 
Preservation Plan for the Civil War Battlefields of Newtonia, 
Missouri'' was funded by the ABPP and completed by Gray & Pape, Inc.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the subcommittee may have.

    Senator Akaka. Thank you very much, Mr. Wenk.
    Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
               SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to provide the views of the 
Department of Agriculture on three bills.
    S. 1057, New River Wild and Scenic River Act of 2007, 
amends section 3(a) of the Wild and Scenic Rivers Act, to 
designate a segment of the New River in the States of Virginia 
and North Carolina as a component of the National Wild and 
Scenic Rivers System. The segment to be designated is 
immediately downstream of the portion of the New River added to 
the National Wild and Scenic Rivers System by the Secretary of 
the Interior in 1976. It is located entirely off National 
Forest System land, approximately 7 miles from the Jefferson 
National Forest in Virginia and 40 miles north of the Pisca 
National Forest in North Carolina.
    The Department does not support the designation of this 
segment of the New River as a component of the Wild and Scenic 
Rivers System without first reviewing or analyzing the river 
segment to determine its eligibility and suitability for 
designation. Accordingly, the Department does support the 
designation of this segment as a study river under section 5(a) 
of the Wild and Scenic Rivers Act. This study designation 
affords the river protection from the adverse impacts of 
federally assisted water resources projects and from the sale 
of any Federal lands within the half-mile study river corridor. 
It also requires the appropriate secretary to provide 
conditions to safeguard the area in any mineral leasing of 
Federal lands and directs all Federal agencies to protect river 
values in actions they propose within or adjacent to the study 
river corridor.
    These protections would remain in effect for a 3-year 
period following the transmittal of the final study report from 
the President to the Congress regardless of the study's 
findings.
    S. 1281, Snake Headwaters Legacy Act of 2007, amends 
section 3(a) of the Wild and Scenic Rivers Act to designate 
segments of the Snake River system in the State of Wyoming as 
components of the National Wild and Scenic Rivers System. The 
Department supports S. 1281 with technical corrections and 
defers to the Department of the Interior in regard to the 
portions of the bill that designate the segments that flow 
through lands administered by the National Park Service.
    The Bridger Teton National Forest contains the headwaters 
of the Snake River and all of the proposed segments recommended 
for designation on National Forest System land. All of these 
river segments have been found to be eligible for inclusion in 
the National Wild and Scenic Rivers System.
    H.R. 247 would designate a 19.6-mile trail known as the 
Waldo Lake Loop on the Willamette National Forest as a national 
recreation trail in honor of Jim Weaver, former member of the 
House of Representatives from Oregon. The Department supports 
enactment of this legislation to honor former Representative 
Jim Weaver.
    This concludes my prepared statement and I would be pleased 
to answer any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on 
these bills: S. 1057, New River Wild and Scenic River Act of 2007; S. 
1281, Snake Headwaters Legacy Act of 2007; and H.R. 247, which 
designates a Forest Service trail in the Willamette National Forest as 
a National Recreation Trail in honor of Jim Weaver, a former member of 
the House of Representatives.
          s. 1057, new river wild and scenic river act of 2007
    S. 1057, New River Wild and Scenic River Act of 2007, amends 
section 3(a) of the Wild and Scenic Rivers Act (16 U.S.C. 1274(a)) to 
designate a segment of the New River in the States of Virginia and 
North Carolina as a component of the National Wild and Scenic Rivers 
System. The segment to be designated by S. 1057 is immediately 
downstream of the portion of the New River added to the National Wild 
and Scenic Rivers System by the Secretary of the Interior through 
Section 2(a)(ii) in 1976. It is located entirely off National Forest 
System land, approximately 7 miles from the Jefferson National Forest 
in Virginia and 40 miles north of the Pisgah National Forest in North 
Carolina.
    The Department does not support the designation of this segment of 
the New River as a component of the Wild and Scenic Rivers System 
without first reviewing or analyzing the river segment to determine its 
eligibility and suitability for designation. Accordingly, the 
Department does support the designation of this segment as a study 
river under section 5(a) of the Wild and Scenic Rivers Act. This study 
designation affords the river protection from the adverse impacts of 
federally assisted water resources projects and from the sale of any 
federal lands within the one-half mile study river corridor. It also 
requires the appropriate Secretary to provide conditions to safeguard 
the area in any mineral leasing of federal lands, and directs all 
federal agencies to protect river values in actions they propose within 
or adjacent to the study river corridor. These protections would remain 
in effect for a three-year period following the transmittal of the 
final study report from the President to the Congress, regardless of 
the study's finding.
              s. 1281, snake headwaters legacy act of 2007
    S. 1281, Snake Headwaters Legacy Act of 2007, amends section 3(a) 
of the Wild and Scenic Rivers Act (16 U.S.C. 1274(a)) to designate 
segments of the Snake River system in the State of Wyoming as 
components of the National Wild and Scenic Rivers System.
    The Department supports S. 1281 with several technical corrections, 
and defers to the Department of the Interior in regard to the portions 
of the bill that designate the segments that flow through lands 
administered by the National Park Service.
    The Bridger-Teton National Forest contains the headwaters of the 
Snake River; the majority of the tributaries to the Snake River segment 
below Jackson Lake, Pacific Creek and Buffalo Fork and its tributaries, 
and the entire Blackrock Creek tributary; the majority of the Gros 
Ventre River and the entirety of its Crystal Creek tributary; and, the 
two sections of the Hoback River, and its principal tributaries, 
Granite, Shoal, Cliff and Willow Creeks, and the Snake River from the 
confluence of the Hoback River to Palisades Reservoir, including Bailey 
and Wolf Creeks.
    All of the river segments on National Forest System land have been 
found to be eligible for inclusion in the National Wild and Scenic 
Rivers System. These rivers are free-flowing and provide outstanding 
scenery and recreational opportunities. Many flow through important 
geologic areas and support diverse populations of aquatic and wildlife 
species, including Yellowstone native cutthroat trout and grizzly bear.
    We recommend the definition of ``Secretary concerned'' in section 
3(1) and the requirement that each river segment be managed by the 
Secretary concerned in section 5(a) be clarified so that those proposed 
segments that form the boundary between national park and national 
forest system lands are clearly assigned to one or the other Secretary. 
In addition we recommend that section 5(b) be eliminated, as the Wild 
and Scenic Rivers Act includes direction to develop a comprehensive 
management plan within three full fiscal years and specifies its 
contents. We would be pleased to work with the Subcommittee to address 
these and other technical corrections.
  h.r. 247, designation of the ``jim weaver loop trail,'' willamette 
                            national forest
    H.R. 247 would designate a 19.6 mile trail known as Trail 3590, the 
Waldo Lake Loop, on the Willamette National Forest as a national 
recreation trail in honor of Jim Weaver, former member of the House of 
Representatives from Oregon. The trail would be a component of the 
National Trails System and would be renamed the ``Jim Weaver Loop 
Trail.'' The bill would also authorize the Secretary of Agriculture to 
prepare, install, and maintain an interpretive sign honoring the life 
and career of Congressman Jim Weaver.
    The Department supports enactment of this legislation to honor 
former Representative Jim Weaver.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.

    Senator Akaka. Thank you. Thank you very much, Mr. Holtrop.
    My first question is for Mr. Wenk and concerns S. 800, the 
Niagara Falls Heritage Area. Unlike most heritage area bills, 
this one does not have a nonprofit local management entity, but 
instead uses a Federally appointed commission to manage the 
area for the first 5 years. My question is does the Department 
support using a commission, and if so, why?
    Mr. Wenk. The Department does support using a commission. 
It is not an unprecedented way in which heritage areas have 
been established. There is strong local support for this 
heritage area. The term of the commission would be used to 
identify that partner organization who could step forward and 
take responsibility for the heritage area. The Illinois and 
Michigan Heritage Area is another example of where that has 
been done and has proved successful in the past.
    Senator Akaka. Mr. Wenk, one of the witnesses on the next 
panel is recommending that the bill be amended to include--this 
is S. 916--to include a 128-acre addition to the Minidoka 
Internment National Monument. Are you familiar with this 
proposal and, if so, does the Park Service support adding it to 
the monument, Mr. Wenk?
    Mr. Wenk. The 128 acres is included in the general 
management plan that was just approved and completed by the 
National Park Service for potential inclusion into the Minidoka 
site, and we are therefore very aware of it and understand the 
values that it would bring to the site.
    Senator Akaka. I understand that the memorial site in 
Washington is owned by the city of Bainbridge Island. However, 
the bill directs the Secretary of the Interior to manage the 
memorial in accordance with the presidential proclamation 
establishing the Minidoka Monument, the NPS Organic Act, and 
other applicable laws.
    Does it make sense to have the Park Service manage a site 
that it does not own, and how will that work?
    Mr. Wenk. Most of the Japanese Americans who went through 
Bainbridge Island actually went to Minidoka, and to tell the 
entire story of the Minidoka internment camp, it does make 
sense for the National Park Service to have a role in the 
administration of that site. Once again, that is not 
unprecedented in terms of ownership. Boston Harbor Islands park 
areas--those are also not owned by the National Park Service, 
and are administered in cooperation with the city there and 
other entities, just as the Bainbridge Island site would be. So 
yes, it can work and work successfully, sir.
    Senator Akaka. Mr. Wenk, Senator Craig and Senator Cantwell 
have indicated that they will offer a substitute amendment when 
the bill is marked up. Would you be willing to review the 
substitute and give us any comments you may have, so that we 
can move this bill through committee?
    Mr. Wenk. We would be very pleased. We actually became 
aware of that amendment earlier and we would be very pleased to 
work with the Senator and the committee to do what we can, yes.
    Senator Akaka. Thank you.
    Mr. Holtrop, I only have one question for you. Most of the 
rivers that would be designated under S. 1281, the Snake River 
bill, are on Forest Service lands. Would designation of these 
as wild and scenic rivers change the way they are currently 
managed, and if so why?
    Mr. Holtrop. The legislation would not change the way that 
the rivers are currently being managed. The designation is 
consistent with the designations that are currently in the land 
and resource management plans that are managing those rivers. 
What the legislation would do would be to maintain the existing 
uses that have already been identified through the land 
management planning process and legislate those uses.
    Senator Akaka. Thank you.
    Senator Thomas.
    Senator Thomas. Thank you.
    Mr. Wenk, I have a question about the Niagara Falls 
Heritage Area. As in most cases of national heritage areas, the 
bill authorizes $10 million over a period of 15 years. What 
steps has the park taken to require that this heritage area 
work within the $10 million and be able to operate without 
Federal funds after that?
    Mr. Wenk. One of the things that we are looking for within 
all heritage areas is that within the last 3 years that a study 
be completed that would help us understand and show how the 
transition would be made from relying on Federal funding to 
having self-reliance for the heritage area itself. So that is a 
study that we would seek--an overarching legislation we would 
look for in all heritage areas--and we would like to see that 
as an amendment to this bill as well, that we would require 
that.
    Senator Thomas. Some of us would like to see it amended to 
terminate it at 10 years.
    What about Santa Rosa Island? What impact are the deer and 
elk currently having on the environment of the island?
    Mr. Wenk. Well, they certainly affect--they are a non-
native species. They were brought to the island. They have an 
effect on the vegetation of the island and the natural systems 
that the park was set aside to protect.
    Senator Thomas. Okay. I was going to ask if the designation 
in the wild and scenic river for Snake River would cause any 
changes. You have already answered that, I believe, Mr. 
Holtrop.
    So no more questions, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Thomas.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Wenk, when the study was done on the Eightmile River 
how long did that study take?
    Mr. Wenk. I am not sure. I might have to provide that for 
the record.
    Senator Burr. I was told 8 years. Does that sound right?
    Mr. Wenk. That could very well be correct.
    Senator Burr. Do you know how much it cost to do that 
study?
    Mr. Wenk. Typically a study will cost about $250,000 to 
$300,000 to complete.
    Senator Burr. Does 8 years sound like a feasible amount of 
time?
    Mr. Wenk. It actually took--I am told it actually took 4 
years, sir.
    Senator Burr. Four years?
    Mr. Wenk. Yes. Unfortunately, that is typical of the time 
it takes to complete them.
    Senator Burr. In 1976, the State of North Carolina 
recognized the New River as a scenic river, or before 1976, and 
then the Secretary adopted that in Federal standards.
    Now, Mr. Holtrop, you say that you are opposed to moving 
forward without a study?
    Mr. Holtrop. That is correct.
    Senator Burr. So what would disqualify the New River? What 
are you going to find in a study that would disqualify the 
additional 18 miles of the New River contiguous with the 
headwaters that are already listed? What would disqualify it 
from a wild and scenic river?
    Mr. Holtrop. Well, I am certainly not aware of anything 
that exists in that stretch of the river that would disqualify 
it.
    Senator Burr. So share with me, if you would, how do I go 
back to the taxpayers and tell them we ought to spend $250,000 
or more and 4 years, or in the case of West Virginia, where I 
think Representative Rahall has had a study under way on the 
New River that I think is in year 13? Tell me how to 
rationalize this to the American taxpayer and convey to them 
that there is some common sense we use in Washington? Could you 
help me?
    Mr. Holtrop. I can do the best I can to try to help you, 
sir. I think one of the things that I would say is, recognizing 
especially on a private land river like this would be, rather 
than a largely predominantly public land river, that the values 
and the management of those values require a partnership with 
State and local governments, a partnership with landowners and 
others, and that is essential for the long-term management and 
successful management of a wild and scenic river that is 
designated.
    A study process allows those people who would be partners 
to work together to identify: is this river eligible, free-
flowing, does not have impoundments, does not have diversions? 
Does the river have significant outstanding resource values 
that qualify it for wild and scenic river designation, and 
through that process can generate local support for the long-
term management of that river in a successful manner if the 
eligibility and suitability determination determines that it 
should be added to the Wild and Scenic River System?
    Senator Burr. Now, this is a river that was the first in 
the country as an American Heritage River. It seems like many 
of the things that you just raised probably were issues that 
were answered when that designation was determined by the 
Clinton administration. Would you agree with that?
    Mr. Holtrop. It is very possible that some of those issues 
could have been raised and dealt with at that time. To our 
knowledge, we have not seen anything that has been a study of 
the river's eligibility and suitability for wild and scenic 
rivers.
    Senator Burr. But is that not because there is no Park 
Service land on it and there is no National Forest Service land 
on it? This is not uncommon. You would not have a study that 
you had, right?
    Mr. Holtrop. Again, that is correct, which is why our 
position is that we believe a study is the right thing to do at 
this time.
    Senator Burr. I appreciate the punt, because I think that 
is what it is. Clearly you have got a river that represents one 
of the oldest in the country. It is a treasure. I understand 
what you are saying about all the protections that would exist 
as soon as you designate that there is going to be a study. But 
I am not sure that you have made the case to me as to how I go 
to the taxpayers and say, ``Let us spend $250,000 plus to learn 
what we already know, we have a treasure here, we would like to 
protect the treasure, we can protect it by giving it this 
designation, and you ought to feel happy about the fact that 
your taxpayer money has been invested in this; and, oh, by the 
way, we have been doing this 13 years in West Virginia and I am 
not sure that there is an end in sight in that study.''
    I am not sure that that gives me much assurance to go back 
and convince them that this is the right course to follow.
    Mr. Holtrop. It is my understanding that generally the 
Congress designates the length of time for a study such as 
this. Quite often a length of time of 3 years would be suitable 
and we would be happy to work with the Congress.
    Senator Burr. That is assuming that you do not come back to 
us and say, ``Well, we did not have the money to do it in 3 
years,'' right?
    Mr. Holtrop. It would be assuming that. Again, $250,000, 
$300,000 over the course of 3 years is something that, given 
that kind of a piece of legislation, I think would receive 
priority.
    Senator Burr. Well, I appreciate that. I still have a 
difficult time understanding exactly why we should go through a 
3-year process to learn what in all likelihood we've already 
studied, that was already evaluated with the American Heritage 
River, which has already been accepted by the secretary when 
the State designated it. I am sure the secretary in 1976, if he 
had had questions, probably would have had further reviews.
    Likely you were not in the chair when Representative Rahall 
started his study, but I am sure they told him 3 years and 
$250,000, and now it is 13 years. So understand that I am 
somewhat reluctant to accept that course, and I will urge my 
colleagues to proceed forward with what I think is a tremendous 
amount of information that suggests that this river ought to be 
wild and scenic.
    I yield back.
    Senator Akaka. Thank you very much, Senator Burr.
    Let me complete this with several questions in a second 
round of questions. Mr. Wenk, the Vail & Vickers Company has 
raised the concern that S. 1209 may nullify the settlement 
agreement by requiring the Park Service to manage Santa Rosa 
Island in accordance with the NPS Organic Act and enabling 
legislation for the park.
    I have two questions on this issue. First, does Park 
Service interpret S. 1209 as nullifying the settlement 
agreement? Second, does clarifying that the park is to be 
managed in accordance with the Organic Act and the park's 
enabling legislation change the requirements under which it is 
currently managed? Is that so?
    Mr. Wenk. In answer to the first question, Mr. Chairman, 
the settlement agreement that we have would not be--requires 
that the elk and deer populations be reduced by about one-
quarter each year starting in 2008. The Hunter amendment 
required or made it clear that the National Park Service could 
not participate in the removal at the end in 2011 when we were 
just trying to move the last remaining numbers that might be 
remaining from the requirement for Vail & Vickers to remove it 
between 2008 and 2011. So therefore we do not believe it 
nullifies the settlement agreement at all.
    Also, with the removal of the deer and elk population, we 
would in fact manage the Channel Islands, Santa Rosa, the 
Channel Islands National Park, in accordance with the Organic 
Act and the policies of the National Park Service. So we 
believe that this amendment actually helps us to do our job 
better for the Channel Islands National Park.
    Senator Akaka. Mr. Wenk, the language in last year's 
defense authorization bill prohibits the Park Service from 
exterminating or nearly exterminating the deer and elk herds on 
Santa Rosa Island. If these herds are the property of the Vail 
& Vickers Company, what authority does the Park Service have to 
exterminate them?
    If this language remains in effect, what would happen at 
the end of the permit period if the remaining deer and elk were 
not removed from the island?
    Mr. Wenk. Well, certainly we believe that it is the 
responsibility of Vail & Vickers to remove the elk and deer 
from the island, and that does not change under any 
circumstance. At the end, if this legislation is not passed we 
would be prohibited now from assisting Vail & Vickers in the 
removal of the final animals from the island. But it would 
still be their requirement to remove the animals from the 
island.
    What would happen if we cannot get all the animals off the 
island? You have an opportunity that you would have 
repopulation by both deer and elk if they are not fully removed 
from the island, and that is not the purposes for which the 
Channel Islands was acquired as a national park for the 
American public or the intent of the settlement agreement.
    Senator Akaka. Mr. Wenk, your testimony indicates that 
about 90 percent of the island is off limits to general 
recreation during hunting season. Dr. Vail's testimony is that 
no visitor has been denied access to the island because of 
wildlife operations. Can you make a comment on that or clarify 
this issue?
    Mr. Wenk. Yes, I can, Mr. Chairman. The 10 percent of the 
island that is open does accept visitors. So visitors can visit 
that portion of the island at any time. So visitation is not 
restricted in that manner.
    Sort of the width and the breadth of the island is not 
fully accessible to visitors during the time that the hunting 
season is going on.
    Senator Akaka. During the revision of the National Park 
Service management policies a couple of years ago, there was 
much debate about the so-called impairment standard. Are the 
hunting activities on Santa Rosa Island consistent with the 
Park Service's requirement to manage the area unimpaired?
    Mr. Wenk. The elk and deer remaining on the island are not 
consistent with leaving the island unimpaired. The animals 
remaining on the island will cause impairment. Hunting is not 
allowed within national park areas under our national parks 
policies unless specifically designated as an area by Congress 
for hunting.
    Senator Akaka. Finally, Mr. Wenk, Park Service regulations 
say that hunting is allowed in park areas where such activity 
is specifically mandated by Federal statutory law. Can you tell 
me what the Federal law is that mandates hunting in this park?
    Mr. Wenk. There is no Federal law and that is why we are 
seeking to remove the activity and return it to its natural 
state.
    Senator Akaka. Well, thank you very much to both of you.
    Are there any final questions?
    [No response.]
    Senator Akaka. Thank you for your responses.
    Mr. Wenk. Thank you, Mr. Chairman.
    Mr. Holtrop. Thank you.
    Senator Akaka. Now I would like to call our next panel 
forward: Jack Dennis with the Campaign for the Snake 
Headwaters, Jackson, Wyoming; Mr. Tom Ikeda, the Executive 
Director of Densho: The Japanese American Legacy Project, from 
Seattle; Mr. George Santucci, the Executive Director of the 
National Committee for the New River, from West Jefferson, 
North Carolina; and Dr. Timothy Vail, representing the Vail & 
Vickers Company, from La Quinta, California.
    First of all, I would like to welcome all of you to the 
subcommittee. We appreciate your taking the time to come here 
this afternoon, in some cases all the way across the country. 
Your entire statement and any supporting materials you have 
will be included in the hearing record. I would like to ask 
each of you to please summarize your remarks and to try and 
limit them to no more than 5 minutes.
    Before I ask for your statements, I would like to call on 
Senator Cantwell for her statement.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this important hearing on national parks and for 
the subcommittee's work in general.
    In today's hearing there is important legislation to 
conserve land on Bainbridge Island, Washington, as part of the 
Minidoka Internment National Monument. I would like to 
recognize Senator Larry Craig for helping to co-sponsor what is 
S. 916, to expand Minidoka in Idaho to include the Eagledale 
Ferry Dock site on Bainbridge Island. Senator Murray, Senator 
Crapo, and I and Senator Craig have worked on this in a 
bipartisan effort to move this legislation, which I think will 
benefit Washington, Idaho, the Northwest and the Nation.
    Mr. Chairman, I would like to welcome Tom Ikeda of Seattle, 
who is testifying before us today. He has had a very 
distinguished career, starting in the private sector as an 
executive with Microsoft, and he is the founder of Densho, a 
Seattle-based nonprofit organization dedicated to ensuring that 
the stories of those forced relocations and incarceration of 
Japanese Americans during World War II are passed on to future 
generations.
    Mr. Chairman, 65 years ago President Roosevelt signed an 
Executive Order 9066 to authorize the U.S. military to relocate 
and detain Japanese Americans from Washington, Oregon, Alaska, 
California, and Arizona, and during World War II over 120,000 
Japanese Americans were forced into internment camps. The first 
to go were from Bainbridge Island, Washington.
    On March 30, 1942, 227 residents of Bainbridge Island were 
ordered to report to the Eagledale Ferry Dock site. After the 
Bainbridge Island community, about 10,000 residents of 
Washington State were sent to Minidoka Camp in Idaho and to 
Toolhe Lake in northern California. Over 7,000 men and women 
and children from Washington were sent to Minidoka in Idaho and 
almost 3,000 were sent to the camps in northern California.
    Minidoka was one of ten relocation centers operated in the 
western United States and men, women, and children lived behind 
barbed wire fences in rough barracks, without due process or 
information on their situation.
    Mr. Chairman, despite the fact that the U.S. Government had 
detained U.S. citizens of their most basic civil liberties, 
over 1,000 men signed up for military service from Minidoka and 
were sent to the front lines. Minidoka had the highest level of 
military participation of any of the ten camps and it had the 
highest number of those killed in action.
    I would like to thank the National Park Service for its 
work to develop recommendations for the conservation of eight 
acres of land on Bainbridge Island and to develop a management 
framework for Minidoka in Idaho. Many organizations from 
Washington State were consulted, including Densho, the Wing Luk 
Asian Museum, the Japanese American Citizens League, the 
Friends of Minidoka, the Bainbridge Island Japanese American 
community, and many other local stakeholders.
    Their views have developed a special resource study and 
general management plan for Bainbridge Island and for Minidoka, 
and because of their work last year the National Park Service 
found the Bainbridge Island site was suitable and feasible for 
management as a satellite unit of the Minidoka facility.
    As the years have gone by, it is particularly important 
that we get this project done to honor the Japanese Americans 
who were placed in these camps and those that survived. With 
this monument, we will have an opportunity to tell the story of 
this chapter in our Nation's history and to make sure that 
future generations understand. We can ensure that the stories 
of the camps and the site themselves are told to a much broader 
audience as part of our Nation's most important historic sites.
    So I look forward to working with Senator Craig and my 
other colleagues on this committee to pass this important 
legislation, and I thank the chair very much for this 
opportunity.
    Senator Akaka. Thank you very much, Senator Cantwell.
    Now I would like to ask Mr. Dennis, since your name was 
first, to proceed with your testimony.

 STATEMENT OF JACK DENNIS, HONORARY CHAIRMAN, CAMPAIGN FOR THE 
                 SNAKE HEADWATERS, JACKSON, WY

    Mr. Dennis. Thank you, Mr. Chairman, and thank you, members 
of the committee. I appreciate being here to appear before the 
subcommittee in support of S. 1281, the Snake River Headwaters 
Legacy Act. What a pleasure it is to be with you to talk about 
my favorite part of the world. I would like to thank Senator 
Thomas for introducing this bill and for the citizens of 
Wyoming and the millions of people around the world that visit 
our magnificent rivers, a legacy we all can be proud of.
    My name is Jack Dennis. I am from Wyoming. I am an 
outfitter-guide, operate a fly fishing guide service and an 
outdoor retail business in Jackson Hole. I am founder of the 
Jackson Hole One-Fly Tournament, which is a nonprofit event 
that raises money in conjunction with the Fish and Wildlife 
Foundation for improvement of fish habitat. I also serve as 
coach of the Team USA in the World Fly Fishing Championships.
    I was born in Wyoming, lived there all my life. I have 
raised my family, make a living in Wyoming. I have waded and 
fished all these rivers in this bill. They are my backyard; 
they are my sanctuary; they may even be my office.
    I have been privileged to visit some of the most beautiful 
places in the world and fish the pristine rivers of the Earth, 
to Balder Peak in Alaska, the Wairau River in New Zealand, 
Ibanez River in Chile. My guides and I have outfitted over 
100,000 people in the 40 years of our business.
    Without hesitation, Mr. Chairman, the rivers and streams of 
the Snake River headwaters are the most stunningly beautiful in 
the world. If any rivers are ever worthy of being included in 
the National Wild and Scenic Rivers System, these rivers are. I 
love to fish these rivers, but they are more than about 
fishing. They are a lot more. You do not have to be a fisherman 
to fall in love with rivers, to walk these rivers and hear the 
music of the rivers, to see beavers swimming out of the lodge, 
to watch an elk come down to the river to drink at sunrise. 
These rivers touch all our souls.
    From the shadow of the Teton Mountain Range, our rivers 
flow through Grand Teton National Park, Bridger-Teton National 
Forest, and the crown jewel of our park system, Yellowstone 
National Park. From the teeming trout pools of the Lewis River 
to the Snake River Canyon to the rivers of the headwaters, they 
are the lifeblood of northwest Wyoming.
    Our rivers are home to the native cutthroat trout, the last 
great native fisheries left in the world today. They sustain 
thousands of species of animals and plants who depend on them 
to survive. As the circulatory system of a living landscape, 
our rivers provide critical habitat, unmatched recreational 
opportunities, and economic sustainability to our local and 
State economies.
    Mr. Chairman, wild and scenic designation for these rivers 
makes sense. Not only is this designation good for rivers, it 
is good for river users who fish and float these waters. It is 
good for sportsmen and women who rely on a healthy habitat for 
hunting and fishing. It is good for business that depends on 
tourism. It is good for our State.
    Our rivers, of course, are places of relaxation and 
recreation; they offer sensational whitewater rafting, 
floating, fishing, as well as hiking, camping, and hunting 
along the banks. All these uses will continue to thrive with 
the wild and scenic designation.
    Our rivers are also powerful economic engines for our 
tourist-based economy in northwest Wyoming. Travel and tourism 
is the second largest sector of the Wyoming economy and the 
largest sector of the regional economy of northwest Wyoming.
    States all across the country are using wild and scenic 
rivers as powerful marketing tools to attract visitors. 
Businesses on Main Street are benefiting from the wild and 
scenic rivers in their area. Currently Wyoming has only 20 
miles of wild and scenic water, lagging far behind our 
neighbors, who have hundreds of miles of wild and scenic 
rivers. Wild and scenic designation for this headwaters project 
will allow Wyoming businesses to compete better for the 
destination dollars in the highly competitive tourist industry.
    I have been proud, Mr. Chairman, of serving as honorary 
chairman of this campaign, a coalition of river users, 
businesses, outfitters, landowners, conservationists, and just 
plain people, who want to leave a legacy of clean water, free-
flowing rivers, and outstanding recreational opportunities for 
generations of Americans.
    As I take Team USA to Finland next month, I would love to 
tell them about Senator Craig Thomas's Headwaters Legacy Act, a 
visionary piece of legislation that will secure a wonderful 
legacy for our children and grandchildren.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Dennis follows:]
Prepared Statement of Jack Dennis, Honorary Chairman, Campaign for the 
                     Snake Headwaters, Jackson, WY
    Thank you Mr. Chairman and thank you members of the Committee. 
Thank you for inviting me to appear before this Subcommittee to testify 
in support of S. 1281, the Snake Headwaters Legacy Act. What a pleasure 
it is to be with you to talk about my favorite part of the world. I 
would like to personally thank Senator Thomas for introducing this 
bill, and for giving the citizens of Wyoming and the millions of people 
from around the world who visit our magnificent rivers a legacy we can 
all be proud of.
    My name is Jack Dennis, and I am from Wyoming. I am an outfitter 
and guide, and I own and operate a fly-fishing guiding service and an 
outdoor retail business in Jackson Hole. I am a founder of the Jackson 
Hole One-Fly fishing tournament which is a nonprofit event that raises 
money in conjunction with the U.S. Fish and Wildlife Service for 
improvement of fish habitat. I also serve as the Coach of Team USA in 
the World Championships of Fly Fishing.
    I was born in Wyoming and have lived there my entire life. I have 
raised my family and make my living in Wyoming. And I have waded and 
fished each and every river and stream in this bill. These rivers are 
my backyard. They are my office. And they are my sanctuary.
    I have been privileged to visit some of the most beautiful places 
in the world, and to fish the most pristine rivers on earth--from 
Gibraltar Creek in Alaska, to the Wairau River in New Zealand, to the 
Ibanez River in Chile. My guides and I have outfitted more than a 
hundred thousand people on hundreds of rivers around the world, and I 
can tell you without hesitation, Mr. Chairman, that the rivers and 
streams of the Snake Headwaters are among the most stunningly beautiful 
in the world. If any rivers were ever worthy of being included in the 
National Wild and Scenic Rivers system, these rivers are.
    I love to fish these rivers, but these rivers are about more than 
just fishing. A lot more. You don't have to be a fisherman to fall in 
love with our rivers. To walk along these rivers and to hear the music 
the rivers make . . . To see a beaver swimming out of his lodge . . . 
Or to watch an elk come down to the river to drink at sunrise. These 
rivers touch all of our souls.
    In the shadows of the Teton Mountain Range, our rivers flow through 
Grand Teton National Park, the Bridger-Teton National Forest, and the 
crown-jewel of our National Park System--Yellowstone National Park. 
From the teeming trout pools of the Lewis River to the raging 
whitewater in the Snake River Canyon, the rivers of the Snake 
Headwaters are the life-blood of northwest Wyoming.
    Our rivers are home to the native cutthroat trout, one of the last 
great native fisheries left in the world. And they sustain thousands of 
species of animals and plants who depend on them to survive. As the 
circulatory system of a living landscape, our rivers provide critical 
habitat, unmatched recreational opportunities, and economic 
sustainability to our local and state economies.
    Mr. Chairman, Wild and Scenic designation for these rivers makes 
sense. Not only is this designation good for the rivers, it's good for 
river users who fish and float these waters, it's good for sportsmen 
and women who rely on healthy habitat for hunting and fishing, it's 
good for businesses that depend on tourism, and it's good for our 
State.
    Our rivers are, of course, places for relaxation and recreation, 
offering sensational whitewater rafting, floating, and fishing, as well 
as hiking, camping, and hunting along their banks. And all of these 
uses, and many others, will continue to thrive with a Wild and Scenic 
designation. Our rivers are also powerful economic engines of our 
tourism-based economy in northwest Wyoming. Travel and Tourism is the 
second-largest sector of the Wyoming economy, and the largest sector of 
the regional economy in northwest Wyoming.
    States all across the country are using Wild and Scenic rivers as 
powerful marketing tools to attract visitors. And businesses on Main 
Street are benefiting from the wild and scenic rivers in their area. 
Currently, however, Wyoming only has 20 miles of wild and scenic water, 
lagging far behind our neighbors who have many hundreds of miles of 
wild and scenic rivers. Wild and Scenic designation for the Snake 
Headwaters will allow Wyoming businesses to better compete for 
destination dollars in a highly competitive tourism industry.
    Mr. Chairman, I have been proud to serve as the Honorary Chairman 
of the Campaign for the Snake Headwaters--a coalition of river users, 
businesses, outfitters, landowners, and conservationists who want to 
leave a legacy of clean water, free-flowing rivers, and outstanding 
recreational opportunities for generations of Americans to come. As I 
take Team USA to Finland to compete in the World Championships of Fly 
Fishing later this month, I will take with me the news of Senator 
Thomas' Snake Headwaters Legacy Act, a visionary piece of legislation 
that will secure that wonderful legacy for our children and 
grandchildren.
    Thank you Mr. Chairman. I would be happy to answer any questions 
that the Committee has for me.
    Thank you.

    Senator Akaka. Thank you very much, Mr. Dennis.
    Mr. Tom Ikeda.

    STATEMENT OF TOM IKEDA, EXECUTIVE DIRECTOR, DENSHO: THE 
                JAPANESE AMERICAN LEGACY PROJECT

    Mr. Ikeda. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, thank you for the opportunity to 
testify today in support of the Minidoka National Historic Site 
Act, S. 916, and the Bainbridge Island Japanese American 
Monument Act, H.R. 161.
    My name is Tom Ikeda. I am a third generation Japanese 
American and am proud to say my family has lived in Seattle, 
Washington, for over 100 years. I would have been even prouder 
to say continuously for over 100 years, but I cannot say this 
because of a 3-year gap from 1942 through 1944 when my four 
grandparents, my two parents, and my seven aunts and uncles 
were removed from Seattle and incarcerated at the Minidoka War 
Relocation Authority Camp in southern Idaho.
    Francis Kinoshita, one of my uncles, whom I never had the 
chance to meet, volunteered from Minidoka to serve in the U.S. 
Army's all-Japanese 442 Regimental Combat Team along with your 
colleague Senator Daniel Inouye. Unfortunately, my uncle was 
killed in action and was one of 73 battlefield deaths that 
Minidoka suffered, more than any other camp.
    I am also the Executive Director of Densho: The Japanese 
American Legacy Project, a Seattle, Washington, nonprofit 
organization. ``Densho'' is a Japanese term meaning to pass 
stories on to the next generation, or to leave a legacy. Our 
mission is to preserve the stories of Japanese Americans who 
were unjustly incarcerated during World War II and to make 
these stories available over the Internet.
    On behalf of Densho and our partner organizations in the 
Japanese American community, I wish to express our deep 
appreciation to Senator Larry Craig, Senator Maria Cantwell, 
Senator Mike Crapo, and Senator Patty Murray for introducing S. 
916 and to Representative Jay Inslee and Representative Mike 
Simpson for introducing related legislation, H.R. 161, in the 
U.S. House of Representatives. I especially wish to recognize 
Senator Maria Cantwell, who has worked to conserve Washington 
State's rich cultural heritage.
    Densho fully supports the components of S. 916 and H.R. 
161. I am particularly excited about the addition of the 
Bainbridge Island Japanese American Memorial to the boundaries 
of Minidoka. If this legislation is enacted, the Eagledale 
Ferry Dock site on Bainbridge Island will be the first area 
managed by the National Park Service dedicated to the Japanese 
American experience in World War II and located close to a 
large population center.
    I am pleased to be joined here today by Floyd Mori, 
National Director of the Japanese American Citizens League. The 
Japanese American Citizens League, which has multiple chapters 
in both Washington and Idaho, and the Friends of Minidoka 
strongly support this legislation.
    Densho also supports an amendment to S. 916 or H.R. 161 to 
expand Minidoka's boundary to include the Farm in a Day 
property, a 128-acre property adjacent to the monument. This 
tract is the National Park Service's highest acquisition 
priority because, in addition to telling the historic story of 
Farm in a Day described earlier by Senator Craig, it will also 
enable the National Park Service to reconstruct an entire 
barracks block in its original location, as called for in its 
general management plan. This is something that is not possible 
without boundary expansion legislation. Public comments 
received during the planning process identified the barracks as 
the most important buildings to convey the Minidoka story.
    Mr. Chairman and members of the committee, I commend your 
vision, leadership, and resolve to hold a hearing on this 
legislation. For decades Japanese Americans who were imprisoned 
by their government lived with shame, guilt, and pain. This 
legislation, coupled with the annual pilgrimages, the 
collection of personal stories, and the work of the National 
Park Service, has helped promote the healing process for many 
of the surviving detainees.
    As this year marks the 65th anniversary of the mass removal 
and incarceration in 1942, many of the survivors are in their 
70s, 80s, and older. To ensure that their stories of suffering, 
hardship, courage, and hope can be told to future generations, 
we respectfully request the committee approve the amended 
legislation on an expedited basis.
    Mr. Chairman, I would be pleased to answer any of your 
questions and provide additional information to you and the 
subcommittee. Thank you again for this opportunity to testify.
    [The prepared statement of Mr. Ikeda follows:]
   Prepared Statement of Tom Ikeda, Executive Director, Densho: The 
                    Japanese American Legacy Project
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today in support of the Minidoka National 
Historic Site Act (S. 916) and Bainbridge Island Japanese American 
Monument Act (H.R. 161).
    My name is Tom Ikeda. I am a third-generation Japanese American and 
am proud to say my family has lived in Seattle for over 100 years. I 
would have been even prouder to say ``continuously for over 100 years'' 
but I cannot say this because of a three year gap from 1942 to 1944 
when my four grandparents, my two parents, and my seven aunts and 
uncles were removed from Seattle and incarcerated at the Minidoka War 
Relocation Authority camp, in southern Idaho.
    Francis Kinoshita, one of my uncles, whom I never had the chance to 
meet, volunteered from Minidoka to serve in the U.S. Army's all-
Japanese American 442nd Regimental Combat Team along with Senator 
Daniel Inouye. Unfortunately, my uncle was killed in action and was one 
of 73 battlefield deaths that Minidoka suffered, more than any other 
camp.
    I am also the Executive Director of Densho: The Japanese American 
Legacy Project, a Seattle, Washington, non-profit organization. Densho 
is a Japanese term meaning ``to pass stories on to the next 
generation,'' or to leave a legacy. Our mission is to preserve the 
stories of Japanese Americans who were unjustly incarcerated during 
World War II. We collect and offer their stories to the public in a 
manner that reflects our deep regard for who they are and what they 
endured.
    Using digital technology, we provide Internet access to hundreds of 
video interviews, thousands of historical documents and photographs, 
and teacher resources to explore democratic ideals and constitutional 
principles. We seek to educate young people and inspire them to act in 
defense of liberty and the highest values of our country.
    On behalf of Densho and our partner organizations in the Japanese 
American community, I wish to express our deep appreciation to Senator 
Larry Craig, Senator Maria Cantwell, Senator Mike Crapo and Senator 
Patty Murray for introducing S. 916 and to Representative Jay Inslee 
and Representative Mike Simpson for introducing related legislation 
(H.R. 161) in the U.S. House of Representatives. I especially wish to 
recognize Senator Maria Cantwell, who has worked to ensure that 
Washington state's rich cultural heritage is conserved for future 
generations as part of the National Park System.
    This bipartisan legislation is a testament to the importance of 
recognizing this chapter in our nation's history and builds on our 
nation's tradition of conserving historic sites that reflect the broad 
diversity of our national experience.
    Densho fully supports the components of S. 916 and H.R. 161. I am 
particularly excited about the addition of the Bainbridge Island 
Japanese American Memorial to the boundary of Minidoka. If this 
legislation is enacted, the Eagledale Ferry Dock site on Bainbridge 
Island will be the first area managed by the National Park Service 
(NPS) dedicated to the Japanese American experience in World War II and 
located close to a large population center. Because of its significance 
as the point of debarkation for the first group of Japanese Americans 
to be forcibly removed and detained, Densho believes that the 
Bainbridge Island Memorial will become a focal point on the West Coast 
for memories, healing, and education about the story of the 227 
Japanese Americans from Bainbridge who were relocated on March 30, 
1942. By establishing the Memorial, Congress will authorize the NPS to 
illuminate the broader story of President Roosevelt's Executive Order 
9066 that led to the incarceration of 120,000 innocent Japanese 
Americans from across the western United States.
    I am pleased to be joined here today by Floyd Mori, National 
Director of the Japanese American Citizens League. The Japanese 
American Citizens League, which has multiple chapters in both 
Washington and Idaho, and the Friends of Minidoka strongly support this 
legislation.
    Densho also supports an amendment to S. 916 or H.R. 161 to expand 
Minidoka's boundary to include the Farm-in-a-Day property, a 128-acre 
property adjacent to the Monument. This tract is the NPS's highest 
acquisition priority because it will enable the NPS to reconstruct an 
entire barracks block in its original location, as called for in its 
General Management Plan (GMP).
    Let me explain why I think the amendment is important. Two months 
ago, I had the opportunity to visit the Manzanar National Historic Site 
in eastern California. At Manzanar, the NPS does an excellent job of 
preserving and interpreting this World War II-era detention facility. 
The ability to walk and reflect in the exact location of the former 
barracks serves as a powerful tool for interpretation. This attention 
to detail and accuracy reflects historical rigor and makes the events 
more tangible and real for visitors to the National Historic Site, who 
number over 90,000 annually.
    Including the Farm-in-a-Day property in Minidoka is important 
because it will allow for the future restoration of an entire block of 
barracks on its original location, something that isn't possible 
without boundary expansion legislation. Public comments received during 
the planning process identified the barracks as the most important 
buildings to convey the Minidoka story.
    To conserve this historic property, The Conservation Fund acquired 
the land and wishes to convey it to the NPS for permanent management. I 
ask that a letter in support of the boundary expansion from The 
Conservation Fund be included in the record.
    The acquisition of this tract will also enable the NPS to tell the 
remarkable story of the Farm-in-a-Day project, when thousands of 
workers and spectators came together on one day in 1952 to build a farm 
on the site of the former camp. This project represents an important 
connection between the camp and the decommissioning of the camp and the 
development of agriculture in southern Idaho. Building the Farm-in-a-
Day was a significant historical event that marked a cooperative effort 
between the local community, state and federal governments, and the 
private agricultural industry to establish and demonstrate modem 
agricultural techniques and equipment.
    Today's legislation is possible as a result of two recently-
completed planning efforts by the NPS as part of the Minidoka GMP and a 
Congressionally-authorized special resource study to develop 
recommendations to conserve the two sites at Minidoka and Bainbridge 
Island as an integrated, unified and comprehensive resource for public 
education and interpretation.
       minidoka gmp and bainbridge island special resource study
    In 2001, the Minidoka Internment National Monument was established 
as a unit of the National Park System. In the last several years, the 
NPS has worked closely with the local community in Idaho, as well as 
Japanese American organizations throughout Idaho, Washington and 
Oregon, to develop a GMP for the Monument. As part of its planning 
process, the NPS conducted numerous public meetings in Idaho and across 
the Pacific Northwest to solicit input from the public about how best 
to manage the Monument for public education and interpretation. In 
2006, the NPS completed its GMP, which included a number of 
recommendations to strengthen the ability of Minidoka to tell the story 
of the camp to future generations.
    In 2002, Congress passed legislation to authorize the NPS to 
conduct a special resource study of the Eagledale Ferry Dock site on 
Bainbridge Island. In working closely with the Bainbridge Island 
Japanese American Memorial Committee and other partners, the NPS 
recommended that the eight acre site be added to Minidoka via a 
boundary expansion.
    Densho has examined and commented on the draft GMP for the Minidoka 
Internment National Monument and the special resource study for the 
Eagledale Ferry Dock on Bainbridge Island. Densho supports the 
recommendations of the GMP and special resource study and S. 916, H.R. 
161 along with a proposed amendment to include the Farm-in-a-Day 
property in the Minidoka boundary would implement these 
recommendations.
   bainbridge island japanese american memorial--eagledale ferry dock
    Densho supports expanding the boundary of the Minidoka Internment 
National Monument to include the approximately eight acres of land 
containing the Nidoto Nai Yoni, ``Let it not Happen Again,'' memorial 
at the site of the Eagledale Ferry Dock. In 2002, Congress passed 
legislation to authorize the NPS to study the national significance, 
and feasibility and suitability of managing the Eagledale Ferry Dock 
site on Bainbridge Island, Washington as part of the National Park 
System.
    Establishing the Bainbridge Island Japanese American Memorial as a 
unit of Minidoka will provide an excellent opportunity to tell the 
story of the journey of the Bainbridge Island Japanese Americans from 
Bainbridge to Manzanar to Minidoka and back to Bainbridge, as all sites 
will be managed by the NPS.
       land transfer for issei memorial and former staff housing
    As proposed in the GMP and as directed in S. 916, Densho supports 
the proposed management transfer of approximately 10 acres of land from 
the Bureau of Reclamation to the NPS at Minidoka. This transfer will 
allow for the creation of an Issei Memorial to commemorate the memory 
and experiences of the first generation of Japanese Americans, who 
traveled from Japan to settle in America. The proposed Memorial will 
honor their sacrifices, hard work, and commitment to their family and 
chosen country. This proposed transfer also includes the land and 
historic buildings of former staff housing, which would be used for 
management purposes.
                        renaming of the monument
    As proposed in S. 916, Densho supports the renaming of the Minidoka 
Internment National Monument to the Minidoka National Historic Site. 
Changing the name to Minidoka National Historic Site would bring the 
name into conformity with the Manzanar National Historic Site and other 
units of the National Park System which have a similar scope and 
educational mission.
    Another reason to change the name is the term ``internment'' is 
problematic when applied to American citizens. Technically, internment 
refers to the detention of enemy aliens after a legal hearing during 
time of war. At Minidoka, approximately two-thirds of the Japanese 
Americans incarcerated were U.S. citizens and none were given hearings. 
It would be a mistake for the Congress to codify this term in statute, 
which is why Densho supports the legislation to change the name to the 
Minidoka National Historic Site. This name change was also a 
recommendation of the GMP.
    Mr. Chairman and members of the Committee, I commend your vision, 
leadership, and resolve to hold a hearing on this legislation. For 
decades, Japanese Americans who were imprisoned by their government 
lived with shame, guilt, and pain. This legislation, coupled with the 
annual pilgrimages, the collection of personal stories, and the work of 
the NPS, has helped promote the healing process for many of the 
surviving detainees.
    As this year marks the sixty-fifth anniversary of the mass removal 
and incarceration in 1942, many of the survivors are in their 
seventies, eighties and older. To ensure that their stories of 
suffering, hardship, courage, and hope can be told to future 
generations, we respectfully request that the Committee approve the 
amended legislation on an expedited basis.
    Mr. Chairman, I would be pleased to answer your questions and 
provide additional information to you and the Subcommittee. Thank you 
again for this opportunity to testify.
                                timeline
    December 7, 1941.--Japan attacked U.S. military bases in Pearl 
Harbor, Hawaii. More than 3,500 servicemen were killed or wounded.
    February 1942.--President Roosevelt signs Executive Order 9066 
which authorizes the mass removal and incarceration of 120,000 Japanese 
Americans from California, Washington, Oregon, Alaska and portions of 
Arizona during World War II. Minidoka is one of ten large incarceration 
centers constructed.
    March 30, 1942.--227 members of Bainbridge Island's Japanese 
American community report to the Eagledale Ferry Dock, site of the 
Bainbridge Island Japanese American Memorial, becoming the first group 
of Japanese Americans to be forcibly removed.
    August 1942.--The War Relocation Authority opens Minidoka 
Relocation Center in Jerome County, Idaho. Approximately 7,200 Japanese 
American residents from Washington State are incarcerated at Minidoka 
after being temporarily detained at the Puyallup Washington 
Fairgrounds. During its operation, the population at Minidoka peaks at 
9,397 men, women and children. Over 1,000 men sign up for the U.S. 
Army, the highest level of military participation at any of the camp 
sites. Of those who joined the military, 73 were killed in action, the 
highest number of any of the ten camp sites.
    1943.--Bainbridge Island Japanese Americans leave Manzanar for 
Minidoka.
    October 1945.--Minidoka closed.
    April 1952.--Over 10,000 people come together from across southern 
Idaho to turn the former Minidoka camp into a working farm (Farm-in-a-
Day).
    February 1980.--Congress establishes and authorizes the Commission 
on Wartime Relocation and Internment of Civilians (CWRIC) to review the 
circumstances surrounding Executive Order 9066 and the forced 
relocation and incarceration of Japanese Americans and other U.S. 
citizens during World War II. The CWRIC conducts hearings in nine 
cities, hears testimonies from over 750 witnesses, and examines over 
10,000 documents. In 1983, the CWRIC issues its report concluding that 
military necessity was not the cause of the mass imprisonment. Rather, 
``. . . causes which shaped these decisions were race prejudice, war 
hysteria and a failure of political leadership.''
    August 10, 1988.--President Ronald Reagan signs the Civil Liberties 
Act (H.R. 442) into law. It acknowledges that the incarceration of 
120,000 individuals of Japanese descent was unjust, and offers an 
apology and payment of $20,000 to each living survivor.
    October 1990.--President George H.W. Bush issues a formal apology 
to surviving Japanese Americans in letters accompanying financial 
reparations.
    February 1992.--Congress establishes the Manzanar National Historic 
Site in eastern California, as the first unit of the NPS to commemorate 
this chapter in our nation's history.
    January 2001.--Minidoka Internment National Monument is established 
as a unit of the NPS. As part of its planning process, the NPS conducts 
numerous public meetings in Idaho and across the Northwest to solicit 
input from the public about how best to manage the Monument for public 
education and interpretation. In 2006, the NPS completes its GMP.
    December 2002.--Congress passes legislation to authorize the NPS to 
conduct a special resource study of the Eagledale Ferry Dock site on 
Bainbridge Island. In 2006, the NPS recommends that the eight acre site 
be added to Minidoka as a boundary expansion.

    Senator Akaka. Thank you very much for your testimony.
    Now I would like to call on Mr. George Santucci for your 
testimony.

  STATEMENT OF GEORGE SANTUCCI, EXECUTIVE DIRECTOR, NATIONAL 
                  COMMITTEE FOR THE NEW RIVER

    Mr. Santucci. Thank you very much, Mr. Chairman. Mr. 
Chairman and subcommittee, thank you for this opportunity, and 
good afternoon, to present testimony in support of Senate bill 
1057, to amend the wild and scenic river designation for the 
New River in the States of North Carolina and Virginia.
    I am George Santucci and I am the Executive Director for 
the National Committee for the New River, and I am here 
representing our members, supporters, and the New River. I 
would like to submit to you today the testimony, including a 
map and a picture of this section of the river.*
---------------------------------------------------------------------------
    * All graphics in this document have been retained in subcommittee 
files.
---------------------------------------------------------------------------
    The New River has been proven to be the oldest river on the 
North American continent. It gets its start at above 5,000 feet 
in the high country of North Carolina. It starts as two forks, 
the North and South Fork, which come together in confluence 
near the North Carolina-Virginia State lines. It proves its age 
by defying common wisdom and flowing northward through the 
Appalachian Mountains as it goes through Virginia and on into 
West Virginia.
    The section of the river that we are speaking of today 
flows through pristine and beautiful farmlands. Many of these 
farm owners still hold the original land grants that were given 
in the 1700s to their families. There are threatened and 
endangered species on this section of the river, including the 
Kanawha minnow, the green-faced clubtailed dragonfly, and a 
beautiful flowering bush known as the Virginia spiraea. Other 
species--bald eagles, blue herons--certainly nest and fish this 
section of the river.
    The National Committee for the New River was founded 30 
years ago when Appalachian Power proposed dams on this exact 
section of the river, which would have flooded over 40,000 
acres of farmlands and displaced hundreds of families and would 
have closed down many communities. There was a massive 
grassroots response to this action, which garnered national 
attention and bipartisan support for the river, and the action 
resulted in the original scenic designation of the river, which 
was signed by President Ford on September 11, 1976.
    Thirty years later, if I can refer you to the picture 
there, you will see that the river has been threatened again. 
It was recently proposed that a prison be placed right on that 
site on the river, and this is within this current designation 
that is being requested today.
    Once again, the grassroots folks responded and, luckily, 
there has been negotiations which have moved the prison off the 
river, but it indicates today that there are constantly threats 
to this section of the river and this designation would go a 
long way to negotiating with folks with regard to these 
threats.
    The Winston-Salem Journal recently editorialized that ``the 
potential to threaten this section of the river and the tourist 
economy that it brings in . . . all these communities along the 
river should try hard to limit development and make sure that 
the development does not detract from its scenic beauty.''
    The National Committee for the New River and its local and 
regional partners have protected over 20,000 acres within the 
New River watershed. If I can refer you to the map that is 
shown there, you can see that there are permanently protected 
lands both along the current scenic designation and on this 
proposed scenic designation. There are hundreds of acres that 
are currently protected just along the proposed scenic 
designation and many more are in negotiations to be protected.
    I would say every year that thousands of folks come to fish 
the New River. It is a world-class smallmouth bass fishery and 
the tourism dollars that come--Ashe County, which is the county 
that currently enjoys the scenic designation, has about $40 
million a year tourism revenue that comes into the county and 
they credit the New River as the primary tourist attraction in 
the county and the scenic designation is a big part of that, 
driving that force.
    Charlotte Hanes, a landowner who happens to have land all 
along this stretch of the river in both States, has said that 
``The river in this area is in such good, undeveloped condition 
and there are hundreds of acres that are currently under 
conservation easements thanks to the volunteer efforts of 
caring landowners and organizations who work for the river.''
    I would just like to thank Senator Burr for sponsoring S. 
1057 and his vision for protecting our country's oldest river. 
This wild and scenic designation would be just another 
acknowledgment and recognition on a national level that this 
river is our oldest river and that it is an American Heritage 
river and deserves this level of protection.
    I appreciate the opportunity to present this testimony to 
you today and am happy to answer any questions.
    [The prepared statement of Mr. Santucci follows:]
  Prepared Statement of George Santucci, Executive Director, National 
                      Committee for the New River
    Mister Chairman and Members of the Subcommittee, good afternoon. 
Thank you for the opportunity to present testimony in support of SB 
1057 to amend the Wild and Scenic Rivers Act to designate certain 
segments of the New River in the States of North Carolina and Virginia 
as a component of the National Wild and Scenic Rivers System. I am 
George Santucci, the Executive Director of the National Committee for 
the New River. I am here today representing our members, supporters, 
and the New River. With the permission of the committee, I'd like to 
submit a statement and the attached map and photograph for the record. 
My statement today will highlight those comments.
    The New River is the oldest river on the North American Continent. 
It defies common wisdom by flowing north and west through the ancient 
Appalachian Mountains. The New, descendant of the ancient Teyas River, 
was altered by the last ice age, resulting in the path it follows 
today. The New begins above 5,000 feet in the high peaks of North 
Carolina, as two forks, North and South. The main stem of the River is 
formed at the confluence of the forks near the North Carolina and 
Virginia border. The New then meanders north through Virginia into West 
Virginia where it confluences with the Gauley River and forms the 
Kanawha River.
    The section of the New River for which we are seeking Wild and 
Scenic status flows through beautiful undeveloped farmland. In fact, 
many of the landowners along this stretch of the New River retain the 
original land grants for these farms from the 1700's. This section of 
the River is home to threatened and endangered species including the 
Kanawha Minnows and Darters, ToungeTied Minnows, Green Floater mussels, 
Green-faced clubtailed dragonflies, and Virginia Spiraea. Bald Eagles 
and Herons nest and fish the New River.
    The National Committee for the New River was founded over 30 years 
ago when the Appalachian Power Company proposed constructing two dams 
on the New River in Southwestern Virginia. The dams would have 
destroyed over 40,000 acres in farmland, hundreds of homes and the 
whole of many communities.
    The grassroots response to the proposed dam was enormous. 
Opposition, beginning with local communities, escalated exponentially. 
The 1976 National Scenic Designation garnered nationwide attention, 
including coverage by Walter Cronkite (CBS), Harry Reasoner (ABC) and 
David Brinkley (NBC). The grassroots effort also garnered broad by-
partisan support as well; Sen. Sam Ervin, Sen. Jessie Helms, Rep. Steve 
Neal, Gov. Holshouser, Sen. Ham Horton and many others helped get the 
scenic designation legislation passed. It was signed into law on 
September 11, 1976. The federal government recognized then what we have 
known all along--the New River is a national treasure.
    Thirty years after this battle to protect the New, the River was 
threatened once again. This time, prison construction, on the very 
banks of the River, was proposed--ironically in the same location as 
the would-be dam of the 1970's. The grassroots response was again swift 
and strong. Local citizens organized to oppose the proposed location. 
Local newspapers like the Galax Gazette covered the controversy 
extensively. The Winston-Salem Journal, editorially agreed with the 
community concern, saying, ``. . . officials should heed the citizen 
protests and find another site--one that doesn't have the potential to 
threaten the river or the tourist money it brings in . . . All 
communities along this river should try hard to limit development 
nearby and make sure that any development does not detract from its 
scenic beauty.''
    As a result of this grassroots action, a compromise was recently 
reached. The state's Department of Corrections selected a different 
sight in the county, one more cost-effective, and not on the banks of 
the New River.
    The National Committee for the New River and its local and regional 
partners have protected over 20,000 acres throughout the New River 
Basin. Our work is a testament to the dedication of our local 
communities along the River. Over the last 30 years, thousands have 
volunteered to steward the River through contributions of time and 
financial support. Volunteers monitor the New's water quality, donate 
easements, provide restoration funding, and work on clean-up efforts 
throughout the year.
    Currently there are hundreds of acres of permanently protected land 
along the section of the River we are speaking of today, and hundreds 
more proposed for protection. On the existing designated scenic section 
in North Carolina, the state has created the New River State Park, 
which includes approximately 2,000 acres, and has had 100-200% 
increases in visitation over the last few years.
    Every year thousands of people fish and canoe the New River. 
Currently tourism revenue in Ashe County, North Carolina, is almost $40 
million annually--the New River is the major attraction. Statewide 
North Carolina's tourism dollars continue to grow with more than 45 
million visitor spending more than $15 billion dollars last year.
    As said by Charlotte Hanes, a property owner along the River in 
both North Carolina and Virginia, ``People holding NC or VA fishing 
licenses may fish this area with just one state license. We share the 
River and we need to take care of it equally. It would be good for both 
states to make a pledge to keep the River as it is now for future 
generations and for clean source of water. The river in this area is in 
such good, undeveloped condition and there are hundreds of acres 
already under conservation easements thanks to the volunteer efforts of 
caring landowners and the organizations that work for the River.''
    National Wild and Scenic designation will be another 
acknowledgement as recognition of the New River as America's oldest 
River and an American Heritage River.
    I appreciate the opportunity to present this testimony to the 
Subcommittee today.

    Senator Akaka. Thank you very much, Mr. Santucci.
    Now, Dr. Timothy Vail.

   STATEMENT OF TIMOTHY D. VAIL, D.V.M., ON BEHALF OF VAIL & 
             VICKERS COMPANY, SANTA ROSA ISLAND, CA

    Dr. Vail. Thank you, Chairman Akaka and members of the 
subcommittee. My name is Dr. Tim Vail and I would like to thank 
you for the opportunity to provide testimony on S. 1209. I plan 
to summarize my written testimony and request that you include 
my full remarks within the record and include the attachments 
referenced within.
    I am a managing partner, large animal veterinarian, and 
fourth generation member of our family's ranching company, Vail 
& Vickers. We are the previous owners of Santa Rosa Island from 
1901 until its acquisition by the National Park Service and 
inclusion into Channel Islands National Park in 1986. We are 
current operators of a wildlife management enterprise there 
that existed prior to the island's acquisition by the park and 
continues there under a series of special use permits set to 
expire by the end of 2011.
    I would like to voice our strong objections to S. 1209 
because it would mandate the slaughter of healthy deer and elk 
herds on Santa Rosa Island, and as written jeopardizes our 
agreement with the Park Service that allows our operation to 
continue through 2011. The bill seeks to repeal section 1077, 
subsection (c), authored by Congressman Duncan Hunter and 
passed into law last year, preventing the eradication of deer 
and elk on Santa Rosa Island.
    Vail & Vickers operated this historic cattle ranch for 
nearly 100 years, earning awards and accolades for their legacy 
of good land stewardship. During the mid-1920s, Vail & Vickers 
imported Roosevelt elk and Kaibab mule deer, native North 
American big game species, to provide species diversity to the 
island, a popular idea among ranchers of the era.
    We would like to make clear that the language within 
Congressman Hunter's legislation, now law, would not continue 
our current commercial deer and elk management operation, nor 
is it our intent to advocate for an extension of our operation 
beyond 2011. Nonetheless, in repealing the current law 
protections provided by Congressman Hunter's language, this 
legislation today mandates the slaughter of these animals under 
the Park Service direction beginning next year. More troubling, 
in addition to repealing Congressman Hunter's provision, this 
legislation seeks to add language into law which threatens the 
very existence of the Vail & Vickers operation before 2011 by 
failing to recognize and therefore violating an existing court-
ordered settlement agreement between Vail & Vickers, the 
National Park Service, and National Parks Conservation 
Association.
    The acquisition of Santa Rosa Island included important 
provisions to allow our cattle and wildlife operations to 
continue within the park through the year 2011. This was an 
amicable arrangement worked out between ourselves, Congressman 
Lagomarsino, the author of the legislation which created 
Channel Islands National Park, and Park Service negotiators, 
including Superintendent Bill Ehorn. Superintendent Ehorn and 
Congressman Lagomarsino's statements are included in my written 
testimony.
    We were promised a series of 5-year special use permits to 
operate our cattle and wildlife operations for the 25-year 
period. It was clearly the intent of the framers of this 
agreement that these operations would continue for 25 years as 
a living history of what ranching operations were like across 
the West.
    The relationship between the Park Service and Vail & 
Vickers deteriorated rapidly following Superintendent Ehorn--
after Superintendent Ehorn transferred from Channel Islands 
National Park and Congressman Lagomarsino retired from office. 
There were many issues contested over the years as park 
resource managers endeavored to call into question previously 
accepted ranch practices. This park agenda was well documented 
by former Park Superintendent Tim Setnicka in a series of 
articles in the Santa Barbara News Press.*
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    We found ourselves under fire when the National Parks and 
Conservation Association filed suit and brought us and the Park 
Service into court in 1977. As a result of litigation we could 
not afford, a settlement agreement forced us to shut down our 
cattle operation without compensation in 1998, 14 years prior 
to the time agreed upon at the inclusion of the Santa Rosa 
Island within the park. We fear that S. 1209 opens the door for 
strict park policy interpretation by park activists and once 
again jeopardizes our rights.
    I have come here to address two issues important to Santa 
Rosa Island. Our priority for the past several years has been 
to try to do the right thing by our deer and elk herds and find 
a workable alternative to stop the needless slaughter of these 
animals. We believe that after 80 years of occupancy that this 
is their home. If these were buildings we would not be able to 
move them if we wanted to. Like the century-old ranch and 
cattle operation, these deer and elk are important parts of 
Santa Rosa Island's scenic and cultural history and should be 
available for the enjoyment of visitors in the future.
    Therefore we would like to leave an ecologically 
appropriate number of deer and elk on their range on Santa Rosa 
Island for visitors to enjoy, a notion supported by leading 
wildlife conservation groups.
    Last year the Hunter provision in the defense authorization 
measure included language protecting the deer and elk from 
eradication. He did this without our assistance or 
consultation. Today S. 1209, authored by Senators Feinstein and 
Boxer, would overturn current law and return us to the court-
ordered slaughter, also without our consultation. Either way we 
feel we have been caught in the middle between these two 
competing interests.
    The passage of this bill could bring about a tragic end to 
an agreement made in good faith by my ranching family. Not only 
are the deer and elk threatened by S. 1209, but our remaining 
rights are also jeopardized. We ask that the committee and 
Congress protect our rights and these magnificent herds.
    Thank you again for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Dr. Vail follows:]

    Prepared Statement of Timothy B. Vail, Vail & Vickers Company, 
                         Santa Rosa Island, CA

    Chairman Akaka and Members of the Subcommittee, my name is Dr. Tim 
Vail and I would like to thank you for the opportunity to provide 
testimony on S. 1209. I plan to summarize my written testimony and 
request that you include my full remarks within the record and include 
the attachments referenced within.
    I am a managing partner and fourth generation member of our 
family's ranching company, Vail & Vickers. We are the previous owners 
of Santa Rosa Island from 1901 until its acquisition by the National 
Park Service and inclusion into Channel Islands National Park in 1986, 
and current operators of a wildlife management enterprise there. We 
have traveled to Washington, D.C. today to voice our strong objections 
to S. 1209, a bill that would mandate the slaughter of healthy elk and 
deer herds currently habituated to Santa Rosa Island, one of the 
islands within Channel Islands National Park off the southern 
California coast.
    This bill seeks to repeal that Section 1077(c) of Public Law 109-
364 (120 Stat. 2406), authored by Congressman Duncan Hunter, and passed 
into law last year that prevents the eradication of deer and elk on 
Santa Rosa Island. Further, the Feinstein/Boxer bill doesn't just 
repeal Congressman Duncan Hunter's law protecting the deer and elk, it 
also adds language which we feel, if allowed to become law, fails to 
recognize and violates an existing court ordered settlement agreement 
between V&V, the National Park Service (Park Service) and the National 
Parks Conservation Association (NPCA). While Congressman Hunter's 
provision impacts this agreement with respect to allowing the elk and 
deer to remain on the island, the provisions within S. 1209 are more 
broad and troublesome.
    We thank you for the opportunity to share our concerns regarding 
this legislation. As the former landowners and current tenants of this 
island ranch, with over 100 years and four generations of stewardship, 
we have been highly impacted by this National Park and National Park 
Service policies. Ultimately, we will be the private entity most 
directly affected by this proposed legislation. We would like to 
provide you with our perspective on some of the issues surrounding the 
Santa Rosa Island debate based on our family's knowledge of, and 
experience on Santa Rosa Island. We ask that you consider our testimony 
regarding the concerns we have for our wildlife operation and 
contractual agreements with the National Park Service, and for the 
future of the magnificent deer and elk herds on Santa Rosa Island.
                               background
    In 1901 my great-grandfather Walter L. Vail, and his partner J.V. 
Vickers, formed Vail & Vickers Co. (V&V) and purchased Santa Rosa 
Island, one of the islands in the northern archipelago of the Santa 
Barbara Channel Islands, converting the island from a 19th century 
sheep station to a 20th century cattle ranch after providing several 
years of habitat rest. Vail and Vickers has operated this historic 
cattle ranch for nearly 100 years on the island earning awards and 
accolades for their legacy of good land stewardship on the island. 
During the mid-1920's, V&V imported Roosevelt elk and Kaibab mule deer 
to provide species diversity to the island and to provide for personal 
enjoyment, a popular idea among ranchers in that era. These animals 
were not originally intended as commercial livestock. Herd numbers were 
managed by ranch personnel for meat and hides from the time of the 
herds' introduction. In 1978, as a result of a proposal born of thesis 
work completed by myself at the University of California at Berkeley in 
the College of Natural Resources, V&V began a commercial hunting 
program in order to better manage these herds responsibly, as well as 
add additional revenue to their island cattle operations.
    Channel Islands National Park (CINP) was created through an act of 
Congress authored by Congressman Robert J. Lagomarsino in 1980. The 
Congressman's contribution and leadership was recognized on Nov. 12, 
1996 (Public Law 104-333) when the Channel Islands National Park 
Visitor's Center was named after him. Attached is a statement from 
Congressman Lagomarsino expressing his thoughts on S. 1209 and some of 
the island's current issues. His testimony should help provide insight 
to discussions that took place over 25 years ago. As Congress 
contemplates the intent of current and future provisions, we hope that 
you pay special attention to the thoughts of the Member that made the 
idea of the Channel Islands National Park a reality.
    Santa Rosa Island was acquired by the National Park Service in 1986 
against the desire of V&V, who wished to continue their ranching 
operations. Nonetheless, with few options available to V&V and under 
threat of condemnation, they agreed to sell the island to the federal 
government for inclusion in Channel Islands National Park. As 
responsible stewards of the island, part of the attraction of the sale 
for us was the idea that this unique island's history would be 
preserved and presented to visitors.
    To ease in the transition, part of the island's sale included an 
important provision to allow the V&V cattle and wildlife operations to 
continue within the Park through the year 2011. Specifically the family 
was given a 25-year lease on a 7-acre parcel with right of use and 
occupancy. Separately, V&V was promised by the Park Service the cattle 
and wildlife operations were to continue for 25 years through the use 
of mutually agreed upon successive 5-year Special Use Permits. Rather 
than fight impending condemnation and government appraisal, V&V chose 
to work with Park Service to bring Santa Rosa Island into Channel 
Islands National Park. The Park received Santa Rosa Island at their 
price along with immediate access in return for the continuation of 
V&V's commercial operations for 25 years. This agreement also helped 
the park access much needed moneys both through the direct collection 
of Special Use Permit fees by the Channel Islands National Park, and by 
allowing the Channel Islands National Park to obtain funding from the 
Park Service for Santa Rosa Island management that would not have been 
available had the island been under a 25-year lease to V&V. Lease money 
would have gone to the United States Treasury, which would not have 
directly benefited Channel Islands National Park.
    This arrangement was amicable at its inception, and our 
agricultural and recreational operations were deemed by Park Service 
negotiators, including the Channel Islands National Park Superintendent 
William Ehorn, to be perfectly compatible with both National Park 
policies and their vision for future Channel Islands National Park. It 
was the intent of all sides involved that these agreements were to be 
followed for the full 25-year period. We have included correspondence 
from former Superintendent Ehorn in this testimony. It was due in part 
to Mr. Ehorn's persuasion that we accepted this course of action rather 
than opting for a 25-year lease agreement for the commercial cattle and 
wildlife enterprises, which would have allowed V&V to operate as it had 
historically until 2011 with no Park input and no public access. It is 
also important to note that Congressman Lagomarsino never envisioned 
the removal of the deer and elk at the end of the family's 25-year 
term.
    As a result of a lawsuit brought against the Park Service and V&V 
by the National Parks and Conservation Association (NPCA), V&V was 
forced to shut down their cattle operation without compensation in 
1998, 14 years prior to the time agreed upon at the inclusion of SRI 
within the Park. The resulting Settlement Agreement (Settlement) also 
detailed conditions under which V&V would continue its hunting 
operation until 2011, and further specified that both the deer and elk 
herds need be ``removed'' from the SRI by the end of that same year. 
Congressman Duncan Hunter authored legislation last year that provided 
simply that the deer and elk on Santa Rosa Island may not ``be 
eradicated, or nearly eradicated'' from the island.
    We would like to make clear that the language within Congressman 
Duncan Hunter's legislation, now law, would not continue the current 
commercial deer and elk management operation nor extend the V&V's 
Special Use Permits beyond 2011. In addition, V&V played no role in 
this language and was not consulted by Congressman Hunter in any way 
regarding it. It is not our intention to advocate for the continuation 
of our wildlife management program past the year 2011. While 
Congressman Hunter had a publicly stated goal of allowing our service 
men and women a place to hunt after 2011, this language does not do 
this. I don't need to explain to this Committee the reality of 
compromising what a Member wants versus what is possible in the 
legislative process. Unfortunately, the media and individuals with 
their own agenda confuse what Congressman Hunter wanted with what was 
passed into law.
    While Congressman Hunter's language may be politically complicated, 
its legislative impact is direct and simple. First, this language 
eviscerates the portion of the Settlement Agreement that requires a 25% 
per year drawdown in deer and elk populations beginning in 2008, and 
ultimate elimination of the elk and deer herds in 2011. It then 
requires the Department of the Interior to allow the elk and deer to 
remain on Santa Rosa Island beyond 2011. While we think the language is 
relatively straight forward, it causes some significant questions for 
all involved and particular problems for V&V. Namely, what number of 
elk and deer should remain beyond 2011? It appears the intent is to 
transfer the herds from private ownership to public use, but how would 
this occur?
                           the problem today
    The language of the Feinstein/Boxer bill repeals Congressman 
Hunter's legislation which prevents the eradication of the deer and elk 
herds on Santa Rosa Island. In repealing the current law protections 
provided by Congressman Hunter's language, this legislation would 
require the slaughter of these animals under Park Service direction 
beginning next year. Further, this bill as written raises questions as 
to its impact upon the current wildlife management enterprise and other 
Special Use Permit provisions upon enactment. It appears to topple the 
court-ordered Settlement Agreement of 1997 of which V&V, the Park 
Service and NPCA are party to. It would apparently negate the court 
ordered settlement and place us in a position of having to sue the 
United States to return the rights they agreed to in the Settlement. As 
such, this law could amount to a legislative taking without providing 
the funding to do so. This legislation makes no mention that a taking 
is intended. We feel that this is yet another example of the steady 
erosion of the once amicable agreement between V&V and the Park 
Service.
    We ask the Committee to oppose this bill based on two basic issues. 
As written, this bill could be interpreted to cause the cessation of 
our business prior to the time agreed upon by all involved parties, 
both at the time of Channel Islands National Park acquisition of Santa 
Rosa Island in 1986, and as acknowledged by the Settlement Agreement of 
1997. The bill contravenes the Settlement between the parties by 
alluding to the Settlement in its introductory remarks, but then 
failing to include the Settlement as part of the management criteria 
within the law. It further fails to dictate that the Settlement must be 
included in the manner of management of SRI in the future. In so doing, 
this bill fails to provide for our wildlife operations as afforded by 
our various agreements with the National Park Service. The passage of 
this bill would likely bring about a number of problems nobody has 
anticipated or wants, not the least of which would be the damages 
caused by legislative taking.
    Secondly, and perhaps more important in the broader picture, we ask 
our Senators and this Committee to engage in an open conversation that 
acknowledges that these magnificent herds will be slaughtered if this 
National Park, or this legislation and the similar bill in the House 
has its way. We believe that these animals should not be slaughtered, 
and that they should remain on Santa Rosa Island as a well-managed and 
valuable wildlife resource. In fact, having the public be able to view 
these animals on Santa Rosa Island is a great biological and 
recreational asset which is ignored by CINP, but often remarked upon by 
Park visitors. The herds can and have been managed so as not to 
adversely affect the mission of the National Park Service for over 
twenty years, in spite of rhetoric to the contrary.
                            issues and facts
    Those supportive of the slaughter endorsed within the Feinstein/
Boxer bill cite some of the following reasons why these animals should 
be eradicated from the island. The following facts are based upon 
science and a working knowledge of this island exceeding a century.
1. The presence of deer and elk, and the commercial hunting operation 
        precludes visitation of Santa Rosa Island by visitors.
    This argument, often promoted by Park Service and some elected 
officials, is disingenuous. Not a single visitor to Santa Rosa Island 
has been denied access by wildlife operations on Santa Rosa Island 
since the management program's beginnings in 1979, a well-known fact to 
those with first-hand knowledge of Santa Rosa Island and V&V's 
commercial operation. The commercial wildlife management program had 
been in existence for nearly a decade prior to Park Service acquisition 
of the island. At the onset of Park Service presence on Santa Rosa 
Island, V&V and our partners in this enterprise, Multiple Use Managers, 
began an efficient program that coordinates our daily operations with 
Park Service managers on the island in order avoid any danger or 
conflicts with Park visitors.
    In reality, Santa Rosa Island is large enough, and visitation by 
the public is small enough, that it is very easy to avoid the public 
during our operations by going to parts of the island that are 
unvisited by the public. We adjust on a daily basis to ensure the 
safety of visitors and multiple use of this tremendous island. 
Currently, the recreational opportunities of camping, hiking, 
sightseeing, surfing and kayaking exist year-round on Santa Rosa 
Island. The Park's own regulations dictate overnight visitors may only 
camp at the designated campground. Citing resources protection, some of 
the beaches and other areas are closed by Park Service to the public.
    We note that this argument is cynically fraudulent because in spite 
of the complete success of our on-the-ground communications procedures 
with the Park Service staff, Channel Islands National Park headquarters 
recently published a new map for visitors this past year citing areas 
that were to be off limits during the three months of wildlife 
operations, without any input from us. This transparent stratagem by 
the Park Service allows them to say that the public is denied 
visitation to significant portions of SRI. The reality is that our 
commercial operations do not limit access, and that we are proud of our 
ongoing relationship with Park personnel on the island and our ability 
to coordinate public access during our wildlife operation. Further, the 
General Management Plan for Channel Islands National Park is over 20 
years out of date. As a result, public access is limited by the Park 
Service--not by our activities.
2. The Congressman Hunter provision allows hunting to continue after 
        2011 and restricts public access.
    These statements are false. This is a one-sentence law which simply 
states that the Secretary of the Interior shall cease the plan to 
exterminate the deer and elk on Santa Rosa Island. There is no mention 
of continued hunting, disabled veterans or restricted public access. It 
is not our intention that our commercial wildlife management enterprise 
continues beyond 2011. We would like to work with members of Congress 
flesh out this law with better, more specific legislation. However, it 
is clear that this language does not extend the V&V commercial hunting 
operation.
3. The deer and elk cause damage to plants listed as threatened or 
        endangered.
    By the time the Settlement Agreement was reached in 1998, eight 
plant species had been listed on SRI as rare, and threatened or 
endangered under EPA guidelines. The Settlement created an independent 
scientific panel to monitor the effect the deer and elk had on these 
plants and report to the Park. Per the Settlement, only two of the 
eight plant species listed were thought to have the potential to be 
affected by deer or elk on SRI. The scientific panel was empowered to 
monitor Castilleja mollis (paintbrush) and Arctostaphylos confertiflora 
(manzanita).
    As of 2007, the scientific panel has gathered and analyzed data for 
eight years and has declined each year to recommend reductions in herd 
size based on their independent analysis. The following are some of the 
scientific panel's conclusions, as well as those from another 
independent agency, the National Resources Conservation Service of the 
USDA (NRCS), who has also surveyed Santa Rosa Island.

          1. Within two years into the monitoring it was determined 
        that neither deer nor elk had any negative effect on the 
        paintbrush and the scientific panel has discontinued monitoring 
        that plant species. This site was picked specifically to 
        monitor the impact of grazing by elk (Settlement section 6d).
          2. It has been shown that the elk have no effect on any of 
        the target plant species and are not a threat to the habitat. 
        Elk, grazing animals whose diet consists entirely of grasses, 
        annuals and forbs (they are not browsers), are found to have no 
        effect on any of the listed plants (scientific panel reports 
        2000-2005).
          3. While evidence of browsing by deer on manzanita is 
        inconsistently evident, the general trend of the data gathered 
        annually is positive (Peterson Individual Recommendation Letter 
        2003). The scientific panel does not believe the manzanita 
        species is in imminent danger of extinction (scientific panel 
        report 2000). Evidence of browsing of manzanita by deer is seen 
        mostly in drought years when other more palatable deer browse 
        is diminished. In spite of the fact that occasional use of 
        manzanita by deer can be demonstrated, all monitored trends for 
        this plant have either increased or stayed the same since the 
        time monitoring began.
          4. A field observation study conducted by the Natural 
        Resource Conservation Service (USDA) in June of 2006 revealed 
        healthy stands of manzanita in six different areas on the 
        island. As we had known, there were many more plants on SRI 
        than the Park Service had stated were present. In researching 
        the available data on the SRI manzanita, the agency found 
        contradicting theories on the plants reproduction habits, 
        noting . . . ``It is not clear how browsing and fire affect the 
        distribution and abundance of [manzanita] on Santa Rosa Island 
        and further studies may be necessary'' (preliminary NRCS Report 
        2006).
          5. There are other environmental factors which appear to 
        affect manzanita to a greater extent island-wide than browsing, 
        including rainfall, soil composition, insect damage, fungus, 
        lack of fire (NRCS Report). The scientific panel was only 
        charged with monitoring the impact of the deer and elk. To date 
        we are unaware of any other studies looking at other influences 
        on these plants.

    More research is certainly needed to find out what the current 
status of the Santa Rosa Island manzanita, but it is clear that 
browsing by mule deer is only one of a multitude of factors that affect 
the well-being of this plant. What is clear is that the vegetation 
trends monitored by the scientific panel are positive since monitoring 
began, in the face of the existing deer population. This most clearly 
contradicts rhetoric regarding the mule deer impact.
    Santa Rosa Island is comprised of nearly 55,000 acres, largely 
grassland. Both the current deer and elk herds are very small indeed 
and do not approach the sustainable carrying capacity of Santa Rosa 
Island. It should be noted that over the past 150 years, the island has 
sustained as many as 7,000 head of cattle, 1,500 head of elk, as many 
as 3,000 deer, well over 30,000 sheep and tens of thousands of feral 
pigs, yet the manzanita has survived. It is clear that the presence of 
deer and elk on Santa Rosa Island do not prevent native plants and 
animals from flourishing. We have demonstrated that a well-executed 
wildlife management operation would allow both the herds and the 
manzanita to thrive.
4. The presence of deer and elk on Santa Rosa Island attract Golden 
        eagles to the island from the mainland. The eagles, in turn, 
        prey on and have decimated the native fox population.
    The logic of this statement is untenable. V&V and previous ranching 
interests have raised livestock on Santa Rosa Island for over 150 
years. During all those years, the numbers of animals (biomass) that 
might have attracted predatory birds which could then have preyed on 
the foxes numbered more (on an animal unit basis) than ten times (a 
conservative estimate) that which exists on Santa Rosa today. Yet, 
Santa Rosa Island fox populations remained steady and healthy during 
the ranching tenure. Island Fox decline was first observed only after 
dramatic reductions were made to island wildlife and livestock numbers 
by Park Service & The Nature Conservancy on neighboring Santa Cruz 
Island, beginning in the late 1980's.
    These eradications were made on Santa Rosa Island by Park Service 
without, to our knowledge, NEPA consultation and included the wholesale 
eradication of the wild pig population, the removal of all cattle and 
horses (12 aged horses remain on SRI as of this date), and large 
reductions in deer and elk numbers. Further, Park Service has removed 
all cattle and sheep on neighboring Santa Cruz Island, and is projected 
to complete the eradication of the wild pig population this year. The 
effect of these wholesale herd eradications on Island Fox populations 
is unknown because they were never studied.
    While it is known that both Bald and Golden eagles will prey on 
fox, the reason why Golden eagles came to the islands and in what 
numbers is not at all certain. The Park would like to suggest that 
there has been a steady stream of Golden eagles drawn by hoof stock on 
the islands. It is hard to defend that theory since that source of 
nutrition has been steadily decreasing over the second half of the 20th 
century and is now miniscule compared to the amount it once was. So why 
would the Golden eagles inhabit the Channel Islands now?
    A more plausible theory regarding the arrival of the Golden eagle 
on the islands has been proposed in Appendix C of the Channel Islands 
Golden Eagle Translocation Project Summary prepared by the Santa Cruz 
Predatory Research Group (SCPBRG), University of California at Santa 
Cruz. The study has suggested that the entire population of Golden 
eagles on the northern Channel Islands could have been derived from a 
small number of ``transient or dispersing'' birds, or even a single 
nesting pair first sighted on Santa Cruz Island in 1987 or 1988. 
Researchers have created a model suggesting successful progressive 
nests since 1988 would produce similar population numbers now occurring 
on the four islands. If true, the Golden eagle population on the 
Channel Islands in the 1990's is much more likely to have been the 
result of a random distribution of a few Golden eagles to the northern 
Channel Islands.
    Research also suggests the possibility that two major eradication 
events undertaken by, sheep removal on Santa Cruz by the Nature 
Conservancy (1981-1989) and pig eradication on Santa Rosa by Park 
Service (1990-1993) may have sustained Golden eagle colonization of the 
northern Channel Islands. There may very well have been little or no 
influx of Golden eagles from the mainland throughout this period, but 
that the Golden eagle families that were already here were sustained by 
those herd eradications. It appears that translocation of Golden eagles 
off the Channel Islands and reintroduction of Bald eagles has 
apparently rid the islands of Golden eagles at this point in time. 
Given these points, it appears likely that deer and elk on Santa Rosa 
Island have played no role in the eagle population dynamics on the 
Channel Islands.
    If there is little or no influence by mainland Golden eagles, how 
does Park Service current strategy of the eradication of deer and elk 
on Santa Rosa aid in the restoration of the Island Fox? Also, do Park 
biologists know that a wholesale deer and elk eradication program might 
not start another crisis event, supporting an abnormally large 
population of predatory birds which might again decimate Island Fox 
populations? It seems clear that more study needs to be undertaken in 
this field before going forward with deer and elk eradication. It is 
interesting that members of the SCPBRG staff gathered Golden eagle DNA 
samples as part earlier studies in order to try to ascertain their 
origin. The Park Service and the Nature Conservancy have chosen not to 
provide funds to complete that portion of their study, saying their 
funds could be better used elsewhere and that any findings resulting 
from such a study would not alter their intent in so far as managing 
eagles, fox, deer or elk on the islands. We strongly disagree with this 
assessment and feel these studies are important to come to an honest 
biological assessment of eagle/fox population dynamics. It may be that 
the Park's eradication policies led directly to the present predicament 
of the Island fox.
5. Deer and elk cause harm to archeological sites on the Santa Rosa 
        Island by trampling and destroying artifacts.
    This is a new assertion with respect to the island and seems to 
follow a path used by land management agencies when trying to impart 
their will upon an area. This issue is a red-herring as our protective 
measures to support the islands artifacts can be verified and the claim 
on its face is illogical. Santa Rosa Island contains over 600 
archeological sites, one dating back over ten thousand years. Vail & 
Vickers has a very good reputation in the scientific community for 
honoring the rich prehistoric island history, and has provided support 
for the preservation of these sites over many decades.
    Vail & Vickers has been an active participant in an eighty-year 
relationship with the Santa Barbara Museum of Natural History and has 
supported many investigators in the anthropological field over those 
years. During our tenure no qualified researcher or institution was 
ever denied access to the island or denied help if needed with 
transportation or logistics on the Santa Rosa Island. There was never a 
complaint lodged about damage caused by livestock or wildlife by these 
researchers during our tenure here.
    Given the number of animals that have been on the island during 
its' ranching past compared to today, and given the relative pristine 
condition of the archeological sites that exist on the island now, we 
believe this argument to be nothing more than self-serving fabrication. 
We can provide letters of support from the Santa Barbara Museum of 
Natural History as well as from others in the scientific community. It 
should also be noted that the Park Service, while hiding behind this 
disingenuous argument, has not been a particularly good steward of the 
archeological sites that exist on Santa Rosa Island. As part of former 
Park Superintendent Setnika's three-part series of articles in the 
Santa Barbara News-Press, Mr. Setnika exposes this and other examples 
of the hypocrisy demonstrated by the Park Service while working towards 
their own anti-ranching agenda. I have attached the entire series and 
the editorials that accompanied them as part of my testimony today.
    As a factual matter, discussions with our acquaintance 
archeologists note that the value of the archeological site is vested 
beneath the surface, where the effects of exposure do not exist. The 
surface is exposed to wind and rain erosion, not to mention the 
sometimes irresistible human interaction, all of which are much greater 
threats to the site than the roughly one thousand animals currently 
spread over 55,000 acres. Discussions with a previous Channel Islands 
National Park Superintendent indicate that if there is a threat to 
archaeological sites on these islands, it is in the form of the vastly 
increased use of island roads by Park Service vehicles. We estimate 
vehicle use on Santa Rosa Island to be increased ten-fold compared to 
prior ranch use.
                 the deer and elk on santa rosa island
    The practical reality is that the term ``removal'' of these herds 
from Santa Rosa Island, as stipulated by the Settlement Agreement that 
Congressman Hunter's legislation overturned, means eradication. We feel 
strongly, as do others, that the slaughter of these herds is a 
senseless and avoidable tragedy. We use the term slaughter because it 
should be noted that this Settlement goes so far as to state that 
``unusual costs'' such as ``trained professionals and helicopters'' be 
deployed to ``remove'' the most challenging animals. It should be made 
clear that the idea of removal of live animals to meet the requirements 
of the Settlement is a new one and poses great costs and may be 
practically impossible.
    The deer and elk herds on SRI contain some of the very best 
examples of these two native North American species. These healthy, 
thriving herds have lived with sound game management on SRI for 
approximately 80 years, and are well-adapted to the habitat. Their 
genetics constitute an invaluable biological resource which should not 
be squandered. They have lived on SRI isolated from diseases which 
afflict mainland cervid herds, such as Chronic Wasting Disease. These 
animals have been protected from predators and habitat destruction, 
just as mule deer populations across the western United States are in 
declining health as a result of these pressures. The existence of these 
superb herds provides the opportunity to protect a genetics pool which 
could then be available to repopulate mainland herds in the future. It 
is our opinion that these herd provide a valuable natural resource that 
should not be needlessly squandered and that it would be short-sighted 
to think otherwise.
    Relocation has lately been proposed as an option to preserve these 
herds, but it is expensive and fraught with practical complications. 
Transporting mule deer is particularly problematic and results in high 
death losses as a result of a condition known as ``transport stress 
myopathy''. Furthermore even if transportation problems could be 
overcome, the question remains, where would we put the animals? Finding 
a new home for these animals poses a great challenge and, the movement 
of these animals back to the mainland negates the very great advantage 
that isolation has provided these deer and elk species. It would be of 
great biological advantage for North American wildlife management to 
maintain the protection and isolation of these closed herds.
    Economic factors should also be noted. The cost to transport these 
herds off the island is not an option V&V ever anticipated at the time 
of the sale of SRI to Park Service in 1986. ``Removal'' by transport is 
a concept only recently given lip service by Park Service for the very 
transparent reason that they would not like to be seen as responsible 
for the wholesale eradication of these herds. Our commercial operations 
on SRI have been steadily eroded by Park Service oversight and Park 
Service fueled legal challenges. We received no compensation for the 
unexpected, immediate termination of our cattle business in 1998 and we 
simply don't have the financial means for the ambitious undertaking 
relocation would pose. We have, in the past been able to capture and 
sell elk cows for mainland breeding operations however, the market for 
live Roosevelt elk has dried up and recent research has shown that 
there are no willing buyers.
    We feel the best solution is to maintain the herds at well-managed 
levels on Santa Rosa Island. We know from experience that these herds 
can be maintained on Santa Rosa Island with no significant impact on 
island habitat. There are many ways to manage herd size and health, of 
which commercial hunting is only one. Further, eradication of these 
animals may trigger unanticipated catastrophic events on other island 
plant and animal species.
                              conclusions
    Senator Feinstein's bill (S. 1209) as presently worded would 
nullify Congressman Hunter's bill passed into law (Public Law 109-364, 
Section 1077(c)) last year. At a minimum, this would allow the court-
ordered slaughter of deer and elk per the NPCA/NPS/V&V Settlement 
Agreement to go forward. However, it appears that the enactment of this 
legislation could bring about the termination of our wildlife 
management enterprise prior to the time agreed upon by all parties in 
that Settlement Agreement. It may even be that this legislation 
overturns the Settlement Agreement in its entirety. We strongly object 
to this outcome and ask the Committee to refrain from moving this bill 
forward. It is a highly flawed response to a flawed law.
    We urge the Subcommittee members to help us work toward a solution 
that benefits everyone involved as we have been trying to do for the 
past several years. Vail & Vickers has a long history of good land 
stewardship on Santa Rosa Island and has steadily worked for a solution 
for this current situation. We reiterate that there is no good 
biological reason to remove the current populations of deer and elk 
from Santa Rosa Island, and the science supports that conclusion.
    We are grateful to have been given the opportunity to have 
testified today. Vail & Vickers has been caught between competing 
members of Congress and special interests that seemingly have no 
interest in our opinion although we will ultimately be burdened with 
the future of this island legacy herd. We appreciate that while 
somewhat simple conceptually, the issues discussed today involve 
important public policy. We hope that you will join us in working 
towards a sensible outcome that includes honoring our historical 
agreements with the Park Service. We should also like to avoid being 
partner to the unnecessary slaughter of healthy and magnificent elk and 
deer herds.

    Senator Akaka. Thank you very much, Dr. Vail.
    My first question is to Tom Ikeda. Mr. Ikeda, I would like 
to have a better understanding of what the memorial on 
Bainbridge Island will entail? Is there already an existing 
memorial at the site or will a new one be needed to be designed 
and constructed?
    Mr. Ikeda. There has been work to put a memorial there. 
There is already a memorial being constructed right now on the 
site, so this would not necessarily be a new one. This is 
really more of a management issue so that by increasing the 
boundaries of the Minidoka to include the Bainbridge Island, 
then the National Park Service can actually help manage the 
site.
    Senator Akaka. Thank you.
    Mr. Santucci, from the map you have submitted it looks like 
most of the river section that is proposed for designation is 
in Virginia. Do you know what kind of support there is for this 
designation in the State of Virginia?
    Mr. Santucci. I know that the local landowners along this 
stretch of the river are very much in support of that and they 
have let their Senators and Congress folks know, and I have had 
some discussions with both Senator Warner and Senator Webb's 
staff, as well as Congressman Boucher's staff, and we are 
talking about support, and we are also talking with the county 
government to make sure that they are in favor of that. I have 
not heard yet. I just found out about this days ago.
    Senator Akaka. Dr. Vail, does the Vail & Vickers Company 
still support the terms of the settlement agreement?
    Dr. Vail. We are not sure at this time where we stand with 
the settlement agreement because of Duncan Hunter's language. 
As you know, the law is only one sentence. It is very unclear 
to us what it means to us.
    Senator Akaka. There has been a lot of talk about 
eradicating or slaughtering the deer and elk. These animals are 
your property. As I understand the settlement agreement you 
have with the Park Service, you are required to remove the 
animals from the island in 4 years. What requires that they be 
slaughtered? Is it not your choice how to remove any remaining 
animals when the permit expires?
    Dr. Vail. The practical reality is removal means 
eradication. There is no practical way to remove this number of 
animals from that island. They have been reduced a great amount 
to the levels they are now and they fit well on the island, but 
that still would be a matter of removing 1,100 animals to some 
place on the mainland that is unidentified, with resources we 
have no longer because we do not ranch, which underwrote the 
wildlife operation. This simply cannot be done.
    The elk we have transported when there was a market for 
them in the past. There now is no market. That has dried up. So 
there are no willing buyers for them. So there is nothing to 
support that.
    The deer suffer great mortality in transport, so that is 
not likely to be a viable alternative. And also we have very 
few, if any, willing buyers.
    So the fact is, while it says removal, it means 
eradication. Nobody ever anticipated that there was any other 
way to remove these animals from Santa Rosa.
    Senator Akaka. Then in your opinion, Dr. Vail, what would 
be the best solution for the future management of Santa Rosa 
Island?
    Dr. Vail. Well, we think we have shown over the last 85 
years, and in particular over the last 30, that the deer and 
elk can easily be managed on Santa Rosa Island. They are not a 
threat to the resources there. We have shown that repeatedly, 
in spite of the rhetoric to the contrary. So we do not 
understand why these legacy herds could not be left in place to 
be managed on Santa Rosa Island at approximately their current 
levels in perpetuity.
    Senator Akaka. Thank you very much.
    Senator Craig Thomas.
    Senator Thomas. Thank you.
    Mr. Dennis, the Snake River designation, will that 
designation affect the current use of the land along the Snake 
River?
    Mr. Dennis. No, not at all. It would allow everything that 
is going on right now.
    Senator Thomas. So there is support for this from the 
people?
    Mr. Dennis. We have a paper in town called the Jackson Hole 
Guide and News that about everything that ever comes up there 
is a negative on anything. In 2 weeks with this bill being 
introduced, there has not been one single negative letter. I 
think it is supported by everybody in the community. It is good 
for all walks of life that love the rivers.
    Senator Thomas. How do you see the current condition, the 
water quality, the fisheries, and the overall health of the 
river?
    Mr. Dennis. I would say it ranks as one of the highest 
quality waters left in the world today. To use an example is 
the native cutthroat trout, which has been the subject of a lot 
of talk about designations to protect them. It is the last 
great bastion of cutthroat trout. They are wild and free. There 
is not any stocking going on. They are genetically pure and 
there is hardly anywhere in the world you can say that. I mean, 
a genetically pure fish with no introduced species in the 
headwaters--it is a gem. It needs to be protected.
    Senator Thomas. So this is a pretty unique area of anywhere 
around.
    Mr. Dennis. Yes.
    Senator Thomas. You know, you say Yellowstone is on one 
side, Teton Park is on another, the Teton National Forest is 
basically in it, and so on.
    Mr. Dennis. Well, you know, it makes sense. You have the 
parks, our crown jewels, and the land. It just needs to be tied 
up. It is unbelievable that we only have 20 miles and that is 
over by Cody, of a wild and scenic river. It just makes sense.
    I will tell you, I had a friend that said this and I think 
this is something that is really important. He said, ``Where do 
we go as a race of people if we do not protect places like 
this?'' I mean, there is nowhere--I have been almost everywhere 
in the world there is rivers. This is one of the last great 
places left and it needs to be protected.
    Senator Thomas. Well, thank you so much for being here.
    Mr. Ikeda, the Secretary is responsible for transferring 
land and improvements to the reservoir, the city of Gooding, 
Idaho Department of Fish and Game. What is the amount of land 
that is being transferred?
    Mr. Ikeda. Senator, actually I do not have that in front of 
me, so I would have to get back to you with that one, because I 
am not sure of the exact amount.
    Senator Thomas. Is it a substantial amount?
    Mr. Ikeda. In terms of the--well, I understand--I know the 
part that relates to the actual Minidoka Internment Monument, 
where there is about 10.08 acres, one to do an issei memorial 
or first generation memorial, and another one for the historic 
staff buildings. Then there are these other ones for Gooding 
and I am not certain of those acreages.
    Senator Thomas. Mr. Santucci, about the New River: will the 
wild and scenic designation impose restrictions on the use of 
the private lands along the river?
    Mr. Santucci. No, it does not have any provisions in the 
law to limit any use of private land, no.
    Senator Thomas. How do you know that it will still be wild 
and scenic then?
    Mr. Santucci. Because there is a lot of efforts going on 
with regards to land protection. We currently hold three large 
easements on this section of the river and I think with this 
designation more landowners would be inclined to put their 
lands, their farms, these legacy farms, under permanent 
protection.
    Senator Thomas. Why is the oldest river in the Nation 
called the New River?
    Mr. Santucci. That is a great question. It has got a lot of 
stories as to why that is. Some of them date back to the fact 
that it was the first river that folks found as they traveled 
west across the Appalachians, and they came across the 
mountains and they found the river and it was a new river. I 
know that is not a real exciting story, but that is the one I 
hear the most.
    Senator Thomas. Sounds good to me.
    Finally, just very briefly, Dr. Vail, I do not quite 
understand this. Does the Park Service own the island now?
    Dr. Vail. Yes.
    Senator Thomas. It is a park?
    Dr. Vail. It is a park. They are on. But the agreement was, 
in order for it to be a park, that the family and our 
operations had 25 years----
    Senator Thomas. I see.
    Dr. Vail [continuing]. Through 2011. And the parks seeming 
to have forgotten these agreements, and so this access issue 
keeps coming up: why are people denied access? Well, that was 
the park's agreement.
    Senator Thomas. So 2011, these critters would leave anyway, 
is that it?
    Dr. Vail. Well, at 2011 hunting would stop. So if they are 
thinking access is limited by hunting, which by the way it is 
not, then this is a non-issue because access would not be 
denied after then anyway.
    Senator Thomas. I see. Okay, thank you.
    Senator Akaka. Thank you very much, Senator Thomas.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Ikeda, I know you are more familiar with the Bainbridge 
Island site because the expansion of Minidoka is something that 
Senator Craig and his team have been working on, but it is part 
of this. Can you explain why you think having--it was already, 
Minidoka, already a national historical site, and what we are 
doing is proposing here in this legislation in both the House 
and the Senate is to add a satellite to that.
    Can you explain why that is so important, to tie those two 
historic sites together?
    Mr. Ikeda. You are referring to adding the Bainbridge?
    Senator Cantwell. Yes. I mean, because they are obviously 
thousands--I mean, hundreds of miles apart.
    Mr. Ikeda. Well, I think it is a tremendous opportunity 
because you start with the very first community that was 
removed under Executive Order 9066, Bainbridge Island. They 
then went down to Manzanar, another National Park Service 
historic site currently. Then most of them then moved to 
Minidoka, and then from Minidoka back to Bainbridge.
    So here you have an opportunity to tell the complete story 
of a community being removed, going to Manzanar, Minidoka, and 
then back. So I think that is a significant story that by the 
addition of Bainbridge you complete that triangle, that loop.
    Senator Cantwell. Well, is it not also, too, that you are 
taking advantage of the fact that Bainbridge is in a large 
urban area and population and maybe get more recognition to the 
fact? In fact, our ferry system is probably one of the No. 1 
tourist attractions in the Northwest, with more people riding 
on that than Amtrak every year. So the fact is that you would 
bring recognition to this historic event and probably get more 
people going to Minidoka because of this historic designation 
satellite.
    Mr. Ikeda. Exactly. I think the educational possibilities 
in the Puget Sound area multiply greatly. I think what the 
community has lacked is a focal point where we can come 
together to in some ways tell the stories and heal. I think by 
having the Bainbridge Island site, which is, as you say, right 
across the sound from Seattle and other major urban areas, 
allows this to happen, not only for the Japanese American 
community, but the large population in terms of educating 
people in terms of what happened.
    I think it makes what happened to Japanese Americans much 
more real when people can actually visit these sites.
    Senator Cantwell. Thank you. And you do have some stories 
of--you have been able to interview some of the oldest 
survivors, is that correct?
    Mr. Ikeda. Yes, we have interviewed a couple dozen Japanese 
Americans from Bainbridge Island, and those are available on 
our web site.
    But another story--and people do not realize that we do 
this also--we also interviewed non-Japanese Americans. If you 
recall the historical photographs of the community being 
marched down to Eagledale Ferry Dock, there are soldiers 
interspersed amongst them. All the soldiers have rifles over 
their shoulders, but if you look carefully at those photographs 
you also notice that most of them had baggages. They were 
actually helping the Japanese Americans leave the island.
    When I showed this photograph to military people, they are 
surprised. They are shocked. They are saying the soldiers' job 
was to guard these individuals, not to help them down the ferry 
dock.
    So we had the opportunity to interview Walt Woodward, who 
was the publisher of the Bainbridge Island Review, and we asked 
him, because he was covering this story. We asked him about the 
soldiers. What was interesting was this was the one time Walt 
Woodward got really emotional, because it reminded him that 
what he saw were the tears in the soldiers' eyes, that the 
soldiers for about 3 days had been rounding up and then 
removing and escorting these individuals away from the island, 
and what the soldiers recognized was the injustice and how 
wrong this was, and they were so sad as they were leaving the 
island that Walt Woodward said many soldiers had tears in their 
eyes.
    So it is these stories that we find so compelling, not only 
the Japanese American stories, but the neighbors who were there 
to witness this.
    Senator Cantwell. Thank you.
    Mr. Chairman, I think that these kinds of opportunities to 
tie into other existing sites similarly in Washington State as 
we celebrated the corps of discovery with Lewis and Clark's 
expedition just recently, their anniversary, and integrating 
some sites from that historic journey with already existing 
sites in Oregon has helped us tell the complete story, a way to 
continue to expand on the historic educational opportunities by 
giving people who want to visit many of the sites an 
opportunity to have a road map to do that. So I think it has 
worked out very well and I think that we should continue to 
emphasize the advantages of playing off of existing historical 
sites and adding to them in this unique way.
    So I thank the chair again for this hearing.
    Senator Akaka. Thank you very much, Senator Cantwell.
    I want to thank all of you for your testimonies and for 
being here this afternoon and traveling this far to testify.
    If any committee members have additional questions, we will 
submit those to you in writing and would ask that you answer 
them as quickly as possible so that we can include them in the 
hearing record.
    Before we adjourn, the subcommittee has received statements 
from the National Parks Conservation Association on S. 1209 and 
the Nature Conservancy as well, and from the American Rivers on 
the three wild and scenic river bills. All of those statements 
will be included in the record.
    If there are no further questions or comments, again I want 
to say thank you. This has been a good hearing. It will be 
helpful to us in our consideration here of these bills. Thank 
you very much and the hearing is adjourned.
    [Whereupon, at 4:42 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

Responses of the National Park Service to Questions From Senator Thomas
              eightmile wild and scenic river act (s. 553)
    Question 1a. What changes will you make in managing the Eightmile 
River as a result of this bill?
    Answer. The National Park Service will become a partner in the 
implementation of the Eightmile River Watershed Management Plan. 
Specific roles envisioned for the National Park Service (and described 
in the Plan) include: overall administration of the Wild and Scenic 
River designation; coordination of the Eightmile River Wild and Scenic 
Coordinating Committee; technical and financial assistance in 
implementation of the Plan; and review of federal permits or projects 
under Section 7 of the Wild and Scenic Rivers Act.
    Question 1b. How much do you estimate it will cost to administer 
the Eightmile River as a wild and scenic river?
    Answer. The federal cost to administer the Eightmile River, based 
on other similar partnership rivers, is estimated to be $150,000 
annually.
    Question 1c. What restrictions will the designation as a wild and 
scenic river place on use of private property in the area?
    Answer. The designation does not confer any authority to the 
National Park Service to restrict or regulate adjacent land use. Local 
communities will continue to regulate private property, as prior to 
designation. Any changes to local zoning or subdivision regulations 
must be approved through standard local processes.
       niagara falls national heritage area designation (s. 800)
    Question 2a. Has the National Park Service conducted a study of the 
Niagara Falls Heritage Area? If so, what were the findings?
    Answer. In 2006, the National Park Service completed a national 
heritage area feasibility study of the Niagara Falls region. The study 
concluded that the region met all of the criteria for designation as a 
national heritage area including the existence of significant levels of 
public support and local commitments. These commitments include 
financial support including the one-to-one match to NPS funding, which 
is necessary for successful planning and implementation of a heritage 
area.
    Question 2b. As is the case for most National Heritage Areas, the 
bill authorizes the appropriation of $10 million over a period of 15 
years. What steps does the National Park Service take to require 
National Heritage Areas to work within the $10 million dollar funding 
authorization and be able to operate without federal funds after that 
time?
    Answer. The National Park Service has consistently encouraged 
National Heritage Areas to become less reliant on direct grant support 
and more prepared to be self-sufficient once the authorization of 
direct funding expires. For example, NPS encourage National Heritage 
Areas to look for alternative funding sources and develop long-term 
partnerships with public and private entities within each Area.
    During the 109th Congress, the Administration transmitted to 
Congress proposed National Heritage Area program legislation to 
establish criteria for and to create a National Heritage Areas System 
in the United States. Based on this proposal, legislation was 
introduced in the 109th Congress by Senator Thomas and passed the 
Senate. National Heritage Areas are required to match the NPS National 
Heritage Partnership funding on a one-to-one basis. Over the life of 
the program, the National Heritage Areas have leveraged $8 for every 41 
of NPS funding. As part of the Administration proposal, there is a 
requirement that a study be conducted for each heritage area three 
years prior to the termination of the authorization for federal funds. 
This study will assist areas in moving towards self-sufficiency by 
evaluating the current funding streams and management structure and 
planning for long-term funding once the federal money is no longer 
authorized. The Department is currently working on a similar 
legislative proposal and we hope to transmit it to Congress later this 
year.
    minidoka national monument boundary adjustment (s. 916/h.r. 161)
    Question 3a. Under Section 202 of S. 916, the Secretary is 
responsible for transferring land and improvements to the Reservoir, 
the city of Gooding, and the Idaho Department of Fish and Game. What is 
the total amount of land being transferred? Why is this transfer 
necessary?
    Answer. The total amount of land that would be transferred under 
this legislation to the three entities is 442 acres. Of that amount, 
approximately 397 acres would be transferred to the American Falls 
Reservoir District No. 2; 5 acres to the City of Gooding; and 40 acres 
to the Idaho Department of Fish and Game. In addition, approximately 10 
acres would be transferred to the National Park Service. The city, the 
Idaho department, and the National Park Service are already managing 
the lands that they would receive.
    By transferring the Milner-Gooding Canal and other Gooding Division 
facilities to the American Falls Reservoir District No. 2, enactment of 
this legislation would give the District more local control of 
facilities that were constructed for its use. It would also eliminate 
the need for duplicative and unnecessary administrative obligations 
that exist for the District because title to the facilities, buildings, 
and lands is held by the United States. For the Bureau of Reclamation, 
the title transfer would eliminate the periodic facility reviews and 
processing of paperwork that currently consumes significant staff time 
and improve public management of remaining properties by transferring 
them to other governmental agencies. In addition, this bill would 
improve public management by transferring specific parcels to other 
governmental agencies that are currently managing the lands in 
question, as indicated above.
    Question 3b. Do you foresee a need for any future boundary 
adjustments at the Minidoka site in addition to the adjustment 
authorized by S. 916 or H.R. 161?
    Answer. The recently completed General Management Plan (GMP) for 
Minidoka Internment National Monument calls for an eventual boundary 
adjustment to include a 128-acre parcel adjacent to the existing unit. 
In addition, the GMP calls for adding to the unit the relocation 
center's landfill, north of the boundary. That would entail adding 80 
acres of land under the administrative jurisdiction of the Bureau of 
Land Management.
      new river north carolina and virginia wild and scenic river 
                         designation (s. 1057)
    Question 4a. The witness from the Department of Agriculture is 
recommending that S. 1057 be amended to require a study of the New 
River prior to designation as a Wild and Scenic River. Do you concur 
with such an approach and what role would the National Park Service 
have in such a study?
    Answer. As a matter of policy, the Department believes it is 
appropriate to conduct a study to determine whether a river meets the 
criteria for National Wild and Scenic River status before Congress 
designates it as part of the National Wild and Scenic River System. The 
National Park Service would not have a role in a study that Congress 
authorized the Department of Agriculture to conduct unless the study 
area included lands administered by the National Park Service.
    Question 4b. How would the wild and scenic river designation change 
the way the New River is currently managed?
    Answer. Because S. 1057 would authorize the Secretary of 
Agriculture to administer the New River, we defer to the Department of 
Agriculture on this matter.
    Question 4c. What restrictions will the designation as a wild and 
scenic river place on use of private property in the area?
    Answer. Again, we defer to the Department of Agriculture on this 
issue.
            santa rosa island deer and elk removal (s. 1209)
    Question 5a. What, if any, impact are the deer and elk currently 
having on the environment of Santa Rosa Island?
    Answer. Deer and elk negatively impact vegetation, wildlife, and 
archeological resources on Santa Rosa Island:

  <bullet> There are 8 federally listed endangered/threatened plant 
        species (one of which was last seen in 1932), including two 
        which only occur on Santa Rosa Island. The presence of non-
        native deer and elk pose a threat to the survival of five of 
        these listed species.
  <bullet> Deer and elk pose a threat to the endangered island foxes. 
        Mule deer fawns have been the most important single food item 
        for nesting golden eagles, making up over one third of the food 
        adult golden eagles fed to their nestlings. In addition, deer 
        and elk carcasses following a hunt provide a source of food for 
        golden eagles. Without deer on the island, golden eagles would 
        not be able to establish territories and breed successfully 
        there. Golden eagles also prey on island foxes, which caused a 
        more than 95 percent decline in the fox population on the 
        island, from 1,500 foxes down to only 14 animals. NPS has spent 
        nearly $5 million to recover island foxes in Channel Islands 
        National Park.
  <bullet> According to Dr. Torrey Rick, Archeologist, Southern 
        Methodist University, the greatest single threat to the 
        archeological resources of Santa Rosa Island comes from 
        introduced animals, especially deer and elk. In 2003, he 
        completed a survey of over 50 Santa Rosa Island sites and 
        recorded negative effects of deer and elk on the majority of 
        these sites.

    Question 5b. What is the role of the National Park Service in the 
removal of deer and elk from Santa Rosa Island in accordance with the 
settlement agreement?
    Answer. The 1998 Settlement Agreement states:

           . . . provided that the remaining deer and elk in 2011 
        become extraordinarily difficult to remove despite the diligent 
        efforts of removal by V&V, NPS will equally share the ``unusual 
        costs'' of the removal of those deer and elk. ``Unusual costs'' 
        is defined as the cost of trained professionals and 
        helicopters.

    The NPS involvement in the removal of deer and elk under the 
Settlement Agreement is the potential provision of funds to Vail & 
Vickers (V&V) for costs of final removal of animals, if helicopters and 
trained professionals are required. The responsibility for removal of 
the deer and elk has always been the responsibility of V&V, as the 
animals are their private property.
    Although there is no specified role under the Settlement Agreement 
for NPS in the removal of the herds beyond the potential assistance 
noted above, NPS has offered to cost-share with V&V if they wish to 
begin a program of disease testing deer and elk, a requirement prior to 
possible relocation to the mainland. Additionally, NPS has provided V&V 
with contact information for the federal and state agencies that would 
need to permit any movement of deer or elk from Santa Rosa Island. NPS 
is willing to work with V&V to move the herds off the island, if V&V 
chooses that course.
    Question 5c. Quotes in the media from Superintendent Galipeau 
indicate that 90% of the Santa Rosa Island is closed to the public 
during the hunting season. Dr. Vail's testimony reports of daily 
communication and coordination with the Park Service rangers stationed 
on the island to ensure the safety of the general public and hunting 
visitors. With the low annual visitation to Santa Rosa Island, he 
paints a picture of thoughtful coordination to the benefit of both sets 
of visitors. Given that, it seems hard to imagine that 90% of the 
island could be considered closed. Do you stand by Superintendent 
Galipeau's statements and recently drafted map?
    Answer. Since 1997, the park has identified the same restrictions 
on the annual hunt maps that are provided to visitors during the hunt 
season, which lasts four to five months each year. The restricted areas 
shown on the map comprise about 90 percent of the island. In response 
to visitor confusion and to provide clarity, the park modified the 
design of the hunt map in 2006. The content of the map was not changed 
except to add the recently established day-use access for Cherry 
Canyon.
    However, the NPS and V&V coordinate and communicate daily during 
the hunt season. The coordination may result in expanding the area 
where visitors can go on a certain day, but they will not know with 
certainty until they are on the island.
    Question 5d. My understanding is that the Park's General Management 
Plan was last updated in 1985--before the Park Service acquired Santa 
Rosa Island. Isn't the outdated plan a hindrance to the public's 
access?
    Answer. It is true that the GMP was last updated in 1985, but we do 
not see this as a hindrance to the public's access. However, following 
the acquisition of Santa Rosa Island in 1986, NPS prepared a Statement 
for Management (SFM) for the entire park in 1991 and a Development 
Concept Plan/EIS (DCP) specifically for Santa Rosa Island in 1995. The 
SFM states that ``Conditions of the special use permit negotiated with 
the island ranchers . . . stipulate that visitors to Santa Rosa be 
guided by ranger-interpreters during their visit.'' The DCP states 
``Day visitors would be accompanied on their visit by an employee. 
Overnight visitors would receive an extensive briefing on where they 
can venture, and what areas are closed to protect resources and to 
prevent interference with ranching and hunting.'' These plans are a 
reflection--not the cause--of the hindrance to public access due the 
commercial hunting activity. The GMP is currently being revised and its 
scope is to plan a vision for Santa Rosa Island after 2011, when the 
V&V reservation of use and occupancy expires.
    Question 5e. For 150 years of ranching on Santa Rosa Island, the 
island dwarf fox thrived. Twelve years into the Park Service's 
management of Santa Rosa Island, there were no wild fox (other than 
those kept captive for breeding). The National Park Service claims that 
the demise of the fox is tied to the non-native ungulates and their 
avian predators that have come from the mainland. Dr. Vail's testimony 
includes a reference to a golden eagle study from the University of 
California Santa Cruz's Predatory Bird Research Group. This study is 
reported to have golden eagle DNA samples dating back to the early 
1990s and has a theory that the golden eagles arrival to the Channel 
Islands is more likely tied to eradication programs on pigs, rats and 
sheep. If this is true shouldn't the National Park Service fund such a 
study to increase the understanding of what has brought the predators 
from the mainland before beginning another eradication program on Santa 
Rosa Island's elk and deer? Regardless, it seems to me that millions of 
dollars spent on fox reintroduction should be supported with studies on 
predators like the golden eagle. Why hasn't the National Park Service 
funded such a study seemingly critical to having a better understanding 
on the fox reintroduction?
    Answer. Golden eagles became established and island foxes declined 
during the period of ranching on Santa Rosa Island, which continued 
following acquisition of the island by NPS in 1986. The NPS eliminated 
the population of feral pig from Santa Rosa by March 1992. No nesting 
golden eagles are known to have established prior to, during, or as a 
result of the pig eradication. If pigs had been present when golden 
eagles were nesting, pig remains would have been found in their nests. 
Deer, elk, and foxes are the only mammals found in the golden eagle 
nests on Santa Rosa. Decline was first observed in the Santa Rosa 
Island fox populations in 1998.
    Following is a quote from the author of the study referenced in the 
question, who identifies the hunt and the presence of deer fawns as the 
detrimental factor for fox conservation:

          It seems clear from the prey remains analysis that the 
        presence of fawns of non-native ungulates is directly 
        responsible for the successful establishment of golden eagles 
        as breeders on Santa Rosa and that the annual hunt and cull are 
        also probably partially responsible in the same way that the 
        sheep eradication may have been for Cruz, by providing a good 
        source of food in the fall and winter prior to the breeding 
        season. It seems most likely that both the hunt and cull, and 
        the presence of fawns allowed some golden eagles to maintain a 
        year-round presence on Santa Rosa Island to the detriment of 
        the island fox there. It is likely that the continued presence 
        of those ungulates in addition to a recovering fox population , 
        may make Santa Rosa Island a more suitable place for breeding 
        golden eagles than Santa Cruz now that the pigs have been 
        removed from that island. It is also certain that the continued 
        presence of golden eagles on Santa Rosa would be extremely 
        detrimental to the recovery of the island fox there and 
        possibly on neighboring San Miguel Island as well.
          My more recent understanding of the timing and duration of 
        the pig eradication on Santa Rosa leads me to believe that it 
        was not a major factor in goldens becoming established on the 
        islands and the rat eradication is irrelevant since it didn't 
        occur until after the eagle population was at its zenith.

    We do not believe that a study is necessary to determine how golden 
eagles arrived on Santa Rosa Island in order to determine effective 
means of preventing their establishment. We know that nesting golden 
eagles prey on mule deer fawns, and therefore, the presence of deer 
results in a constant supply of food to support resident golden eagles. 
We also know that they prey on island foxes. Therefore, we are 
confident that the removal of deer from the island and thus, the 
removal of the primary food source, will help prevent golden eagles 
from becoming established and preying on island foxes.
    It should be noted that the NPS is not conducting an eradication 
program on Santa Rosa Island's elk and deer. The herds are V&V's 
private property and are required to be removed from the island under 
the terms of the 1986 deed for purchase of the island and the 1998 
Settlement Agreement.
    Question 5f. One of the issues around the elk and deer on Santa 
Rosa Island is the fact they were introduced about 80 years ago and as 
such are non-native. Because of this, the National Park Service 
supports their eradication. Does the National Park Service have plans 
to eradicate the non-native goats inhabiting Olympic National Park or 
non-native horses and mustangs elsewhere? In addition to the elk and 
deer, Vail and Vickers introduced quail in 1930 (approximately at the 
same time as the elk and deer). Does the National Park Service have a 
plan to eradicate the quail? If not, why is the Park Service focused 
upon the elk and deer of Santa Rosa Island? If it is a resource issue, 
can't these species be managed in such a way to protect the resource 
and avoid complete removal?
    Answer. The decision as to whether an introduced species is a 
priority for removal is based principally on the severity of negative 
impacts that species has on the ecosystem and/or the competition it 
represents for native species. Deer and elk cause significant negative 
impacts. Quail, unlike deer and elk, are not known to have habitat-
altering impacts. However, if they are found to have significant 
impacts, they, too, would be considered for removal.
    Wild horses and burros have been removed in national parks, 
including Grand Canyon and Death Valley National Parks, where the 
intended benefits were realized, including bringing a stop to negative 
impacts and allowing recovery in ecosystems that are not at all 
resilient. Regarding mountain goats in Olympic National Park, the park 
has begun an environmental impact analysis to explore management 
options, but the process has not been completed. At present, the park 
is working on higher priority issues including the Elwha River 
restoration and their General Management Plan update.
    The decision about removing the deer and elk from Santa Rosa Island 
was made under different circumstances than the typical case of removal 
of non-native species from NPS properties. In most cases, because the 
non-native species are established on NPS property, they are the 
responsibility of NPS. Decisions to remove them are made through our 
planning processes and are subject to funds being made available for 
their removal. The deer and elk on Santa Rosa Island are private 
property. The decision to remove them was made as part of the agreement 
to purchase the island in 1986 and was later confirmed in the 
Settlement Agreement. Considerations of other NPS priorities and 
available funding were not factors.
        snake river wild and scenic river designation (s. 1281)
    Question 6a. What is the role of the National Park Service in 
managing the Snake River as a Wild and Scenic River?
    Answer. The National Park Service currently manages the portions of 
the Snake River that flow through Yellowstone and Grand Teton national 
parks and the John D. Rockefeller, Jr. Memorial Parkway for its scenic, 
recreational, and natural resource values. Designation of the river as 
a component of the National Wild and Scenic River System would not 
significantly alter the way that the affected segments would be managed 
by the NPS.
    Question 6b. Will the National Park Service incur any cost if S. 
1281 became law?
    Answer. We do not believe that there would be significant costs 
associated with designating the river segments. Some costs associated 
with signs, brochures, and other publications could occur.
          designate the jim weaver trail in oregon (h.r. 247)
    Question 7a. What is the role of the National Park Service in 
managing the current trail and will that change as a result of H.R. 
247?
    Answer. The National Park Service has no role in the management of 
the trail in the Willamette National Forest that is the subject of H.R. 
247. It is currently under the jurisdiction of the National Forest 
Service and would remain so under H.R. 247.
    Question 7b. Will the National Park Service incur any expense if 
H.R. 247 became law?
    Answer. No.
       newtonia, missouri civil war battlefield study (h.r. 376)
    Question 8. Regarding H.R. 376, are you aware at this time of any 
private land in the study area and could this lead to a need for land 
acquisition down the road?
    Answer. There is private land within the proposed study area. The 
Newtonia Battlefields Protection Association owns the majority of the 
land where the 1862 battle took place. However, there are approximately 
200 acres of private land on the 1864 battle site that could 
potentially be considered appropriate for acquisition.
                                 ______
                                 
       Responses of Joel Holtrop to Questions From Senator Thomas
      new river north carolina and virginia wild and scenic river 
                         designation (s. 1057)
    Question 1a. You mentioned that the area should be studied for 
suitability as a Wild and Scenic River prior to designation. Who should 
conduct the study, Department of Agriculture or Department of the 
Interior, how long will it take to complete the study, and how much 
will it cost?
    Answer. Since there are no national forest system lands involved, 
the Department of the Interior should conduct the study, as outlined in 
section 4(a) of the Wild and Scenic Rivers Act which directs the 
Secretary of the Interior ``or, where national forest lands are 
involved, the Secretary of Agriculture . . . '' to study rivers 
designated in Section 5(a) of the Act.
    Additionally, the National Park Service has responsibility for 
federal review of water resource projects on the state-administered, 
federally designated segment of the New River immediately upstream from 
the segment proposed in S. 1057.
    Congress specifies the study period, which is generally three 
years. We estimate a total cost of about $350,000 over a three-year 
study period, given potentially limited resource information and the 
need to work with local governments, landowners and other river users 
in evaluating future management of the river.
    Question 1b. How many wild and scenic rivers is the Secretary of 
Agriculture responsible for administering and how is the New River 
different from those?
    Answer. The Secretary of Agriculture, through the Forest Service, 
administers 101 of the 165 wild and scenic rivers in the National Wild 
and Scenic River System. The Forest Service is also responsible for 
protecting river values on many miles of the Klamath, Trinity and Eel 
Wild and Scenic Rivers flowing on national forest system lands. These 
three rivers were added to the National System in 1981 under Section 
2(a)(ii) of the Act as state-administered, federally designated wild 
and scenic rivers.
    The proposed New River segment is seven miles from the nearest 
National Forest and the river corridor is predominately private lands. 
Except for only a few of the above 104 rivers, all are located entirely 
or partially within the boundary of a National Forest and the river 
corridor is predominately on national forest system lands.
        snake river wild and scenic river designation (s. 1281)
    Question 1a. Will the Wild and Scenic River designation cause any 
changes in land use along the Snake River?
    Answer. There will be little change in land use on National Forest 
System lands as a result of S. 1281. Addition of a river into the 
National Wild and Scenic River System affords it permanent protection 
from the harmful effects of water resources projects, withdraws wild 
river corridors from federal mining and mineral leasing laws, prohibits 
the sale or other disposition of federal lands in the corridor, and 
requires other federal agencies to take river protection into 
consideration in any projects they propose within or adjacent to the 
river corridor.
    Generally, the upper segments of rivers on the Bridger-Teton 
National Forest are within wilderness. The lower segments and other 
non-wilderness rivers are managed for a variety of dispersed and 
developed recreation uses, and for big game and grizzly bear habitat.
    Question 1b. Will the Wild and Scenic River designation result in 
any additional cost for managing the Snake River or lands along the 
river?
    Answer. Yes. The Wild and Scenic Rivers Act requires development of 
a comprehensive management plan to protect river values, at a one-time 
cost of $500,000 to $1 million. There would be an additional cost of 
about $100,000 per year to manage these rivers so as to protect and 
enhance their values, including protecting their free-flowing condition 
under Section 7(a).
          designate the jim weaver trail in oregon (h.r. 247)
    Question 1a. Will H. R. 247, the naming of the Jim Weaver Trail, 
lead to any changes in the way the trail and surrounding lands are 
managed?
    Answer. Designation of the Walton Lake Trail as the Jim Weaver Loop 
Trail will not result in any change in the management of the trail or 
in the surrounding lands. The shore of Waldo Lake is managed as semi-
primitive, non-motorized and designation as a National Recreation Trail 
will have no effect.
    Question 1b. How much do you estimate it will cost to implement 
H.R. 247?
    Answer. We estimate a total cost of about $2,000 to design, 
fabricate and install an interpretive sign describing the career of 
former Congressman Weaver as well as identification and directional 
signs noting the new designation. We would add the new trail name on 
forest maps during the next map revision, which would result in no 
additional costs.
                                 ______
                                 
       Responses of Jack Dennis to Questions From Senator Thomas
        snake river wild and scenic river designation (s. 1281)
    Question 1. How will the state of Wyoming benefit from Wild and 
Scenic River designation for the Snake River?
    Answer. Wild and Scenic designation protects what we value most 
about our great State of Wyoming--her natural resources. By protecting 
water quality and the free-flowing nature of the rivers, this 
designation keeps our rivers clean and natural. In addition, wild and 
scenic designation preserves the multiple-uses taking place on and 
around our rivers. Multiple use is important to our way of life in 
Wyoming. Wild and Scenic designation is also good for businesses and 
our regional and State economies. Our rivers are important economic 
engines in our tourism-based economy. States around the country are 
effectively using wild and scenic rivers as marketing tools to attract 
visitors to their States. Currently, Wyoming only has 20-miles of wild 
and scenic water. Wild and Scenic designation for the rivers and 
streams in the Snake Headwaters will allow our State and our businesses 
to compete more effectively for destination visitors.
    Question 2. Will the Wild and Scenic River designation affect any 
current land use along the Snake River?
    Answer. No. The Federal government has no authority to zone or 
regulate private land use under the Wild and Scenic Rivers Act. As 
stated by the National Park Service and U.S. Forest Service, there will 
be no change in the way these rivers are being managed after the 
designation is in place.
    Question 3. How would you describe the condition of these rivers as 
they are today--the water quality, the fisheries, and the overall 
health of these rivers?
    Answer. Our rivers are in great shape. Studies have shown that the 
rivers and streams of the Snake Headwaters have some of the purest 
water quality and healthiest fisheries of any watershed in the lower 48 
States. Wild and Scenic designation will maintain that high level of 
quality and ensure that we can still do all the things we like to do on 
and around our rivers.
    Question 4a. I am committed to creating opportunities for our 
tourism economy to continue growing and flourishing. You have worked in 
the tourism industry for many years in Wyoming
    In your view, what are visitors today looking for? What kind of 
experience do they want?
    Answer. More and more, visitors to Wyoming are looking to visit, 
and some for the first time, some of the wildest, most natural places 
on earth. We are fortunate to have many such places in Wyoming, from 
Yellowstone and Grand Teton National Parks, to our wonderful National 
Forests, and our sparkling rivers. Folks want to see wildlife, 
mountains, and crystal-clear streams. Some are looking for adventure in 
the backcountry, some for serenity by a mountain lake, some for nights 
camping under the stars. Wyoming has all of these things.
    Question 4b. What do you believe brings folks to Wyoming and more 
importantly, what inspires people to return?
    Answer. Wyoming has been called the ``last of the Old West,'' and 
in many ways that's true. People visit Wyoming for many reasons, but 
studies have shown that by far, it is Wyoming's wildlife, wild places, 
and natural beauty that people come for the most. And it's those things 
that keep them coming back.
                                 ______
                                 
        Responses of Tom Ikeda to Questions From Senator Thomas
    minidoka national monument boundary adjustment (s. 916/h.r. 161)
    Question 1. Under Section 202 of S. 916, the Secretary is 
responsible for transferring land and improvements to the Reservoir, 
the city of Gooding, and the Idaho Department of Fish and Game. What is 
the total amount of land being transferred? Why is this transfer 
necessary?
    Answer.
          (a) Section 202 authorizes the Bureau of Reclamation to 
        transfer a total of 449 acres to the American Falls Reservoir 
        District No. 2 and federal, state and local agencies. The 
        authorized land transfers include 394 acres to the American 
        Falls Reservoir District No. 2, 40 acres to the Idaho 
        Department of Fish and Game, 10 acres to the National Park 
        Service for inclusion in the Monument, and 5 acres to the City 
        of Gooding. In addition, Section 202 authorizes the Reservoir 
        District to purchase an additional 380 acres of land at fair 
        market value.
          (b) The transfer to the Reservoir District would promote the 
        Bureau's policy of transferring title of irrigation projects to 
        districts that have fulfilled their commitments to the federal 
        government, thereby reducing the Bureau's administrative and 
        management costs. By transferring the land to the three 
        agencies for public purposes, the legislation would rationalize 
        management of these lands, reduce the Bureau's administrative 
        costs and further the agencies' missions.

                  (1) American Falls Reservoir District Transfer.--In 
                the 1990s, through its ``Framework for the Transfer of 
                Title,'' the Bureau adopted a policy to promote title 
                transfers of irrigation facilities in a comprehensive 
                manner, in cases where the irrigation district has 
                satisfied all repayment requirements to the federal 
                government. The goal of this policy was to ensure the 
                efficient management of irrigation facilities, through 
                Congressionally-authorized title transfers. Because the 
                American Falls Reservoir District No. 2 has fulfilled 
                its repayment obligation under its contract, the Bureau 
                supports the proposed title transfer as an efficiency 
                measure.
                  (2) Idaho Department of Fish and Game (IDFG)--Dog 
                Creek Reservoir.--In 1957, the Bureau issued a 
                perpetual easement to IDFG to construct, operate and 
                maintain a dam and reservoir, spillway, access roads 
                and parking area on five of the 40 acres at the Dog 
                Creek Reservoir. In 1987, the Bureau entered into a 25 
                year contract with IDFG to manage and administer fish 
                and wildlife habitat on the 40 acre parcel. While these 
                federal lands were originally withdrawn for the 
                Minidoka Project, the Bureau has no Project requirement 
                for these lands. The transfer of these lands to a state 
                agency to further public purposes would reduce the 
                Bureau's administrative expenses and promote management 
                of the reservoir, ensure continued public access to the 
                reservoir and the conservation of fish and wildlife 
                habitat.
                  (3) National Park Service--Minidoka Internment 
                National Monument.--The Bureau currently manages 
                approximately ten acres of land in two parcels at the 
                Monument. One of the parcels is an approximately two 
                acre inholding within the Monument that features 
                historic structures along with two ditchrider houses 
                and a work shop. Through its general management 
                planning (GMP) process and approved GMP, the NPS 
                identified this tract as an important resource to tell 
                the story of the internment to Monument visitors and to 
                provide administrative facilities to support NPS 
                management activities at the site. (The NPS currently 
                lacks facilities on its land.) The other parcel 
                consists of approximately eight acres that would be the 
                site for a proposed Issei memorial and would provide 
                the NPS with overflow parking facilities to accommodate 
                visitors to the Monument. The Bureau has no requirement 
                for these lands to support irrigation project 
                activities in the area.
                  (4) City of Gooding--Airport Beacon Land.--In 1982, 
                the City of Gooding received a thirty-year right of way 
                from the BLM on a five acre tract of land originally 
                withdrawn for the Minidoka Project to construct an 
                airport beacon as a navigation aid. The Bureau has no 
                requirement for use of the parcel and the proposed 
                transfer to the City will provide for the continued use 
                of the parcel for the airport beacon.

    Question 2. Do you foresee a need for any future boundary 
adjustments at the Minidoka site in addition to the adjustment 
authorized by S. 916 or H.R. 161?
    Answer. Yes. As recommended in the final general management plan 
for the Monument, the NPS seeks a boundary adjustment to include the 
128 acre ``Farm-in-a-Day'' tract within the Monument, along with a 
transfer of an 80 acre dump site from the BLM to the NPS. Neither S. 
916 or H.R. 161 include these proposed boundary expansions. 
Accordingly, Densho supports an amendment to include these properties 
within the Monument's authorized boundary. Densho understands that the 
NPS has provided draft legislation to Congress that includes an 
approximately eight acre disclaimer of interest on the approach into 
the Monument.
                                 ______
                                 
     Responses of George Santucci to Questions From Senator Thomas
      new river north carolina and virginia wild and scenic river 
                         designation (s. 1057)
    Question 1. S. 1057 would designate portions of the New River as 
Wild and Scenic. How much private land is there adjacent to the 
segments of the New River being proposed for Wild and Scenic River 
designation?
    Answer. Approximately 7,550 acres of private land are adjacent to 
the segments of the New River being proposed for Wild and Scenic 
designation.
    Question 2. Will the wild and scenic river designation impose any 
restrictions on the use of private land along the New River?
    Answer. To my knowledge this designation will not impose any 
restrictions on the use of private land. The following is quoted from 
the Wild and Scenic River's Website: ``But designation as a wild and 
scenic river does not `lock it up.' The idea behind the National System 
is not to halt use of a river; instead, the goal is to preserve the 
character of a river. Uses compatible with the management goals of a 
particular river are allowed; change is expected to happen. However, 
development must ensure the river's free flow and protect its 
``outstandingly remarkable resources.'' The intent of Congress was to 
create a national system of protected rivers that co-existed with use 
and appropriate development. The term ``living landscape'' has been 
frequently applied to wild and scenic rivers. Of course, each river 
designation is different, and each management plan is unique. But the 
bottom line is that the National Wild and Scenic Rivers System is not 
something to be feared by landowners and in fact is frequently sought 
after to preserve quality of life and property values.''
    Question 3. Have you received any opposition to designating the New 
River as a wild and scenic river?
    Answer. The only opposition I have received is concern regarding 
this designation's affect on a proposed joint Water Authority between 
Sparta, NC and Independence, VA. To my knowledge this designation will 
not have any impact on this venture. We certainly don't want to limit a 
community's drinking water. In fact, the methods proposed by this joint 
water authority sound very environmentally friendly.
    Question 4. How will the states of Virginia and North Carolina 
benefit from Wild and Scenic River designation for this portion of the 
New River?
    Answer. The New River is the major tourist attraction in this area. 
Ashe County, NC receives almost $40 million in tourism revenue and 
Carroll County, VA receives over $50 million. Both of these counties 
credit the New River for much of these dollars. These counties are 
immediately up and down stream of the proposed designation. Grayson 
County, VA and Alleghany County, NC are not benefiting form these 
dollars. This designation would raise awareness of the New River as a 
tourist destination in these counties. This designation would also 
promote future protection efforts for this section of the River, which 
will soon be a water supply source for two towns.
                                 ______
                                 
     Responses of Timothy B. Vail to Questions From Senator Thomas
            santa rosa island deer and elk removal (s. 1209)
    Question 1. How many deer and elk are removed from Santa Rosa 
Island each year by hunting and how much does the hunting operation 
collect in gross receipts each year?
    Answer. Thank you for the opportunity to address a common 
misconception about our desire to extend the hunting program. As you 
know, from my testimony, we are not asking to extend the commercial 
hunting beyond 2011. In addition, most reasonable people do not 
interpret Section 1077(c) of Public Law 109-364 (120 Stat. 2406) to 
provide such extension.
    Specifically to your question, deer and elk are removed each year 
to keep the herd numbers in compliance with the Settlement Agreement of 
1997. When the agreement was signed, it allowed 425 deer and 740 elk. A 
dispute over how we should proceed in light of P.L. 109-364 exists and 
we hope to work with the Committee to clarify and make certain an 
ecologically appropriate number of elk and deer remain on the island as 
we proceed. Over the past four years, we have removed an average of 120 
deer and 110 elk per year in Order to hold our herd numbers at the 
prescribed levels.
    While some without knowledge have characterized our commercial 
hunting operation as ``lucrative,'' it is important to remember that 
the substantial costs associated with our deer and elk operation on a 
remote island make this operation far from lucrative. I would like to 
clarify for the Subcommittee that Vail & Vickers partners with Multiple 
Use Managers in this operation as has been our arrangement since our 
commercial deer and elk program began in 1979.
    Vail & Vickers portion of the gross receipts has often been less 
than $500,000, and while that sum may seem ``lucrative'' it is 
important to remember it represents gross revenues; there are 
substantial costs associated with our hunting program making the net 
income far from lucrative. This operation is much more about good 
wildlife management than profit. We provide a premier wildlife 
experience to both older and younger generations. We also provide a 
charitable meat donation program that ships meat to homeless shelters 
in the southern California area as part of our management program.
    Question 2. If you attempted to relocate the elk to another area, 
how sensitive are they to handling and what mortality rate would you 
expect?
    Answer. We have had experience relocating cow elk in 1995 and 1996, 
when there was a market for cow elk of breeding age. Over a two-year 
period, we removed approximately 450 cow elk with a 15-20% death loss. 
The animals were captured only along the northern plains on the island 
where the helicopter and crews could work safely. This technique would 
not work in the more mountainous central and southern regions of the 
island. The majority of the mortality and injury occurred during the 
capture and transport of the animals back to the ranch headquarters. 
The operation was quite comprehensive however, in that it required 
helicopter capture with net guns, pilots and jumper crews; 
domestication and quarantine of the elk inside 12-foot high solid wall 
enclosures with specially designed darkened chutes and squeeze-chutes 
(which no longer exist, as the cattle operation was shut down) for 3-4 
weeks duration on Santa Rosa Island; extensive treatment, disease 
testing and vaccination to meet other state's import requirements; and 
transportation by modified cattle boat (which no longer exists) to 
offload at a mainland facility (that also no longer exists) and into 
modified cattle trucks for transport to their destination. If such an 
operation could be mounted again in the absence of a market to do so, I 
would expect similar death losses in elk under ideal conditions. We 
have no experience in helicopter capture and transport of deer; 
however, I believe death losses in deer are well documented to be much 
greater than with elk.
    Question 3. What methods, other than shooting the animals, are 
available for completely removing deer and elk from Santa Rosa Island?
    Answer. I see no other practical method to eliminate all the deer 
and elk from Santa Rosa Island. Live capture and transport could only 
reasonably account for a small percentage of animals, and would be 
exorbitantly costly. Trapping these large herbivores is not feasible 
except possibly by leghold, which would be impractically slow and 
inhumane. Nearly all other hoof-stock eradications undertaken by the 
National Park Service and The Nature Conservancy on the Channel Islands 
have been accomplished solely through shooting, which is certainly 
imperfect even with professional hunters. It is not an outcome we would 
like to see for our wildlife herds that have adapted to this range and 
chaparral habitat for well over 80 years. It is not our desire, was not 
our family's desire, nor is it an appropriate action in light of 
today's sensibilities to simply eradicate two healthy herds of North 
American big game species in order to satisfy an arbitrary National 
Park Service mandate that has already been shown to be obsolete in 
other National Parks. Our family never wanted them to be removed from 
Santa Rosa, but rather to be managed for the magnificent natural 
resource that they are.
    Question 4. How much do you estimate it will cost to completely 
remove the deer and elk from Santa Rosa Island?
    Answer. Senator, I apologize but I cannot begin to develop a cost 
estimate within the time frame allowed me for this testimony concerning 
S. 1209. In fact, I'm not sure that even with detailed analysis could 
we come up with anything more than a wild guess because I can't think 
where such a difficult and wasteful plan has been tried before.
    I would think that the costs might best be approximated by 
consulting with the National Park Service as to the costs they incurred 
in their previous eradication efforts of sheep and pigs on Santa Cruz 
Island, and of pigs on Santa Rosa Island. (The pig eradication on Santa 
Cruz cost millions of dollars.) Should eradication be mandated, the 
costs would become extraordinary and beyond our means almost 
immediately.
    The most cost-effective eradication strategy would likely be to 
shoot the animals from helicopter and leave the carcasses lay. We would 
be talking about the slaughter of a large number of animals per year 
when reproduction is taken into account. It would be grisly and might 
well have far-reaching unanticipated biological consequences. 
Conversely, the management of these herds at ecologically sound numbers 
has been proven to work over many years and, much like the popular 
white mountain goats in Olympic National Park, provides Channel Island 
National Park with a magnificent wildlife resource.
    Thank you for both the opportunity to testify on behalf of Vail & 
Vickers and to add to this hearing's record.
                                 ______
                                 
                                       La Quinta, CA, May 23, 2007.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Sir, I gave testimony on Senate Bill 1209 on May 15, 2007. It 
has come to my attention I failed to include Congressman Duncan 
Hunter's discussion in the Congressional Record concerning his intent 
with regards to Santa Rosa Island in Section 1077(c), Public Law 109-
364 in my testimony. I hope you will include that text as part of my 
testimony at this time.* Thank you very much for your consideration.
---------------------------------------------------------------------------
    * The document has been retained in subcommittee files.
---------------------------------------------------------------------------
            Sincerely,
                                   Timothy B. Vail, D.V.M.,
                                                 Vail & Vickers Co.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                        Department of the Interior,
                                      National Park Service
                                    Washington, DC, April 11, 2007.
Hon. Lois Capps,
U.S. House of Representatives, Washington, DC.
    Dear Congresswoman Capps: During the FY 2008 National Park Service 
budget oversight hearing before the Subcommittee on National Parks, 
Forests, and Public Lands on March 1, 2007, you asked the Park Service 
to provide the Department of the Interior's interpretation of section 
1077(c) of Public Law No. 109-364. Enclosed please find a copy of the 
information provided to me by the Department.
    Thank you for this opportunity to clarify the Department's 
position. If I can be of further assistance, please let me know. I look 
forward to working with you on issues which come before the Natural 
Resources Committee.
            Sincerely,
                                             Mary A. Bomar,
                                                          Director.
[Enclosures.]
Issue: Channel Islands National Park Interpretation of Section 1077(c) 
                            of P.L. 109-364
Date: March 30, 2007

    As finally adopted the relevant portion of the act reads as 
follows:

          RECREATIONAL ACTIVITIES ON SANTA ROSA ISLANDS.--The Secretary 
        of the Interior shall immediately cease the plan, approved in 
        the settlement agreement for case number 96-7412 WJR and case 
        number 97-4098 WJR, to exterminate the deer and elk on Santa 
        Rosa Island, Channel Islands, California, by helicopter and 
        shall not exterminate or nearly exterminate the deer and elk.

    The conference report that accompanies the legislation states that 
the provision would:

           . . . require the Secretary of the Interior to cease the 
        plan to exterminate deer and elk on Santa Rosa Island 
        California by helicopter, and prohibit the Secretary of the 
        Interior from exterminating or nearly exterminating the deer 
        and elk on the island H.R. Conf. Rep. No. 109-702, at 820 
        (2006).

    At the time this provision was approved by the House of 
Representatives last May, the Department expressed its views in the 
enclosed letter sent to the chairmen and ranking members of the House 
and Senate Armed Services Committees.
    In light of recent inquiries, the Department has reexamined the 
language as it appears in the final Public Law. The Department 
understands the expressed intent of Congress in adopting the language 
in the Act and the accompanying report language is to preclude the 
Department from participating in any plan approved in the settlement 
agreement to the extent that any such plan is designed to exterminate 
\1\ the island's deer and elk by helicopter. It further prohibits the 
Department from otherwise ``exterminating or nearly exterminating the 
deer and elk on the island.'' The provision therefore also prohibits 
the Department from destroying all or nearly all of the deer and elk on 
the island by other means.
---------------------------------------------------------------------------
    \1\ According to The American Heritage Dictionary (Second College 
Edition, 1982), ``exterminate'' means ``to get rid of by destroying 
completely.''
---------------------------------------------------------------------------
    While the Department understands the prohibition, no plan to 
exterminate the deer and elk on the island has been presented to the 
Department or been internally generated. The settlement agreement, 
however, does address the removal of deer and elk. It also makes 
reference to the potential use of helicopters in removing the ungulate 
population, so it is important to assess the underlying agreement 
approved by the court, to more fully understand the relation between 
the legislative language and the situation on the island.
    The court-ordered settlement agreement states that the elk and deer 
on Santa Rosa Island are not public property, but are instead private 
personal property. The agreement states that Alexander Lennox Vail, 
Nathan Russell Vail, Margaret Vail Woolley, and the Vickers Company, 
Ltd. (collectively ``V&V'') are responsible for removing their personal 
property (``including ungulates'') from the island by the termination 
of a final special use permit or by December 31, 2011, whichever is 
sooner. The relevant provision of the settlement agreement reads:

          In the last year that V&V will have elk or deer on [the 
        island], V&V will remove the remaining deer and elk to the 
        greatest extent feasible. Provided that V&V meets all deer and 
        elk reduction requirements in every year prior to 2011, and 
        provided that the remaining deer and elk in 2011 become 
        extraordinarily difficult to remove despite the diligent 
        efforts of removal by V&V, [the National Park Service] will 
        equally share the ``unusual costs'' of the removal of those 
        deer and elk. ``Unusual costs'' is defined as the cost a 
        trained professionals and helicopters.

    Under the settlement agreement, the obligation to remove the elk 
and deer from the island is the responsibility of the private parties, 
V&V. The role of the Department is limited and does not arise until the 
final year that the private parties have elk or deer on the island. At 
that time, the role is a potential cost-sharing arrangement targeted at 
the removal of the animals rather than their ``extermination'' per se.
    Consequently, the principal effect of Section 1077(c) appears to 
be, to prohibit the Department from sharing in the costs of any plan to 
remove the ungulates if such a plan uses helicopters to exterminate the 
elk and deer. The language of the act also prohibits the Department 
from using other methods to destroy the deer and elk. In any ease, the 
ongoing obligation of V&V under the court-approved agreement, to remove 
the deer and elk from the island at the end of the term, is not 
affected by section 1077(c).
                                 ______
                                 
                        Department of the Interior,
                                Fish and Wildlife and Parks
                                      Washington, DC, May 17, 2006.
Hon. Duncan Hunter,
Chairman, Armed Services Committee, U.S. House of Representatives, 
        Washington, DC.
    Dear Mr. Chairman: The Department of the Interior would like the 
opportunity to provide its views on section 1036(c) of H.R. 5122, the 
National Defense Authorization Act for Fiscal Year 2007, as approved by 
the House of Representatives.
    We recommend deletion of section 1036(c) in order to ensure that 
the National Park Service is able to continue its progress toward the 
recovery of native species and providing year-round access for other 
recreational activities on Santa Rosa Island.
    Section 1036(c) states that ``[t]he Secretary of the Interior shall 
immediately cease the plan, approved in the settlement agreement for 
case number 96-7412 WJR and case number 97-4098 WJR, to exterminate the 
deer and elk on Santa Rosa Island, Channel Islands, California, by 
helicopter and shall not exterminate or nearly exterminate the deer and 
elk.''
    We believe section 1036(c) is intended to overturn this settlement 
agreement that prescribes a phase-out of the privately-owned deer and 
elk from Santa Rosa Island, culminating in their complete removal by 
the owners by December 31, 2011. The National Park Service is party to 
that settlement agreement and stands by its terms. Fulfillment of the 
agreement is necessary to accomplish the purposes for which the 
National Park Service acquired Santa Rosa Island.
    The National Park Service purchased Santa Rosa Island for $30 
million in taxpayer funds in 1986 after Congress included the 54,000-
acre island as part of Channel Islands National Park in 1980. The 
purpose of this acquisition was to restore the native ecology of the 
island and open it to the public for hiking, camping, sightseeing, and 
other recreational activities. Although hunting is usually not allowed 
in National Parks, a private hunting operation for deer and elk was 
permitted to continue under a special use permit at the request of the 
owner, who had retained a 25-year reservation of use and occupancy 
(through 2011) in 7.6 acres on the island. Subsequently, the settlement 
agreement provided for the phased elimination of the deer and elk 
population.
    Elimination of the non-native deer and elk is needed to allow 
native plant and-animal species, including some that are endangered and 
threatened, to flourish on the island.
    Also, more visitors will be able to enjoy the island after the 
closure of the deer and elk hunting operations that currently close 
about 90 percent of the island to National Park Service visitors 
engaged in other recreational activities for 4 to 5 months every year.
    Section 1036(e) also raises several other issues. It gives 
direction to the Secretary of the Interior with respect to the 
settlement agreement, yet the Secretary is not responsible for removing 
the deer and elk from the island--the former owner of the island, who 
retains Ownership of the deer and elk, is responsible for their 
removal. Furthermore, 1036(c) suggests that the National Park Service 
has an approved plan to exterminate the deer and elk by helicopter, yet 
no such plan exists. In fact, as already noted, the deer and elk are 
the property of the former owner of the island and, under the terms of 
the settlement agreement, must be removed by them. Only if the deer and 
elk become extraordinarily difficult to remove would the National Park 
Service share the cost of removing the animals, which could include the 
use of helicopters.
    Again, thank you for the opportunity to provide these comments. The 
Office of Management and Budget has advised that it has no objection to 
this letter from the standpoint of the Administration's program.
    Identical letters are being sent to the Honorable Ike Skelton, the 
Honorable John W. Warner, and the Honorable Carl Levin.
            Sincerely,
                                        Acting Assistant Secretary.
                                 ______
                                 
       Statement of Thomas C. Kiernan, President, National Parks 
                        Conservation Association
    Since 1919, the nonpartisan National Parks Conservation Association 
(NPCA) has been the leading voice of the American people in protecting 
and enhancing our National Park System for present and future 
generations. On behalf of our 335,000 members nationwide who visit and 
care deeply about our national parks, we express our strong support for 
S. 1209, the Channel Islands National Park Management Act of 2007.
    S. 1209 seeks to clarify the use and management of Santa Rosa 
Island, part of Channel Islands National Park. NPCA strongly supports 
the efforts of Senators Feinstein and Boxer to protect and welcome 
visitors to Channel Islands National Park with this important 
legislation.
    According to its enabling legislation, the purpose of Channel 
Islands National Park is ``to protect and interpret the internationally 
significant natural, scenic, wildlife, marine, ecological, historical, 
archeological, cultural, and scientific values of the Channel 
Islands.'' In 1986, the National Park Service purchased Santa Rosa 
Island for $29.5 million to restore its native ecology and provide for 
public access to the island. Santa Rosa Island is to be enjoyed by all 
Americans.
    In October 1996, subsequent to Clean Water Act violations and 
proposed endangered species listing, NPCA filed a lawsuit alleging that 
the Park Service was violating the Clean Water Act and Endangered 
Species Act by allowing Vail & Vickers to continue to allow cattle, 
deer, and elk to graze on the island. In the fall of 1997, NPCA, along 
with the Park Service, U.S Fish and Wildlife Service, and Vail & 
Vickers, agreed upon a mediated settlement approved by the court. Under 
the terms of the settlement agreement, all non-native deer and elk are 
to be removed from the Santa Rosa Island over a four-year period 
beginning in 2008 and completed by 2011.
    Unfortunately, late last year a provision was slipped into the 
fiscal year 2007 Defense Authorization bill by Representative Duncan 
Hunter during conference negotiations seeking to overturn the court-
ordered settlement agreement. This rider ostensibly allowed for the 
continued hunting on the island, despite opposition from the National 
Park Service, Senators Feinstein, Boxer, and Representative Capps. The 
provision runs in direct conflict with efforts to restore the island's 
natural and cultural resources, and provide for year-round public 
access to the island.
    S. 1209 seeks to remedy this situation by first repealing Rep. 
Hunter's egregious provision, and to provide for the continued 
management of Channel Islands National Park in accordance with 
applicable laws of the National Park System. It does not seem 
unreasonable that Santa Rosa Island, part of Channel Islands National 
Park, be managed in accordance with the National Park Service Organic 
Act and other applicable Park System laws.
    NPCA entered into the settlement agreement in good faith with the 
National Park Service and Vail & Vickers to phase out the non-native 
deer and elk on the island by 2011. Unfortunately Rep. Hunter's 
provision runs counter to this good faith effort, seeking to overturn 
this agreement. NPCA supports the efforts of Senators Feinstein and 
Boxer, as well as Representative Capps, in introducing legislation to 
repeal this harmful law.
    The American people paid nearly $30 million for Santa Rosa Island 
to be protected and enjoyed by all as part of the National Park System. 
They did not pay for it to be a private, exclusive hunting club. This 
lucrative private hunting operation greatly limits access to a large 
part of the island for months at a time. It is also unclear as to under 
what authority the Vail & Vickers commercial hunting operation is 
currently operating. NPCA supports the long-standing principle that 
national parks are not appropriate hunting venues, and that hunting is 
inconsistent with the purposes of the vast majority of national parks, 
including Channel Islands National Park.
    The settlement agreement is something all parties agreed to. S. 
1209 allows us to return to the terms of this agreement. We urge the 
committee to support this important legislation for the protection and 
public enjoyment of one of America's national treasures--Channel 
Islands National Park.
                                 ______
                                 
   Statement of Nathan M. Frohling, Lower Connecticut River Program 
         Director, Connecticut Chapter, The Nature Conservancy
    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's testimony in strong 
support of S. 553, legislation to designate certain segments of the 
Eightmile River in the State of Connecticut as components of the 
National Wild and Scenic Rivers System.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has approximately 1,000,000 individual 
members and programs in all 50 states and in over 30 foreign countries. 
To date, we have protected more than 15 million acres in the 50 states 
and over 117 million acres globally.
    As Lower Connecticut River Program Director, I lead The Nature 
Conservancy's efforts to conserve the Eightmile River Watershed. The 
Eightmile's 62-square mile watershed is part of the larger and 
internationally significant ecosystem of the Lower Connecticut River 
region. Both the Eightmile and Lower Connecticut are top priorities for 
The Nature Conservancy. In the late 1990's, The Nature Conservancy and 
University of Connecticut let a joint effort called the ``Eightmile 
River Project'' to study and map the watershed and explore community-
based strategies for protecting it. A primary outcome of this project 
was community interest in pursuing Congressional Wild and Scenic River 
designation for the Eightmile. I testified before Congress on behalf of 
this effort in 2001 and have participated actively over the last 5\1/2\ 
years as a member of the Eightmile River Wild and Scenic Study 
Committee, serving as Chairman of the Management Subcommittee, as a 
member of the Executive Committee and as Vice Chair of the full 
Committee.
               the eightmile river is a national treasure
    The Eightmile River is a national treasure because it is one of the 
last and best examples of an intact, near-coastal river system on the 
East Coast of the United States, particularly along the Northeast 
coast. It is uncommon to find an aquatic ecosystem which is highly 
intact throughout its range, particularly at the scale of the Eightmile 
River Watershed, and particularly in the highly populated and developed 
coastal region from Washington D.C. to Boston. From rare species and 
natural communities to a high quality wetland and watercourse system to 
extensive, intact forest habitat, the Eightmile is such an example; it 
is a rare gem of nature.
    The Eightmile is also exemplary in providing a high quality of life 
for its residents and visitors. It is a rural landscape with great 
scenic beauty and offers an abundance of recreational opportunities. It 
offers excellent fishing and boating including power and sail in the 
river's one-mile long Hamburg Cove section. Hiking, sightseeing, 
hunting, and nature observation are among the popular activities in the 
Eightmile at State and Town Forests, Devil's Hopyard State Park, and 
many publicly available nature preserves owned by The Nature 
Conservancy and local land trusts.
    The Eightmile name is based on the distance between its mouth at 
the Connecticut River and Long Island Sound. The river system is 
dominated by the 10 mile East Branch, the 10 mile West Branch, and the 
5 mile main stem. There are major tributaries such as Beaver, Harris, 
and Falls Brook. The towns of East Haddam, Salem and Lyme make up the 
Eightmile Watershed.
                threats to the eightmile river watershed
    The greatest threat to the special attributes of the Eightmile 
River and its watershed is incremental, unplanned growth. Between 1985 
and 2002, the Eightmile towns of East Haddam and Lyme each experienced 
an 11% increase in developed acreage and in Salem, a 23% increase. 
Unmanaged development typically results in landscape and habitat 
fragmentation, the loss of water quality, the loss of important species 
and natural communities, the intrusion of undesirable nuisance species, 
the loss of the cultural landscape--in short, loss of the Watershed's 
outstanding resource values. Change and growth is inevitable; the 
challenge for the Eightmile is whether this growth will be managed to 
protect and sustain its outstanding resources. There are other 
potential threats such as the excessive diversion of water or poorly 
managed resource extraction.
               community desire: ``protect what we have''
    During the Eightmile River Project conducted in the mid to late 
1990's and the Eightmile River Study conducted since 2001, and in the 
course of numerous meetings and presentations, there has been a clear 
message from the communities of Salem, East Haddam and Lyme: ``We 
cherish what we have, we don't want to lose it, we don't want it to 
change for the worse as so many other places have in Connecticut; the 
Eightmile River and its landscape are what characterizes and gives 
meaning to where we live.'' There has been recognition that without a 
pro-active effort to protect what is special, the special qualities of 
the area would be lost or seriously degraded, whether unintentionally, 
incrementally, or directly. The question early on was, ``How can we 
realize a collective vision to save this region, especially when we are 
set up to work as independent and often competitive towns?"
          wild & scenic river designation the chosen strategy
    Congressional Wild and Scenic River designation was 
enthusiastically chosen as the best strategy for protecting the 
Eightmile River, its Watershed and realizing the community goals 
mentioned above. Highlights of why the Wild and Scenic River 
designation strategy was chosen include:

  <bullet> The Wild and Scenic River process provides the structure, 
        expertise, funding and facilitation needed for the communities 
        to come together and collectively identify the issues and goals 
        they have for the resource, and to set forth the means for 
        meeting those goals. By adding the ``higher purpose'' and honor 
        of national recognition and focusing citizens around a common 
        and clear goal, the Wild and Scenic process could (and did) 
        serve as a catalyst for local, community-based action and self-
        determination.
  <bullet>  A Wild and Scenic River designation, if achieved, would 
        offer important protections not otherwise available locally or 
        through the State of Connecticut. Federally funded or permitted 
        water resource related projects that would have a direct and 
        adverse impact on the river would not be allowed under 
        designation. There are several threats to the Eightmile where 
        this may be important including, for example, adverse water 
        diversions.
  <bullet> The Study would (and did) provide a greater level of 
        scientific information than could otherwise be achieved, which 
        will be useful for future decision-making.
  <bullet> A Wild and Scenic River study represents the potential to 
        bring in needed funds to support the community-based protection 
        process that has been identified.
  <bullet> The Wild and Scenic River designation process would be built 
        on local control. The ability to maintain local control over 
        land use decisions is key.
  <bullet> Designation would facilitate long term coordination and 
        consensus building among the towns and further heighten public 
        awareness and citizen commitment to long term protection.
                           watershed approach
    It was decided early on to pursue a watershed-based Wild and Scenic 
designation rather than focusing on discrete segments of the river. 
This approach was motivated by the exemplary quality of the watershed 
itself. It also allowed consideration of the important and intricate 
connection between the upland areas of the watershed and Eightmile 
streams and wetlands. Additionally, this approach would be the most 
realistic vehicle for communities to sustain the quality of the 
landscape of the Eightmile region as a whole. The Eightmile experience 
might also serve as a model to other communities interested in working 
together on a regional basis to address issues such as sprawl.
                    outstandingly remarkable values
    Six ``Outstandingly Remarkable Values'' were established for the 
Eightmile River system during the Eightmile Wild and Scenic River 
Study. Numerous scientific and technical studies were conducted in 
support of establishing these values. They form the basis for the 
Eightmile River's Eligibility for Wild and Scenic River designation and 
include:
    Watershed Hydrology.--The Eightmile River Watershed hydrologic 
regime operates without major impediments or influences--and as such is 
a naturally functioning system. More specifically, there are no surface 
water diversions, no dams which regulate flow, there are no direct 
point source discharges from industry or wastewater treatment plants 
and the level of impervious land cover is low at only 3% watershed-
wide. There are high levels of forest cover coupled with low levels of 
development.
    Water Quality.--Water quality and aquatic habitat in the Eightmile 
River Watershed is not only locally exemplary, but as good as the best 
rivers studied in the state. In addition, the two primary threats to 
water quality, point source and non-point source pollution, are almost 
nonexistent. All waterbodies in the watershed evaluated by the state 
fully meet their water quality use goals, and none are considered 
impaired; 92% of the watershed's streams and 99% of the ground water 
meet the state's highest water quality classification criteria. 
Chemical and biological indicators reveal that water quality and 
aquatic habitat are exemplary. Riparian corridors are highly intact and 
continuous and 80% of the watershed is forested and less than 7% 
developed.
    Unique Species and Natural Communities.--The combined rarity, 
abundance and diversity of species and natural communities in the 
Eightmile River Watershed is unique and exemplary within Connecticut 
and throughout New England. The Eightmile River Watershed ranks in the 
top 5% of New England's watersheds for having one of the highest 
concentrations of rare species. A total of 155 ``at-risk'' plant and 
animal species occur in the watershed, including 32 vascular plants, 6 
amphibians, 81 birds, 8 fish, 12 invertebrates, 7 reptiles and 9 
mammals. There are 5 globally rare species and 54 occurrences of state-
listed rare plants, 11 of which are also rare for New England. There 
are over 100 occurrences of ``significant'' natural communities in the 
watershed and 18 natural communities were found to have exemplary 
biodiversity. Extensive, native beds of submerged aquatic vegetation, 
the healthy presence of native fresh water mussels and other small 
aquatic organisms such as mayflies, damselflies, dragonflies, beetles, 
snails, etc. are further indicators of overall ecosystem integrity.
    Geology.--In the Eightmile, a combination of an exceptional bedrock 
assemblage, an atypical local topography and exemplary evidence of 
glacial action creates a distinct local representation of the geology 
of Connecticut.
    The Watershed Ecosystem.--This is the ``holy grail'' of the 
outstandingly remarkable values in that the entire Eightmile River 
Watershed ecosystem remains highly intact and as mentioned above, this 
is a rare characteristic. The high quality of the system is also a 
reflection of the quality and summation of its interacting sub-
ecological features. Some of the features noted include: 1) 72% of the 
watershed consists of large, connected roadless blocks of habitat 
(>1,000 acres), 2) nutrient and energy cycles critical for plants, 
animals and water quality are intact, 3) over 80% of the watershed is 
forested, 4) the high density of rare species, 5) minimal impacts from 
invasive species, 6) outstanding interior nesting bird habitat 
associated with the large, intact forest, 7) the natural hydrological 
system and flow regime that supports riparian communities dependent on 
periodic flooding and natural scour processes, 8) high water quality, 
etc.
    The Cultural Landscape.--This outstanding resource value is a 
reflection of the bucolic, rural landscape and special places created 
by human interaction with the environment. In the Eightmile this 
includes a landscape dominated by scenic views and vistas, historic 
features such as old colonial homes and churches, stone walls, 
cemeteries and the lack of modern development and transportation 
patterns. Lands adjacent to the Eightmile River also have a high 
potential for intact archaeological resources.
                         what has been achieved
Outreach and Community Process
    During the Wild and Scenic Study, a major outreach effort was 
implemented to assess social needs, facilitate citizen input, clarify 
community goals regarding the Eightmile River Watershed and to inform 
the public about the Wild and Scenic process. Examples include:

  <bullet> Community Meetings.--Numerous meetings held in each of the 
        three towns covering the full range of topics from the 
        background and history of the project to discussion of the 
        Outstanding Resource Values to the watershed management 
        framework. Particular attention was paid to feedback on the 
        types of management tools citizens would support.
  <bullet> Land Use Commissioners Summit.--Attended by over 40 local 
        land use decision-makers, this was a 4-hour facilitated work 
        session which provided critical input into the formation of the 
        management plan.
  <bullet> Community Open House.--This event was widely publicized and 
        drew nearly 150 people; soliciting feedback from the public was 
        a primary objective.
  <bullet> Newsletters.--Six ``update'' newsletters were sent to 
        riverfront landowners and the Eightmile subscriber list.
  <bullet> Mailings to all Town Residents.--Invitations to the 
        community forums and community open house, a special newsletter 
        leading up to town votes and vote notices were sent to all 
        residents of all the towns.
  <bullet> Letter to 200 Riverfront landowners.--This letter included a 
        brochure on the Eightmile Wild and Scenic River Study and 
        solicited their feedback and input into the Study process.
  <bullet> Fairs and Events.--Local fairs and events were staffed by 
        Wild and Scenic representatives; a kick-off event for the Study 
        was held at Devil's Hopyard State Park and attended by 
        dignitaries such as Senator Dodd and Congressman Rob Simmons.
  <bullet> Brochures and pamphlets.--These were distributed to 
        libraries, stores and other locations.
  <bullet> Press Releases and signage.--These were used to inform the 
        public of Study progress, opportunities for input and votes 
        regarding designation and the management plan.
Recognition that Existing Protection is Strong
    Careful analysis conducted as part of the Wild and Scenic Study 
revealed that existing protection is strong. Quoting from page 22 of 
the Study Committee Report, ``Currently there are strong protections in 
place for the Eightmile River Watershed. These protections include: 
local, state and federal statutes and regulations that directly protect 
the waterways and adjacent lands, large amounts of conserved land and 
open space, many non-profit and governmental supporting organizations, 
landscape features that do not promote development, and a strong desire 
by local citizens to preserve the resource values of the watershed. 
Together with a locally administered watershed management plan, these 
existing protections are found to meet the suitability criteria for 
designated segments recommended for Wild and Scenic River 
designation.'' The towns, local land trusts, The Nature Conservancy and 
State have permanently protected over 31% of the watershed (over 12,500 
acres) and 25% of all river frontage within 100 feet of the 160 miles 
of river and stream within the watershed. Approximately 3,000 acres 
were protected during the period of the Study (2001 to 2006).
Eightmile River Watershed Management Plan
    A comprehensive watershed management plan was prepared and endorsed 
during the Study. It is the blueprint for enabling the 3 towns to 
collectively realize their vision for protecting the outstanding 
qualities of the Eightmile River Watershed. The content of the 
management plan reflects the many hours of research, analysis, planning 
and most of all, discussions with and input from citizens and town 
boards and commissions. It is the culmination of the Study at the local 
level. The Plan also helps fulfill the suitability criteria for 
designation by providing a management framework that brings key river 
interests together to work toward the ongoing protection of the river 
and watershed. An advisory Coordinating Committee has been set up to 
assist in implementing the management plan including facilitation of 
communication and consensus building. Key management issues addressed 
by the plan include riparian corridor protection, open space 
conservation of key habitats, limiting adverse impervious land cover, 
municipal stormwater management and best management practices for 
stormwater system and stream crossing design.
    The plan is a set of near and long term recommendations--it does 
not create any new authorities and its implementation is done locally 
and at the discretion of the local communities. The power behind the 
plan stems from the investment made by each town in creating it and 
ultimately by its formal endorsement by town boards and citizens. All 
three towns have begun to voluntarily implement the Plan prior to 
achieving designation because of their desire to continue moving toward 
their community goals. Designation remains key however, because 
designation is an important component of the overall framework for 
achieving long term protection and it represents a reward for the 
town's ``doing their part.''
Protection of Landowner Interests
    Assuring that landowner interests would be respected was a major 
tenant of the Wild and Scenic Study process including development of 
the management plan and designation legislation. At the top of the list 
is that designation would be conditional on assuring that the 
``provisions of section 6(c) of the Wild and Scenic Rivers Act that 
prohibit Federal acquisition of lands by condemnation shall apply to 
the Eightmile River,'' which is the wording of the proposed 
legislation. Secondly, as mentioned above, the management plan is 
developed locally and its implementation is locally led and at the 
discretion of the local communities. Thirdly, the recommendations in 
the management plan were evaluated in terms of their potential impact 
on landowners and adjusted as necessary to assure that if implemented 
they would not pose an unreasonable burden or hardship. Also, the 
management plan was designed to be flexible and anticipate that the 
specifics of potential measures might be adjusted to take into account 
the ``reality on the ground'' at the time of implementation. 
Communication with riverfront landowners was a consistent and important 
part of the conduct of the Study. Ultimately, votes by the town land 
use boards and citizens served as the most direct expression of support 
for the designation and proposed protection measures. In general, as 
indicated through citizen votes, community input, discussions and 
neighbor to neighbor contact, the clear majority of landowners 
recognized that the potential implications of implementing the 
management plan would entail at worst the prospect of making relatively 
small concessions in exchange for the larger benefit of sustaining 
overall neighborhood and community quality.
           strong support for designation and management plan
    Consistent with the history of the project and its origins, there 
is overwhelming, widespread support for Eightmile Wild and Scenic River 
designation. In the winter of 2006, the towns of East Haddam, Lyme and 
Salem held town meeting votes so that citizens could vote on whether to 
endorse the Eightmile River Watershed Management Plan and Wild and 
Scenic designation. These votes were attended in large numbers. In 
Salem the First Selectman claimed that it was the largest turnout for a 
town meeting. All of the towns had votes which were strongly in favor 
of endorsement--in total the votes were nearly unanimous. All town 
First Selectmen, land use commissions and boards of selectmen as well 
as the Wild and Scenic Study Committee voted to endorse the Management 
Plan and designation. Prior to and during the course of the Study many 
civic and non-profit groups have expressed their support for the Study 
and/or designation through letters, resolutions and other forms of 
endorsement. Individuals, landowners and river fronting landowners have 
also expressed support. Please see attachment.*
    The State of Connecticut Legislature endorsed designation and the 
Management Plan by passing Public Act No. 05-18 ``An Act Concerning 
Designation of the Eightmile River Watershed Within the National Wild 
and Scenic River System'' which was signed into law by Governor Jodi 
Rell at a riverside ceremony.
    The Eightmile designation has been and remains a bipartisan 
endeavor. Republican Rob Simmons introduced the Study Bill in 2001 and 
introduced a designation bill just before the end of the 109th 
Congress. Democratic Congressman Joe Courtney has introduced H.R. 986 
and has the full support of the Connecticut Delegation, both 
republicans and democrats. Senators Dodd and Lieberman have been strong 
supporters since the beginning in 2001.
    Finally the newspapers have followed the Eightmile Project and the 
Wild and Scenic Study. There have been numerous articles about the 
project and strong editorial endorsements for designation. Examples are 
summarized in the attached exhibits.*
---------------------------------------------------------------------------
    * Information has been retained in committee files.
---------------------------------------------------------------------------
                    the time for designation is now!
    With 10 years of work into the effort to save the Eightmile River 
Watershed including the past 5 years during the Wild and Scenic Study, 
the communities have done their part and are anxious to complete this 
final critical step of obtaining Wild and Scenic River designation. 
They see the federal role as an inherent part of the collective multi-
party approach to protecting the resource. In order to continue making 
the commitment of time and resources, local communities need to know 
their federal partner will in fact come through too and allow the full 
partnership to be established. Noting that 2008 is the 40th anniversary 
of the Wild and Scenic Rivers Act, those involved in the Eightmile 
effort would greatly appreciate the honor of being one of the rivers 
who receive designation within the Act's first 40 years!
    Thank you very much for the opportunity to submit testimony in 
support of S. 553. I urge the committee's favorable consideration of 
this important legislation.
                                 ______
                                 
                                    The Nature Conservancy,
                                   San Francisco, CA, May 15, 2007.
Hon. Daniel K. Akaka,
Chairman,
Hon. Craig Thomas,
Ranking Member,
Subcommittee on National Parks, Senate Energy and Natural Resources 
        Committee, 364 Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Akaka and Senator Thomas: As the Subcommittee on 
National Parks of the Senate Energy and Natural Resources Committee 
holds a hearing today on legislation under its purview, The Nature 
Conservancy wishes to express its strong support for the Channel 
Islands National Park Management Act of 2007 (S. 1209).
    Recently introduced by Senator Dianne Feinstein, S. 1209 requires 
Santa Rosa Island within the Channel Islands National Park to be 
managed in accordance with the National Park Service Organic Act (16 
U.S.C. 1 et seq.) and all applicable national park laws. Additionally, 
the legislation repeals Sec. 1077(c) of P.L. 109-364, a provision 
included in the Fiscal Year 2007 Department of Defense Authorization 
Act. While Sec. 1077(c) is subject to interpretation, the provision 
appears to attempt to overturn a court-approved settlement agreement 
and could allow a private herd of non-native deer and elk to remain on 
the island after 2011.
    The Nature Conservancy believes the presence of introduced deer and 
elk herds on Santa Rosa Island is fundamentally incompatible with the 
long-term protection of the unique natural resources of Channel Islands 
National Park. By allowing the private herd of deer and elk to persist 
on Santa Rosa Island, these non-native populations continue to divert 
scarce park management funds and pose an unnecessary and costly risk to 
the viability of plant and animal species that occur nowhere else on 
Earth. Such a development would also undermine the enormous public and 
private investments in ecosystem restoration that have been made in 
recent years.
    We hold this position having studied this situation in great depth. 
The Nature Conservancy formerly owned 90% of Santa Cruz Island--Santa 
Rosa's immediate neighbor in the northern Channel Islands. In 2000, the 
Conservancy gave 8,500 acres of land on Santa Cruz Island valued at 
well over $60 million to the National Park Service, to facilitate 
island visitation and to enhance our conservation partnership. Today, 
the Conservancy owns 76% of Santa Cruz Island and has raised and 
contributed tens of millions of dollars in private funds and other 
assets to the conservation of natural resources within the Channel 
Islands National Park. Since 2000, the Conservancy has contributed 
staff time, expertise, and over $7 million in privately raised funds to 
restoring the ecosystem and protecting biodiversity on Santa Cruz 
Island. These private investments are in addition to about $11 million 
in public investment in the restoration program over that same time 
period.
    Island ecosystems are renowned for their ecological fragility. 
Extinction rates of plants and animals on islands are alarming. When 
herbivores (like deer and elk) are introduced to islands they can have 
a devastating effect on the ecosystem. The scientific evidence of that 
destruction on the world's islands is overwhelming. The fragility of 
the Northern Channel Islands ecosystem is well illustrated by the 
plight of the federally endangered island fox. A listed subspecies of 
fox occurs on Santa Rosa, and a different listed fox occurs on each of 
its immediate neighbors, Santa Cruz and San Miguel islands. Each fox 
population is precariously close to extinction because they are preyed 
upon by golden eagles. Golden eagles have only recently populated the 
islands. The full ecological history of the northern Channel Islands is 
complex, but scientists believe that individual birds from a rebounding 
mainland golden eagle population have been attracted to the islands and 
supported by the presence of introduced species. Even though they may 
mostly prey upon other species, the eagles' depredation of foxes has 
been enough to cause the three fox populations to plummet.
    Over the last eight years and at great expense, The Nature 
Conservancy and the National Park Service have worked hard to live 
capture and remove golden eagles from the islands. But as long as a 
food subsidy of large non-native animals remains in the island chain 
and continues to attract the golden eagles, the foxes will remain 
imperiled. To that end, The Nature Conservancy and the National Park 
Service are currently completing a multi-year and multi-million dollar 
effort to remove feral pigs from Santa Cruz Island. The Conservancy is 
concerned that, if deer and elk remain on Santa Rosa, golden eagles may 
continue to be drawn to the islands by the presence of young herbivores 
and by deer and elk remnants resulting from hunting, further risking 
the extinction of foxes on Santa Rosa Island as well as the neighboring 
islands.
    Outdoor recreation enthusiasts, including hunters, are some of the 
strongest supporters of biodiversity and habitat preservation, and we 
have enjoyed a long and productive relationship with hunting and fish 
enthusiasts and organizations. Like any other form of outdoor 
recreation, however, there are places and situations where hunting, and 
particularly the introduction and retention of non-native species for 
hunting purposes, is simply not appropriate. Santa Rosa Island is one 
of those places.
    The Nature Conservancy joins Senator Feinstein and the National 
Park Service in strong support of S. 1209.
            Sincerely,
                                              Mike Sweeney,
                      Associate State Director, California Program.
                                 ______
                                 
            Statement of Quinn McKew, American Rivers, Inc.
    On behalf of our 65,000 members and supporters around the country, 
thank you for holding a hearing to consider important legislation that 
will designate outstanding, free flowing rivers in Connecticut, North 
Carolina, Virginia, and Wyoming as components of the National Wild and 
Scenic Rivers Program.
    Since its founding in 1973, American Rivers has worked with our 
grassroots partners to protect rivers under the Wild and Scenic Rivers 
Act and has actively assisted federal agencies, states and local groups 
with river conservation efforts. American Rivers strongly supports S. 
553, the Eightmile Wild and Scenic River Act of 2007, S. 1057, the New 
River Wild and Scenic River Act of 2007, and S. 1281, the Snake 
Headwater Legacy Act of 2007.
    Congress created the Wild and Scenic Rivers Act in 1968 to protect 
the nation's best free-flowing rivers from activities that would 
destroy their wild character. A Wild and Scenic designation is 
currently the strongest tool available to protect rivers from future 
pollution, inappropriate development, and impoundment. A Wild and 
Scenic designation does not prevent development and use of a river; 
instead, the goal is to preserve the existing character of a river. 
Uses and development compatible with the management goals of a 
particular river are allowed. Each of the rivers under consideration 
today possess the free-flowing character and outstanding natural beauty 
representative of our nation's National Wild and Scenic Rivers.
    S. 553, the Eightmile Wild and Scenic River Act of 2007, would 
designate segments of the Eightmile River, an outstanding river located 
in the largest unfragmented forest region in coastal Connecticut, as a 
component of the National Wild and Scenic Rivers System. The Eightmile 
River is an exceptional natural and cultural resource. The 62 square 
mile watershed is a rolling forested landscape with more than 150 miles 
of pristine rivers and streams, large areas of unfragmented habitat, an 
abundant array of rare and diverse wildlife, beautiful vistas, high 
water quality, unimpeded stream flow and historic features making it a 
unique example of an intact and functioning watershed ecosystem in 
Southern New England. The watershed has been determined eligible and 
suitable for Wild and Scenic status by the National Park Service. More 
than 80% of the watershed is undeveloped forest, home to diverse and 
rare animal and plant life, and an abundance of recreational 
activities. Its scenic beauty, historic character, and fisheries serve 
as a tremendous source of pride for the citizens of Connecticut.
    The process of including the Eightmile River Watershed into the 
NWSR System has been a bottom-up approach. The desire to protect the 
Eightmile River Watershed originated in 1995 when local officials and 
citizens began working on protection efforts. A variety of local, 
state, and federal water protection programs were considered. A key 
part of the program selection process was the need to retain local 
control over decisions involving the watershed. A Wild and Scenic River 
study and designation was determined to be the best way to achieve the 
local vision of a protected watershed.
    S. 1281, the Snake Headwater Legacy Act, also arose from a strong 
local push to protect a key community asset. These 443 miles of rivers 
around Jackson, Wyoming truly represent the best of our nation's wild 
river heritage and form the heart of a vibrant recreation-based local 
economy. Designation efforts are endorsed by The Campaign for the Snake 
Headwaters, an effort led by local citizens, businesses, anglers, 
boaters and conservationists to permanently protect the best remaining 
free-flowing rivers and streams of northwest Wyoming's Snake River 
drainage. More than one hundred local and national businesses have 
endorsed the Campaign for the Snake Headwaters.
    The legislation, if passed, would be the single largest addition to 
the nation's Wild and Scenic Rivers System in 15 years. Included in the 
bill are rivers determined Wild and Scenic eligible in Grand Teton 
National Park, Yellowstone National Park and the surrounding National 
Forests. Over 90% of these river miles are located on public lands on 
the Bridger-Teton National Forest, and to a lesser extent, in 
Yellowstone and Grand Teton National Parks. Only a tiny fraction of 
these eligible river miles flow across private lands. The rivers of the 
Snake headwaters are one of the last remaining native cutthroat trout 
strongholds in the lower 48 states. Roughly 30 percent of the tourists 
that visit Jackson Hole spend some time fishing in the Snake 
Headwaters, and they contribute from $10 to $20 million annually to the 
local economy. Whitewater boating and rafting on the Snake River pump 
another $3.5 million into the local economy. The lush cottonwood forest 
along the Snake River supports some of the most productive bald eagle 
and osprey nesting habitat in the Rocky Mountains. In all, 150 bird 
species can be found along this reach of the Snake. Among the many 
mammal species that abound here are moose, elk, deer, grizzly bears, 
wolves, mink, and Wyoming's largest population of river otters.
    S. 1057, the New River Wild and Scenic River Act, gives attention 
to a section of the New River, our nation's oldest river, which until 
now has been a local secret. Starting at the terminus of the currently 
designated New River National Wild and Scenic River in North Carolina 
and flowing through Virginia back into North Carolina, this stretch of 
river is exceedingly scenic and popular with recreational boaters. 
While most of the land bordering the river is privately held, local and 
regional land trusts dedicated to protecting the New River have 
successfully negotiated several large conservation easements.
    Given the high percentage of state and private property in S. 1057, 
American Rivers recommends that the river be managed as a Partnership 
Wild and Scenic Rivers administered by the National Park Service. As a 
subset of the greater National Wild and Scenic Rivers System, the 
Partnership Wild and Scenic Rivers Program helps communities preserve 
and manage their own river-related resources locally by bringing 
together State, county, and community managers to preserve the 
outstanding and remarkable values for which the rivers were set aside. 
It is a truly collaborative process with the National Park Service 
providing an advisory partnership role.
    As the 40th anniversary of the National Wild and Scenic Rivers Act 
approaches in 2008, American Rivers look forward to working with the 
Subcommittee and the Committee on Energy and Natural Resources as a 
whole to secure Wild and Scenic designations for our last, best rivers 
and preserve their beauty, health, and wonder for current and future 
generations. In addition to S. 553, S. 1057 and 5.1281, American Rivers 
strongly supports S. 86, the Fossil Creek Wild and Scenic River Act; S. 
647, the Lewis and Clark Mount Hood Wilderness Act of 2007; and S. 868 
which seeks to designate segments of the Taunton River as a component 
of the National Wild and Scenic Rivers System.
    American Rivers strongly supports these pieces of legislation and 
looks forward to working with the Energy and Natural Resources 
Committee to ensure that all the bills contained in this testimony are 
enacted this Congress.
    Thank you for your consideration.
                                 ______
                                 
                                     The Conservation Fund,
                                       Sun Valley, ID, May 4, 2007.
Hon. Larry Craig,
Hart Senate Office Building, U.S. Senate, Washington, DC.
    Dear Senator Craig: On behalf of The Conservation Fund, I am 
writing to express our organization's strong support for your 
bipartisan legislation to expand the boundary of the Minidoka 
Internment National Monument to include the Farm-in-a-Day property as 
part of a comprehensive initiative to implement the National Park 
Service's General Management Plan (GMP) and Congressionally-authorized 
Bainbridge Island special resource study.
    As part of The Conservation Fund's (TCF) nationwide program to 
conserve Japanese American internment camp sites, TCF acquired the 128 
acre Farm-in-a-Day property last year with a goal to preserve the 
farm's historic resources associated with both the Japanese American 
internment and the development of agriculture in the Magic Valley 
following World War II. The property is located immediately adjacent to 
the Monument and is the NPS's highest acquisition priority in its 
recently-completed GMP.
    TCF is very interested in transferring the property to the NPS as 
an addition to the Monument. By expanding the boundary to include this 
key tract, the legislation will provide the NPS with the authority to 
acquire this property. In doing so, your legislation will advance the 
Monument's mission to educate the public about the internment and to 
tell the fascinating story about the regional development of 
agriculture in the early 1950s. If enacted, the bill also transfers 
management of facilities and federal lands at Minidoka for a visitor 
center and a new memorial for the first generation of Japanese 
Americans.
    As an organization committed to conserving Idaho's historic 
resources and as the only private landowner within the proposed 
boundary expansion, TCF greatly appreciates your leadership and hard 
work to advance this bill. TCF is supportive of the exciting 
opportunity that Minidoka presents for south-central Idaho, the Pacific 
Northwest and the nation as a whole. We stand ready to assist your 
efforts to pass this important legislation this year as part of a 
comprehensive approach for Minidoka and Bainbridge Island.
            With appreciation and good wishes,
                                           Mark W. Elsbree,
                               Vice President & Northwest Director.
                                 ______
                                 
                             Paralyzed Veterans of America,
                                     Washington, DC, July 26, 2006.
Hon. Vic Snyder,
Longworth House Office Building, U.S. House of Representatives, 
        Washington, DC.
    Dear Representative Snyder: On behalf of the Paralyzed Veterans of 
America (PVA), I am responding to your inquiry regarding efforts to 
provide hunting opportunities for paralyzed and disabled veterans on 
Santa Rosa Island. While PVA applauds the efforts by Chairman Duncan 
Hunter to open hunting and outdoor venues for our members, other 
disabled veterans and current service members we have come to the 
conclusion that the Santa Rosa Island initiative is not viable. PVA has 
sent one of our members to the island and we have explored possible 
solutions to the challenges posed by the site; however, it is our 
opinion that the numerous obstacles inherent to the island, including 
ingress and egress, logistics, personal safety and cost, far outweigh 
the possible, limited benefit it could provide.
    It is our hope that the concept of expanded hunting and outdoor 
opportunities on federal facilities for our members, other disabled 
veterans and service personnel will continue to receive the attention 
of Congress. Chairman Hunter's efforts should serve as a starting point 
for future initiatives to provide accessible venues for both veterans 
and active duty personnel. We would be happy to work with you and other 
members to explore alternatives to this issue and identify other 
opportunities across the country that may afford veterans expanded 
options.
            Sincerely,
                                        Douglas K. Vollmer,
             Associate Executive Director for Government Relations.
                                 ______
                                 
   Statement of Hon. Lois Capps, U.S. Representative From California
    Mr. Chairman and members of the Subcommittee, thank you for holding 
this hearing today and for the opportunity to present testimony in 
support of S. 1209.
    S. 1209 repeals a provision in the 2007 National Defense 
Authorization Act (NDAA) that negatively affects the integrity of Santa 
Rosa Island and the Channel Islands National Park, which is located in 
my congressional district. I have introduced similar legislation, H.R. 
2029, in the House.
    I want to also thank my colleagues from California, Senator 
Feinstein and Senator Boxer for introducing S. 1209 and for bringing 
this important issue to the Committee's attention.
    Legislation to repeal the NDAA provision is necessary for several 
reasons.
    First, the provision had no place in a defense authorization bill. 
There were no congressional hearings or opportunities for public input. 
The Defense Department did not request this provision and the National 
Park Service (NPS) continues to strongly oppose it.
    Second, the provision directly interferes with a legally binding 
court ordered Settlement Agreement entered into by the NPS, the 
previous landowner (Vail & Vickers), and the National Parks 
Conservation Association that provides for a phase-out of non-native 
deer and elk on Santa Rosa Island by 2011. Removing the deer and elk 
from the island, and ending an associated trophy hunting operation will 
make the island available for public recreational uses year round and 
will protect the island's wealth of critical natural resources. 
According to the NPS, the operation currently closes off public access 
to about 90 percent of the island for 4 to 5 months of the year while 
hunting is underway. The provision also hinders the NPS's plans to turn 
the island into a destination spot--complete with overnight lodging, 
expanded access for disabled visitors, and a full interpretative 
history of the islands.
    Third, the provision was predicated on giving members of the armed 
forces and disabled and paralyzed veterans greater access to Santa Rosa 
Island. To be perfectly clear--everyone has access to the island right 
now, including members of the armed forces and veterans. If there is a 
need to address access problems for members of the armed forces or 
veterans, then this issue can be worked out without any legislation. I 
have spoken with the Superintendent of the Channel Islands National 
Park and he assures me that he is willing to do whatever he can to work 
with the Veterans Administration and Department of Defense if there are 
any access problems veterans might be having.
    Mr. Chairman, it is important to remember how this all started. In 
May 2005, Congressman Hunter proposed kicking the public off Santa Rosa 
completely by transferring the island to the Defense Department. This 
was rejected after being called an attempt to create a private hunting 
reserve for top military brass and their official guests.
    Then the idea of giving veterans more hunting opportunities became 
the reason to intervene in Santa Rosa. But, as discussed earlier, 
veterans already have access to Santa Rosa and the Park Superintendent 
has offered to address any problems with that access. And veterans 
currently enjoy a wide variety of other hunting opportunities on 
private and publicly held lands, as well as on military bases around 
the country. For example, Vandenberg Air Force Base, Fort Hunter 
Liggett and Camp Roberts all on the Central Coast provide hunting 
opportunities to the military and veterans.
    You may recall that the Paralyzed Veterans of America (PVA) 
initially supported. Congressman Hunter's provision, but after a 
representative from the organization visited the island to assess 
whether it would be suitable for paralyzed veterans, PVA changed its 
position. In a letter to Congressman Vic Snyder, the PVA said, ``. . . 
it is our opinion that the numerous obstacles inherent to the island, 
including ingress and egress, logistics, personal safety and cost, far 
outweigh the possible, limited benefit [hunting] could provide.''
    The latest rationale for this proposal is supposedly to stop the 
extermination of these privately owned, non-native deer and elk on 
Santa Rosa Island. However, the Settlement Agreement only calls for 
removal of the animals; it does not specify how the animals must be 
removed. If Vail & Vickers wish to remove their animals to the 
mainland, they are not precluded by the agreement from doing so and I 
would support such an effort. In fact, as the federal representative 
for this National Park, I am willing to help the owners of the herd 
remove the non-native animals from the island if they find a home for 
them. It is important to remember that the animals are being removed 
because of the damage these large herds cause to Santa Rosa and 
federally listed species and the impact the deer and elk's presence 
have on public access.
    The NDAA provision means something far different than more hunting 
opportunities for veterans or animal protection. It means the 
indefinite continuation of hunting in a National Park--either the 
current private trophy hunting or a subsequent population management 
effort. This would continue keeping the public off Santa Rosa while 
hunting is underway. I would remind the Committee that the public paid 
$30 million for this island 20 years ago. Some 5,000 people visit Santa 
Rosa Island each year and that these numbers will increase 
commensurately once the island is open year-round to the public.
    In addition, the NDAA provision could result in the NPS maintaining 
the huge herds of nonnative deer and elk on the island. These are, of 
course, animals the NPS does not even own, so some may argue there 
could be takings issues at play here. And, from the conservation 
perspective, maintaining these huge herds would mean continued damage 
to federally listed species that would reduce the value of the Channel 
Islands National Park and exhaust the NPS's already limited financial 
resources.
    Mr. Chairman, the issue of removing the non-native deer and elk 
from the island is a very serious one. The NPS and Vail & Vickers are 
in constant contact on this issue to ensure the cessation date is met 
and that it is done in a fair and equitable manner. The goal is to 
ensure that the public, finally, has full access to its national park.
    I hope the Committee adopts S. 1209 to repeal this provision and 
shows its support for the goal of making Santa Rosa Island publicly 
accessible year-round, as it should be.
    Thank you again for your interest in this issue and I look forward 
to working with the Committee to show support for Santa Rosa Island.
                                 ______
                                 
 Joint Statement of Boone and Crockett Club; Congressional Sportsmen's 
  Foundation; Mule Deer Foundation; National Rifle Association; Rocky 
         Mountain Elk Foundation; and Safari Club International
    Dear Member of Congress, we are writing you today on an issue of 
great concern to our conservation organizations--the proposed 
eradication of the Kaibab Mule Deer and Roosevelt Elk herds that 
inhabit Santa Rosa Island. We urge you to oppose both S. 1209 and H.R. 
2029, as these bills propose to overturn Sec. 1077(c) of P.L. 109-664--
a provision that currently protects Santa Rosa Island's elk and deer 
herds from extermination.
    Sec. 1077(c) of P.L. 109-664 protects these herds and without this 
provision in place these splendid elk and deer herds would lose their 
current law protections and begin to be slaughtered next year--
ultimately to be eradicated by the end of 2011. The National Park 
Service will assume full management of Santa Rosa Island beginning in 
2012. Our organizations believe that these elk and deer herds should 
remain in their current habitat on the isolated and disease-free 
environment of Santa Rosa Island--where they will continue to provide 
enjoyment to park visitors in 2012 and beyond.
    Through professional wildlife management practices, we believe that 
both the ungulate herds and other flora and fauna can successfully 
coexist. Please understand that these animals have habituated to Santa 
Rosa Island for approximately 100 years, have assimilated into the 
ecosystem and are one of the island's primary tourist attractions.
    We urge you to safeguard P.L 109-664's protection for Santa Rosa 
Island's healthy elk and deer herds by opposing S. 1209 and H.R. 2029.
                                 ______
                                 
 Statement of Robert J. Lagomarsino, Ventura, CA on Behalf of Vail and 
                            Vickers Company
    Chairman Akaka and Members of the Subcommittee, from 1974 to 1993 I 
served in the House of representatives, representing the Ventura and 
Santa Barbara County area of Coastal California. During almost all of 
that time, I was a member of the Interior & Insular Affairs Committee, 
now Natural Resources, and held the position of ranking Republican for 
National Parks.
    It was my legislation in 1980 that created Channel Islands National 
Park. Although no longer in office, I maintain a keen interest in park 
activities. In fact, since we live on the coast west of Ventura, the 
islands are, on clear days, always in sight. Indeed, in 1996 the 
Congress passed, and the President signed into law, legislation naming 
thw park visitor's center after me.
    For more than a decade I have been disturbed at developments in the 
park, especially with regard to the management of Santa Rosa Island.
    Today, I have great concern regarding proposed S. 1209, and H.R. 
2029. Both aim to repeal Section 1077(c) of Public Law 109-364, but 
this language in the Senate version attempts to do more than simply 
reverse Representative Duncan Hunter's one sentence law of last year 
that halts the eradication of the island's historic deer and elk herds. 
I am concerned that S. 1209 inadvertently threatens the very existence 
of the Vail & Vickers operation before 2011, by ignoring past 
agreements--the special use permit arrangement from 1986 and the 
litigated Settlement Agreement for 1998--and citing Park Service 
directives that through strict interpretation very well could drive the 
ranchers out of business immediately.
    It was my clear intent, and of Congress (including CA Senator Alan 
Cranston), that the cattle ranching operation that had thrived for a 
century would continue for 25 years, as a living history of what 
ranching operations had once been like across the West, let alone the 
uniqueness of an island ranch somewhat removed from the passing of 
time. We considered equally important the preservation of the island's 
unique natural bounty. Then-Park Director William Whelen at the time of 
the initial bill's passage wrote that grazing, when properly managed, 
was a compatible use. Later, I clearly remember Park Director William 
Penn Mott standing in the old Vail & Vickers barn on Santa Rosa 
commenting how valuable a resource the cattle operation was.
    It was over many years from the mid 1970's to 1986 that the Vail 
family reluctantly agreed to not oppose including their island into the 
boundaries of the newly proposed park, and to eventually agree to 
emerging political realities and sell to the federal government. 
Therefore I expected the historic ranch and hunting operations would 
continue for at least 25 years.
    It was my intent and expectation that the kind of cooperation 
between the Park Service under then Superintendent Bill Ehorn and Vail 
& Vickers would continue, especially as it was Mr. Ehorn's 
recommendation that a special use permit arrangement would be the 
preferred method of management, not straight lease terms.
    As I stated to Interior secretary Bruce Babbitt in 1997, I would 
not have included Santa Rosa Island in the park boundary, and I doubt 
the Senate would have approved it, had I known that the ranchers would 
be caught between competing special interests for the next quarter 
century. During the unfortunate litigation brought upon the Park 
Service and Vail & Vickers by the National Parks & Conservation 
Association, I thought the ranchers were justified in feeling the 
government had gone back on an agreement they entered into in good 
faith, and that the Interior Department did not adequately defend the 
original sale terms. Simply stated, promises made should have been 
promises kept.
    While it is worth noting that Congressman Duncan Hunter's methods 
last year to insert last minute language into the Defense Authorization 
Act were unorthodox, the simple fact is Section 1077(c) does not allow 
hunting to continue or limit public access on Santa Rosa Island after 
2011; it simply prohibits the deer and elk from being eradicated per 
the Settlement Agreement. It also does not set precedent, as some 
suggest, that allows for non-native species to exist in national parks, 
for this precedent has already been set in this very park. I cite the 
example of the eucalyptus tree, not native to California, and prevalent 
on the Channel Islands. Will the Park Service be eradicating thousands 
of trees? Where is the line drawn in this theoretical goal of 
preserving only what is ``native''?
    In my opinion, many of the allegations of abuse by cattle, deer and 
elk are, to the say the least, greatly exaggerated. If sheep and cattle 
ranching went on for 150 years, with little if any knowledge of/or 
concern about rare and endangered species, how come there are any left 
to be so concerned about now? Probably the most rare and endangered 
thing here in common sense.
    Moreover, I find the assertions of the bill sponsors that hunting 
will continue and public visitation is threatened to be disingenuous. 
It is worth repeating that public access is not limited due to Section 
1077(c) as the language clearly states: ``The Secretary of the Interior 
shall immediately cease the plan, approved in the settlement agreement 
for case number 96-7412 WJR and case number 97-4098 WJR, to exterminate 
the deer and elk on Santa Rosa Island, Channel Islands, California, by 
helicopter and shall not exterminate or nearly exterminate the deer and 
elk.'' To speak of speculation and future scenarios is unfair and not 
productive to building lasting and cooperative solutions.
    Like the existence of ``non-native'' mountain goats in Olympic 
National Park, I strongly believe that the presence of the deer and elk 
enhances the visitor experience on Santa Rosa Island. While the cattle 
and vaqueros might be long gone, the deer and elk showcase the living 
history of the island, illuminating a ranching culture that no longer 
exists across our country. The Park Service calls these ``historical 
landscapes,'' and this example qualifies. The living documentation of 
things past is as vital a mission to the national park system as the 
protection of unique flora and fauna. There is no reason why we cannot 
manage both our natural and human history to great effect. This is was 
certainly my intent in the enabling legislation that preserved this 
national treasure.
    This Committee has a golden opportunity today to sort out 15 years 
of confusion by calling on hearings related to the past and future 
management and oversight of Santa Rosa Island. Can S. 1209 be amended 
to allow the deer and elk to remain on the island--with no hunting 
activities involved--as part of a historic, living history of early 
California ranching life? Certainly, this would require additional 
hearings and in-depth public discussion, but the timing corresponds 
well to the ensuing challenges to manage elk herds in Rocky Mountain 
and Theodore Roosevelt national parks as well as the continued 
destruction of Kaibab mule deer habitat in the Southwest.
    Additionally, it should be noted that Channel Islands National Park 
has not updated its General Management Plan, particularly with regards 
to Santa Rosa Island, since the 1980's. Due to the dramatic changes of 
the past 20 years, one would think that this would have happened by 
now. Perhaps an advisory committee should be created--one with a fair 
balance of different viewpoints--that oversees a Channel Islands 
National Park Historical Resources Study. This would be a positive step 
that this Committee and S. 1209 could take today.
    To conclude, I encourage this Committee to remove any language from 
S. 1209 that can be used to put Vail & Vickers out of business before 
the end of 2011. I also call on Congress to use this legislative 
opportunity to honor the original intent of the agreement, and to find 
a way to keep an invaluable part of our nation's heritage alive.
                                 ______
                                 
             Statement of William H. Ehorn, Smith River, CA
    My name is William H. Ehorn. I was employed with the National Park 
Service (NPS) for 34 years and served as Superintendent of Channel 
islands National Park (CINP) from 1974 to 1989. In that capacity, I was 
an active participant in the 1980 legislation to add Santa Rosa island 
to the park and the NPS acquisition of the island from Vail & Vickers 
in 1986.
    During the 1979-1980 Congressional effort to add Santa Rosa Island 
the CINP, it was clearly understood that Vail & Vickers would be 
allowed to continue a viable ranching operation for a period of 25 
years. At the outset, there was substantial opposition to including the 
island in the park unless there were assurances that the historic 
ranching operation could be continued. Express assurances were provided 
by the Congressional leadership (e.g., Sen. Alan Cranston (D-CA)), the 
committees, and the primary author of the CINP legislation Rep. Robert 
Lagomarsino (R-CA). The Director of the NPS, Mr. William Whalen, also 
provided such assurances at the hearing and via correspondence. Only 
after it was clearly understood that Vail & Vickers could continue 
their historic operations did opposition to including Santa Rosa Island 
in CINP diminish. In the absence of these repeated assurances, I 
believe that the island would not have been added to the park.
    In 1986, NPS acquired Santa Rosa Island from Vail & Vickers. At the 
time of acquisition, it was also clearly understood that a viable 
ranching operation would be permitted to continue for 25 years. As 
Superintendent of the park, it was my intention to honor the 
commitments made by Congress and NPS and allow the ranching operation 
to continue. Vail & Vickers were offered two procedural options for 
continuation: a lease or a special use permit. I was able to persuade 
Vail & Vickers to accept the permit option rather than the lease on the 
grounds that (1) a permit would be managed locally by NPS while a lease 
would be administered from Washington, D.C., (2) permit fees could be 
used to improve and maintain facilities on Santa Rosa Island relative 
to the management of the permit, and (3) a permit would allow NPS to 
begin operations on the island in cooperation with the ranch.
    Vail & Vickers has a record of outstanding stewardship on the 
island. Since 1986 they have cooperated extensively with NPS to further 
improve the quality of the ranching operation and park resources. 
Conservation measures have included reductions in the number of cattle, 
elimination of destructive feral pigs, fencing of sensitive riparian 
zones, and rotational grazing to protect endangered and threatened 
species. I have a personal knowledge of the condition of Santa Rosa 
Island resources, both prior to park establishment and since the 
implementation of cooperative efforts to further enhance the protection 
of park resources. It is my professional opinion that the measures that 
Vail & Vickers have willingly taken in a spirit of cooperation with NPS 
have clearly improved conditions and have promoted the overall health 
and vitality of the natural resources on the island.
    My personal perspective is that it is important for the federal 
government to honor the commitments expressed by Congress and clearly 
understood by all who were involved when the park was created by 
providing for the continuation of the private ranch until 2011. Park 
management will obviously change at the end of the allowed ranch 
operation period since grazing will be discontinued on most of the 
island with the exception of an interpretive demonstration ranch. 
Options tor protective management of resources as well as for visitor 
use will increase at that time. In the interim, the management 
challenge is to honor Congressional intent to this ranching family, as 
well as protect the island's superlative resources.

                                    

      

</pre></body></html>
